<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 112-72, Part 3]
[From the U.S. Government Publishing Office]




                                                   S. Hrg. 112-72, Pt.3

 
             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

              JUNE 8, JUNE 22, JULY 13, AND JULY 27, 2011

                               ----------                              

                           Serial No. J-112-4

                               ----------                              

                                 PART 3

                               ----------                              

         Printed for the use of the Committee on the Judiciary

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS




                                                   S. Hrg. 112-72, Pt.3

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

              JUNE 8, JUNE 22, JULY 13, AND JULY 27, 2011

                               __________

                           Serial No. J-112-4

                               __________

                                 PART 3

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
76-350                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                              June 8, 2011


                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     1
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
    prepared statement...........................................   239

                               PRESENTERS

Schumer, Hon. Chuck, a U.S. Senator from the State of New York 
  presenting Alison J. Nathan Nominee to be U.S. District Judge 
  for the Southern District of New York and Katherine B. Forrest 
  Nominee to be U.S. District for the Southern District of New 
  York...........................................................     3
Landrieu, Hon. Mary, a U.S. Senator from the State of Louisiana 
  presenting Stephen A. Higginson Nominee to be U.S. Circuit 
  Judge for the Fifth Circuit and Jane M. Triche-Milazzo Nominee 
  to be U.S. District Judge for the Eastern District of Louisiana     4
Vitter, Hon. David, a U.S. Senator from the State of Louisiana 
  presenting Stephen A. Higginson Nominee to be U.S. Circuit 
  Judge for the Fifth Circuit and Jane M. Triche-Milazzo Nominee 
  to be U.S. District Judge for the Eastern District of Louisiana     7
Boozman, Hon. John, a U.S. Senator from the State of Arkansas 
  presenting Susan O. Hickey Nominee to be U.S. District Judge 
  for the Western District of Arkansas...........................     8
Pryor, Hon. Mark, a U.S. Senator from the State of Arkansas 
  presenting Susan O. Hickey Nominee to be U.S. District Judge 
  for the Western District of Arkansas...........................     8

                       STATEMENT OF THE NOMINEES

Forrest, Katherine B., Nominee to be U.S. District for the 
  Southern District of New York..................................   127
    Questionnaire................................................   128
Hickey, Susan O., Nominee to be U.S. District Judge for the 
  Western District of Arkansas...................................   171
    Questionnaire................................................   172
Higginson, Stephen A., Nominee to be U.S. Circuit Judge for the 
  Fifth Circuit..................................................    10
    Questionnaire................................................    15
Nathan, Alison J., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................    93
    Questionnaire................................................    94
Triche-Milazzo, Jane M., Nominee to be U.S. Distrct Judge for the 
  Eastern District of Louisiana..................................    52
    Questionnaire................................................    53

                         QUESTIONS AND ANSWERS

Responses of Katherine B. Forrest to questions submitted by 
  Senator Grassley...............................................   210
Responses of Susan O. Hickey to questions submitted by Senator 
  Grassley.......................................................   212
Responses of Stephen A. Higginson to questions submitted by 
  Senator Grassley...............................................   214
Responses of Alison J. Nathan to questions submitted by Senator 
  Grassley.......................................................   219
Responses of Jane M. Triche-Milazzo to questions submitted by 
  Senator Grassley...............................................   224

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Benjamin H. Hill, III, Chair, 
  Washington, DC:
    Katherine Forrest, May 6, 2011, letter.......................   226
    Susan Owens Hickey, April 7, 2011, letter....................   228
    Stephen A. Higginson, May 10, 2011, letter...................   230
    Alison J. Nathan, April 1, 2011, letter......................   232
Anthony Forest Products Co., Aubra Anthony, Jr., President and 
  CEO, ElDorado, Arkansas, June 2, 2011, letter..................   234
Former Supreme Court Clerks, June 8, 2011, joint letter..........   235
Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York, prepared statement.......................................   238
Landrieu, Hon. Mary, a U.S. Senator from the State of Louisiana, 
  prepared statement.............................................   246
New York City Bar, Elizabeth Donoghue, Chair, New York, New York:
    Katherine Forrest, June 14, 2011, letter.....................   250
    Alison J. Nathan, May 10, 2011, letter.......................   250

                        Wednesday, June 22, 2011
                    STATEMENTS OF COMMITTEE MEMBERS

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................   253
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   254
    prepared statement...........................................   612

                               PRESENTERS

Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania presenting Robert D. Mariani, Nominee to be U.S. 
  District Judge for the Middle District of Pennsylvania; Cathy 
  Bissoon, Nominee to be U.S. District Judge for the Western 
  District of Pennsylvania; and Mark R. Hornak, Nominee to be 
  U.S. District Judge for the Western District of Pennsylvania...   258
Lieberman, Hon. Joseph, a U.S. Senator from the State of 
  Connecticut presenting Christopher Droney, Nominee to be U.S. 
  Circuit Judge for the Second Circuit...........................   255
Nelson, Hon. Bill, a U.S. Senator from the State of Florida 
  presenting Robert N. Scola Jr., Nominee to be U.S. District 
  Judge for the Southern District of Florida.....................   256
Rubio, Hon. Marco, a U.S. Senator from the State of Florida 
  presenting Robert N. Scola Jr., Nominee to be U.S. District 
  Judge for the Southern District of Florida.....................   257
Toomey, Hon. Patrick J., a U.S. Senator from the State of 
  Pennsylvania presenting Robert D. Mariani, Nominee to be U.S. 
  District Judge for the Middle District of Pennsylvania; Cathy 
  Bissoon, Nominee to be U.S. District Judge for the Western 
  District of Pennsylvania; and Mark R. Hornak, Nominee to be 
  U.S. District Judge for the Western District of Pennsylvania...   260
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island presenting Christopher Droney Nominee to be U.S. Circuit 
  Judge for the Second Circuit...................................   261

                       STATEMENT OF THE NOMINEES

Bissoon, Cathy, Nominee to be U.S. District Judge for the Western 
  District of Pennsylvania.......................................   402
    Questionnaire................................................   403
Droney, Christopher, Nominee to be U.S. Circuit Judge for the 
  Second Circuit.................................................   261
    Questionnaire................................................   264
Hornak, Mark R., Nominee to be U.S. District Judge for the 
  Western District of Pennsylvania...............................   458
    Questionnaire................................................   459
Mariani, Robert D., Nominee to be U.S. District Judge for the 
  Middle District of Pennsylvania................................   359
    Questionnaire................................................   360
Scola, Robert N., Jr., Nominee to be U.S. District Judge for the 
  Southern District of Florida...................................   517
    Questionnaire................................................   518

                         QUESTIONS AND ANSWERS

Responses of Cathy Bissoon to questions submitted by Senator 
  Grassley.......................................................   589
Responses of Christopher Droney to questions submitted by Senator 
  Grassley.......................................................   591
Responses of Mark R. Hornak to questions submitted by Senator 
  Grassley.......................................................   595
Responses of Robert D. Mariani to questions submitted by Senator 
  Grassley.......................................................   598
Responses of Robert N. Scola, Jr., to questions submitted by 
  Senator Grassley...............................................   601

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Benjamin H. Hill, III, Chair, 
  Washington, DC:
    Cathy Bissoon, November 18, 2010, letter.....................   603
    Christopher Droney, May 6, 2011, letter......................   604
    Mark Raymond Hornak, December 1, 2010, letter................   606
    Robert David Mariani, December 1, 2010, letter...............   608
    Robert N. Scola, Jr., May 6, 2011, letter....................   610
Jayne, Kevin L., New York, New York, February 21, 2011, letter...   622
Lieberman, Hon. Joseph, a U.S. Senator from the State of 
  Connecticut....................................................   624
Moreno, Federico A., Chief U.S. District Judge, Southern District 
  of Florida, Miami, Florida, July 21, 2011, letter and 
  attachments....................................................   630
New York City Bar, Elizabeth Donoghue, Chair, New York, New York, 
  June 14, 2011, letter..........................................   635
Rubio, Hon. Marco, a U.S. Senator from the State of Florida, 
  statement......................................................   636
Rundle, Katherine Fernandez, State Attorney, Eleventh Judicial 
  Circuit of Florida, Miami, Florida, June 13, 2011, letter......   638

                        Wednesday, July 13, 2011
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher, a U.S. Senator from the State of 
  Delaware.......................................................   649
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......   650
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   980

                               PRESENTERS

Barrasso, Hon. John, a U.S. Senator from the from the State of 
  Wyoming presenting Scott W. Skavdahl, of Wyoming, Nominee to be 
  District Judge for the District of Wyoming.....................   643
Begich, Hon. Mark, a U.S. Senator from the State of Alaska 
  presenting Morgan Christen, of Alaska, Nominee to be Circuit 
  Judge for the District of Alaska and Sharon L. Gleason, of 
  Alaska, Nominee to be District Judge for the District of Alaska   648
Carper, Hon. Thomas R., a U.S. Senator from the State of Delaware 
  presenting Richard G. Andrews, of Delaware, Nominee to be 
  District Judge for the District of Delaware....................   643
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming 
  presenting Scott W. Skavdahl, of Wyoming, Nominee to be 
  District Judge for the District of Wyoming.....................   642
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California presenting Yvonne Gonzalez Rogers, of California, 
  Nominee to be District Judge for the Northern District of 
  California.....................................................   640
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska 
  presenting Morgan Christen, of Alaska, Nominee to be Circuit 
  Judge for the District of Alaska and Sharon L. Gleason, of 
  Alaska, Nominee to be District Judge for the District of Alaska   646

                       STATEMENT OF THE NOMINEES

Andrews, Richard G., of Delaware, Nominee to be District Judge 
  for the District of Delaware...................................   828
    Questionnaire................................................   829
Christen, Morgan, of Alaska, Nominee to be Circuit Judge for the 
  District of Alaska.............................................   651
    Questionnaire................................................   652
Gleason, Sharon L., of Alaska, Nominee to be District Judge for 
  the District of Alaska.........................................   730
    Questionnaire................................................   731
Rogers, Yvonne Gonzalez, of California, Nominee to be District 
  Judge for the Northern District of California..................   780
    Questionnaire................................................   781
Skavdahl, Scott W., of Wyoming, Nominee to be District Judge for 
  the District of Wyoming........................................   882
    Questionnaire................................................   883

                         QUESTIONS AND ANSWERS

Responses of Richard G. Andrews to questions submitted by Senator 
  Grassley.......................................................   940
Responses of Morgan Christen to questions submitted by Senator 
  Grassley.......................................................   943
Responses of Sharon L. Gleason to questions submitted by Senator 
  Grassley.......................................................   949
Responses of Yvonne Gonzalez Rogers to questions submitted by 
  Senator Grassley...............................................   956
Responses of Scott W. Skavdahl to questions submitted by Senator 
  Grassley.......................................................   959

                       SUBMISSIONS FOR THE RECORD

American Bar Association (ABA), Benjamin H. Hill, III, Chair, 
  Washington, DC:
    Richard G. Andrews, May 12, 2011, letter.....................   962
    Morgan Christen, May 19, 2011, letter........................   964
    Sharon L. Gleason, April 20, 2011, letter....................   966
    Yvonne Gonzales Rogers, May 10, 2011, letter.................   968
    Scott W. Skavdahl, February 17, 2011, letter.................   970
Anchorage Association of Women Lawyers, Christine V. Williams, 
  President, Anchorage, Alaska, July 8, 2011, letter.............   972
California Women Lawyers (CWL), Patricia Sturdevant, President, 
  Sacramento, California, June 7, 2011, letter...................   974
Carper, Hon. Tom, a U.S. Senator from the State of Delaware, 
  prepared statement.............................................   976
Boxer, Hon. Barbara, a U.S. Senator from the State of California, 
  prepared statement.............................................   977
Gibbons, Hon. Lile R., a U.S. House of Representative from the 
  State of Connecticut, July 5, 2011, letter.....................   978
Kaplan, Diane, President, Rasmuson Foundation, Anchorage, Alaska, 
  July 11, 2011, letter..........................................   979
McMillian, Dennis G., former Executive Director, United Way of 
  Anchorage, July 5, 2011, letter................................   983
Monegan, Walt, former Commissioner, Department of Public Safety, 
  State of Alaska, July 8, 2011, letter..........................   985
O'Neill, Gloria, President/CEO, Cook Inlet Tribal Council, 
  Anchorage, Alaska, July 1, 2011, letter........................   986
Sturgulewski, Arliss, Former Alaska State Senator, July 7, 2011, 
  letter.........................................................   988

                        Wednesday, July 27, 2011
                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................  1288
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa, 
  prepared statement.............................................  1305
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona, 
  memberships, activities and awards for Judge Zipps.............  1313
Schumer, Hon. Charles, a U.S. Senator from the State of New York.   989
    prepared statement...........................................  1319

                               PRESENTERS

Cornyn, Hon. John, a U.S. Senator from the State of Texas 
  presenting James Rodney Gilstrap, Nominee to be U.S. District 
  Judge for the Eastern District of Texas........................   991
Hutchison, Hon. Kay Bailey, a U.S. Senator from the State of 
  Texas presenting James Rodney Gilstrap, Nominee to be U.S. 
  District Judge for the Eastern District of Texas...............   990
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona 
  presenting Jennifer Guerin Zipps, Nominee to be U.S. District 
  Judge for the District of Arizona..............................   993
McCain, Hon. John, a U.S. Senator from the State of Arizona 
  presenting Jennifer Guerin Zipps, Nominee to be U.S. District 
  Judge for the District of Arizona..............................   992
Schumer, Hon. Charles, a U.S. Senator from the State of New York 
  presenting Andrew L. Carter, Jr., Nominee to be U.S. District 
  Judge for the Southern District of New York; Jesse M. Furman, 
  Nominee to be U.S. District Judge for the Southern District of 
  New York; and Edgardo Ramos, Nominee to be U.S. District Judge 
  for the Southern District of New York..........................   994

                       STATEMENT OF THE NOMINEES

Carter, Andrew L., Jr., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................  1042
    Questionnaire................................................  1043
Furman, Jesse M., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................  1086
    Questionnaire................................................  1088
Gilstrap, James Rodney, Nominee to be U.S. District Judge for the 
  Eastern District of Texas......................................  1130
    Questionnaire................................................  1131
Ramos, Edgardo, Nominee to be U.S. District Judge for the 
  Southern District of New York..................................   996
    Questionnaire................................................   997
Zipps, Jennifer Guerin, Nominee to be U.S. District Judge for the 
  District of Arizona............................................  1199
    Questionnaire................................................  1200

                         QUESTIONS AND ANSWERS

Responses of Andrew L. Carter, Jr. to questions submitted by 
  Senators Grassley and Klobuchar................................  1262
Responses of Jesse M. Furman to questions submitted by Senators 
  Grassley and Klobuchar.........................................  1265
Responses of James Rodney Gilstrap to questions submitted by 
  Senators Grassley and Klobuchar................................  1269
Responses of Edgardo Ramos to questions submitted by Senators 
  Grassley and Klobuchar.........................................  1272
Responses of Jennifer Guerin Zipps to questions submitted by 
  Senators Grassley and Klobuchar................................  1275

                       SUBMISSIONS FOR THE RECORD

American Bar Association (ABA), Benjamin H. Hill, III, Chair, 
  Washington, DC:
    Andrew L. Carter, Jr., May 20, 2011, letter..................  1278
    Jess Furman, June 8, 2011, letter............................  1280
    James Rodney Gilstrap, May 20, 2011, letter..................  1282
    Edgardo Ramos, May 6, 2011, letter...........................  1284
    Jennifer Guerin Zipps, June 24, 2011, letter.................  1286
Law Clerks, former, July 1, 2011, joint letter...................  1292
Law School Classmates, former, July 6, joint letter..............  1296
Mukasey, Michael B., New York, New York, July 27, 2011, letter...  1314
New York City Bar, Elizabeth Donoghue, Chair, New York, New York:
    Andrew Carter, July 13, 2011, letter.........................  1316
    Jesse Furman, July 13, 2011, letter..........................  1317
    Edgardo Ramos, June 14, 2011, letter.........................  1318

                     ALPHABETICAL LIST OF NOMINEES

Andrews, Richard G., of Delaware, Nominee to be District Judge 
  for the District of Delaware...................................   828
Bissoon, Cathy, Nominee to be U.S. District Judge for the Western 
  District of Pennsylvania.......................................   402
Carter, Andrew L., Jr., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................  1042
Christen, Morgan, of Alaska, Nominee to be Circuit Judge for the 
  District of Alaska.............................................   651
Droney, Christopher, Nominee to be U.S. Circuit Judge for the 
  Second Circuit.................................................   261
Forrest, Katherine B., Nominee to be U.S. District for the 
  Southern District of New York..................................   127
Furman, Jesse M., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................  1086
Gilstrap, James Rodney, Nominee to be U.S. District Judge for the 
  Eastern District of Texas......................................  1130
Gleason, Sharon L., of Alaska, Nominee to be District Judge for 
  the District of Alaska.........................................   730
Hickey, Susan O., Nominee to be U.S. District Judge for the 
  Western District of Arkansas...................................   171
Higginson, Stephen A., Nominee to be U.S. Circuit Judge for the 
  Fifth Circuit..................................................    10
Hornak, Mark R., Nominee to be U.S. District Judge for the 
  Western District of Pennsylvania...............................   458
Mariani, Robert D., Nominee to be U.S. District Judge for the 
  Middle District of Pennsylvania................................   359
Nathan, Alison J., Nominee to be U.S. District Judge for the 
  Southern District of New York..................................    93
Ramos, Edgardo, Nominee to be U.S. District Judge for the 
  Southern District of New York..................................   996
Rogers, Yvonne Gonzalez, of California, Nominee to be District 
  Judge for the Northern District of California..................   780
Scola, Robert N., Jr., Nominee to be U.S. District Judge for the 
  Southern District of Florida...................................   518
Skavdahl, Scott W., of Wyoming, Nominee to be District Judge for 
  the District of Wyoming........................................   882
Triche-Milazzo, Jane M., Nominee to be U.S. Distrct Judge for the 
  Eastern District of Louisiana..................................    52
Zipps, Jennifer Guerin, Nominee to be U.S. District Judge for the 
  District of Arizona............................................  1199


 NOMINATIONS OF STEPHEN A. HIGGINSON, NOMINEE TO BE U.S. CIRCUIT JUDGE 
   FOR THE FIFTH CIRCUIT; JANE M. TRICHE-MILAZZO, NOMINEE TO BE U.S. 
DISTRICT JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA; ALISON J. NATHAN, 
  NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW 
 YORK; KATHERINE B. FORREST, NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE 
  SOUTHERN DISTRICT OF NEW YORK; SUSAN O. HICKEY, NOMINEE TO BE U.S. 
          DISTRICT JUDGE FOR THE WESTERN DISTRICT OF ARKANSAS

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:33 p.m., Room 
226, Dirksen Senate Office Building, Senator Al Franken, 
presiding.
    Present: Senators Schumer and Grassley.

 OPENING STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Franken. This hearing is called to order.
    Before we begin, I'd like to welcome all of you here today 
to the Senate Judiciary Committee. While the entire Senate must 
provide their advice and consent to the President on 
nominations, the Judiciary Committee is uniquely charged with 
the important duty of evaluating the President's judicial 
nominees prior to their confirmation by the full Senate.
    We are honored today to have these accomplished nominees 
here with us and look forward to hearing from them.
    Today we will consider five nominations: Steven A. 
Higginson, for U.S. Circuit Judge for the Fifth Circuit; Judge 
Jane M. Triche-Milazzo, for U.S. District Judge for the Eastern 
District of Louisiana; Alison J. Nathan, for District Judge for 
the Southern District of New York; Katherine B. Forrest, for 
District Judge for the Southern District of New York; Judge 
Susan O. Hickey, for District Judge for the Western District of 
Arkansas.
    We are fortunate to have some of these nominees home State 
Senators and Representatives here to introduce them, so we will 
turn to them shortly. But before we do, I'll turn the floor 
over to my good friend, the Ranking Member, Senator Grassley, 
for his opening remarks.

STATEMENT OF HON. CHARLES E. GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. Thank you, Mr. Chairman. I welcome our 
nominees, as my Chairman has done, and of course, family and 
friends who are proud of everybody that's been nominated.
    Nomination hearings are important events not only for the 
nominee and for the family, but also for this institution and 
for the public. The advice and consent function of the Senate 
is a critical step in the process. This hearing, and other 
hearings, give Senators further information to consider as we 
contemplate whether or not to give that consent.
    In Federalist Papers 76, Alexander Hamilton wrote, ``To 
what purpose then require the cooperation of the Senate? I 
answer, that the necessity of their concurrence would have a 
powerful, though, in general, a silent operation. It would be 
an excellent check upon the spirit of favoritism in the 
President, and would tend greatly to prevent the appointment of 
unfit characters from State prejudice, from family connection, 
from personal attachment, or from a view to popularity.''
    In other words, the Senate has a role in preventing the 
appointment of judges, or simply political favorites of the 
President, or of those who are not qualified to serve as 
Federal judges.
    So I would remind my colleagues of what then-Senator Obama 
stated about this duty. Six years ago today, June 8, 2005, in 
connection with the attempted filibuster of Janice Rogers 
Brown, he stated: This is Senator Obama: ``Now the test for a 
qualified judicial nominee is not simply whether they are 
intelligent. Some of us who attended law school or were in 
business know there are a lot of real smart people out there 
whom you would not put in charge of stuff. The test of whether 
a judge is qualified to be a judge is not their intelligence, 
it is their judgment.''
    A few months later, on January 26, 2006 when debating the 
Alito nomination, then-Senator Obama stated: ``There are some 
who believe that the President, having won the election, should 
have the complete authority to appoint his nominee, and the 
Senate should only examine whether or not the Justice is 
intellectually capable and an all-around nice guy. That once 
you get beyond intellect and personal character, there should 
be no further question whether a judge should be confirmed.''
    Senator Obama continued, ``I disagree with this view. I 
believe firmly that the Constitution calls for the Senate to 
advise and consent. I believe that it calls for meaningful 
advice and consent that includes an examination of a judge's 
philosophy, ideology, and record.''
    So, Mr. Chairman, our inquiry of the qualifications of 
nominees must be more than intelligence, a pleasant 
personality, or a prestigious clerkship. At the beginning of 
this Congress, I articulated my standards for judicial 
nominees. I want to ensure that the men and women who are 
appointed to a lifetime position in the Federal judiciary are 
qualified to serve. Factors I consider important include 
intellectual ability, respect for the Constitution, fidelity to 
the law, personal integrity, appropriate judicial temperament, 
and professional competence.
    In applying these standards, I have demonstrated good faith 
in ensuring fair consideration of judicial nominees. I have 
worked with the Majority to confirm consensus nominees. 
However, as I have stated more than once, the Senate must not 
place quantity confirmed over quality confirmed. These lifetime 
appointments are too important to the Federal judiciary and the 
American people to simply rubber-stamp them.
    I am becoming increasingly concerned about some of the 
judicial nominations being sent to the Senate. In a few 
individual cases it's very troublesome. Perhaps the White House 
has grown tired of my observation that, for most of this 
President's term, a majority of vacancies had no pending 
nominee. But in their rush to remedy that situation, I would 
hope that they would not send up nominees who lack appropriate 
experience or who otherwise fail to meet the standards I 
previously mentioned.
    I am sure it is no surprise to you, but I have a longer 
statement I am going to put in the record.
    Senator Franken. That will be included in the record. I 
thank the Ranking Member, who is very intelligent and all-
around nice guy.
    Senator Grassley. Well, thank you.
    [Laughter.]
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Franken. Now I'd like to recognize my distinguished 
colleague, also very intelligent and very all-around--I'm not 
going to--you know I'm going to recognize a lot of Senators, so 
I'm going to stop this because Senator Landrieu and Senator 
Vitter are here, all very nice people.
    [Laughter.]
    Senator Grassley. So far he's been very bipartisan.
    [Laughter.]
    Senator Franken. And bi-gender, too.
    [Laughter.]
    Senator Franken. Thanks for pointing that out. OK.
    So, Senator Schumer will introduce Ms. Nathan and Ms. 
Forrest.

 PRESENTATION OF ALISON J. NATHAN, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK AND KATHERINE B. 
  FORREST NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE SOUTHERN 
DISTRICT OF NEW YORK BY HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce two outstanding nominees. I share 
another thing in common with my colleague from Iowa. Not only 
the same first name and the same nickname and the same middle 
initial, but I have a statement that I'd like read into the 
record so we can get to the nominees.
    Senator Franken. Without objection, that will be included 
in the record.
    Senator Schumer. Thank you.
    Anyway, we have two fine candidates for the bench at the 
Southern District of New York. They have different backgrounds, 
and each in her own way represents the best that the New York 
Bar has to offer.
    First, Alison Nathan is a gifted young lawyer whom New 
Yorkers would be fortunate to have on the bench, hopefully for 
a very long time. She's a native of Philadelphia, but has 
called New York City her home for some time. She graduated at 
the top of her class from both Cornell University and Cornell 
Law School, where she was editor-in-chief of the Cornell Law 
Review; worked as a litigator for 4 years at the preeminent 
firm of Wilmer Hale, and has served in two of the three 
branches of government.
    She clerked for the Ninth Circuit Court of Appeals, Judge 
Betty Fletcher, and then recently for Supreme Court Justice 
John Paul Stevens. She served with distinction as Special 
Assistant to President Obama and as Associate White House 
Counsel, and now as Special Counsel to the Solicitor General of 
New York.
    Ms. Nathan has had a remarkably varied experience, all of 
it directly relevant to the breadth of perspective and judgment 
she'll bring to the bench.
    Katherine Forrest is also young, but an extraordinary, 
accomplished lawyer whose practice has been particularly well-
suited to the needs of litigants in the Southern District. Born 
in New York City, she received her B.A. from Wesleyan, a law 
degree from New York University Law School, spent the majority 
of her career in private practice at the prestigious top-line 
firm, filled with very intelligent, all-around nice guys and 
gals, of Cravath, Swaine & Moore, where she was on the National 
A List of Practitioners.
    She was named one of American Lawyer's Top 50 Litigators 
under 45; currently serves as Deputy Attorney General in the 
Antitrust Division of the Department of Justice, where I know 
she is very well-regarded and has served with great 
distinction. I look forward to Ms. Forrest's transition from 
one position of service to our country to the next, and thank 
both of these nominees for putting themselves forward to join 
the Southern District of New York, the bench there.
    Senator Franken. Thank you, Senator Schumer.
    Now to Senator Landrieu and Senator Vitter, who will 
introduce Professor Higginson and Judge Triche-Milazzo.

PRESENTATION OF STEPHEN A. HIGGINSON NOMINEE TO BE U.S. CIRCUIT 
JUDGE FOR THE FIFTH CIRCUIT AND JANE M. TRICHE-MILAZZO NOMINEE 
TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA 
    BY HON. MARY LANDRIEU, A U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. I really 
appreciate the opportunity to present such outstanding 
candidates to you and to the Committee for your consideration 
today.
    I'm going to start by saying I'm going to have to slip out 
right afterwards, as I'm chairing a hearing in just a few 
minutes right down the hall.
    Senator Franken. And the same for every Senator. I know 
you've got plenty to do.
    Senator Landrieu. Thank you so much.
    Senator Franken. And I want to thank all Senators who are 
here to introduce the nominees.
    Senator Landrieu. Thank you so much.
    Let me begin by presenting Mr. Steven Higginson, who is 
before you today for a nominee--as a nominee to the Fifth 
Circuit Court of Appeals. Before I begin going into, just 
briefly, his academic credentials, which are extraordinary, let 
me say that he's surrounded by a very proud family, including 
his parents, Charles and Genevra Higginson; his brothers, 
Timothy and Philip; his children, Christopher, Cadie and 
Noelle; and his wife, Collete Creppell.
    I'm very happy, Mr. Chairman, and I think you and the 
Ranking Member will be very pleased to hear, that this is not 
the only special occasion of this family, as extraordinary as 
it is today. His two girls, two of his three children, have 
just returned from Germany where they played, and won, the 
World Championship for the U.S. of A on the Girls U-15 Women's 
Soccer Club. So can we all give them a hand, please?
    [Applause].
    Senator Landrieu. Their Louisiana teammates represented our 
United States very well on the field. Their father will 
represent our country and the constituents that we seek to 
serve each and every day beautifully on this bench, should your 
Committee and the Senate approve his nomination.
    I'll have to be honest, Mr. Chairman. When I began my 
search for someone that could replace Judge Jacques Wiener on 
the Fifth Circuit, who was an outstanding judge, I was not 
familiar with Mr. Higginson personally. But as my Committee met 
and reviewed a list of potential nominees that could serve on 
this very important and historic bench, his academic record and 
his achievements literally just jumped off the pages to me as I 
was reviewing them in some detail.
    Let me just hit the highlights. He earned his first degree 
from Harvard summa cum laude. After graduating, he earned a 
Master's in Philosophy from Cambridge as a Harvard Scholar. 
With degrees from two of the most prestigious institutions on 
the planet, he then decided to pursue a J.D. from Yale Law 
School.
    When he graduated 3 years later, Steven had earned the 
extraordinary distinction of being both editor-in-chief of the 
Yale Law Review and the winner of the Israel H. Perez prize for 
Best-Written Contribution to the Law Review.
    After graduating from Yale Law School, he served as clerk 
to Hon. Patricia M. Wald, who is with us today, from the U.S. 
Court of Appeals for the District of Columbia and we are 
honored to have Honorable Patricia Wald with us today.
    He then went on to serve as law clerk to Brian White on the 
U.S. Supreme Court, Justice Brian White. Since 1993, he's 
resided in New Orleans, initially serving as Assistant U.S. 
Attorney for the Eastern District, doing an outstanding job.
    Mr. Chairman, after only 2 years in that office he became 
Chief of Appeals. As Chief of Appeals, he personally handled 
and supervised all criminal and civil appeals in the District, 
editing or writing more than 100 appellate briefs and 
presenting numerous oral arguments before the Fifth Circuit 
Court of Appeals, a court he is now being nominated to serve.
    Very briefly and in conclusion, he has, in addition to all 
of this, become a full-time Associate Professor of Law at 
Loyola University, and earned the honor of Professor of the 
Year for each of the 3 years of teaching at Loyola. I don't 
believe I could have found, if I had looked, anyone more 
qualified. He is a tremendous intellectual asset, great father, 
great member of our community, and his character is quite 
apparent in the achievements represented here. I will submit 
the rest for the record.
    [The prepared statement of Senator Landrieu appears as a 
submission for the record.]
    Senator Landrieu. Next, I would like to submit an 
outstanding young woman, Jane Triche-Milazzo, who is already a 
judge, having been elected a year ago in Louisiana. She is 
joined by her husband, John Milazzo, her son Richard, her 
daughter Ann, her stepson Jack, and her godson, Sam. We have 
very large and extended families in Louisiana.
    Unable to join Judge Triche-Milazzo is her son Joe, who was 
deployed just yesterday with the Louisiana National Guard for a 
tour in Afghanistan. So in both of these families represented, 
they are carrying the American flag all over this world, 
literally, and here this morning in the Committee.
    I've known Jane literally my whole life. She's an 
outstanding individual, a tremendous citizen of our State. 
She's demonstrated, through her private practice in a small 
town in Louisiana, in Napoleanville, Louisiana, and as a judge 
for Louisiana's Twenty-Third District, that she is qualified, 
energetic, and ready for this position.
    She graduated magna cum laude from Nichols State 
University, a fine university in our State. After graduating, 
she did not immediately pursue a law degree, which I find very 
interesting. She thought her first calling might be to 
teaching, and she got a degree and went into the classroom to 
teach at the elementary level.
    But because she came from a family of outstanding lawyers, 
she eventually found her way to law school, getting her J.D. 
from Louisiana State University, and after law school spent 6 
years as Associate Attorney at the Napoleanville law firm 
before being promoted to partner.
    She has a long list of accomplishments, including LSU Law 
School Board of Trustees, American Bar Association, Fifth 
Circuit Court Bar Association, Judicial Bar Association, Baton 
Rouge Bar Association, et cetera.
    She was, again, elected first female judge in the history 
of Louisiana's Twenty-Third judicial district.
    I am so pleased and honored to present both of these, Mr. 
Chairman, for your consideration, and the Committee. I know 
that as you review their resume and see the character that 
these two people will bring to the bench, Mr. Grassley and Mr. 
Franken--Senator Grassley and Senator Franken--you will not be 
disappointed should you see them through to the Senate. Thank 
you.
    Senator Franken. Thank you, Senator Landrieu.
    Senator Vitter.

    PRESENTATION OF STEPHEN A. HIGGINSON NOMINEE TO BE U.S. 
DISTRICT JUDGE FOR THE FIFTH CIRCUIT AND JANE M. TRICHE-MILAZZO 
 NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
 LOUISIANA BY HON. DAVID VITTER, A U.S. SENATOR FROM THE STATE 
                          OF LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman, Ranking 
Member Grassley. You know, when I was listening to the Ranking 
Member's comments quoting the Federalist Papers, it just struck 
me, and I hope we all pause occasionally and are properly 
thrilled and honored about our personal role in things that the 
Constitution put in place and that the Federalist Papers were 
about. Maybe we're so busy we don't do that often enough, but 
it struck me at that moment. I'm personally honored and 
thrilled to be a small part of this process. I know our 
nominees and their families feel that way, particularly today.
    And I think Senator Landrieu and I, being so united and so 
enthusiastic--and we are--about our two Louisiana nominees, is 
a great example of how it's supposed to work, as cited in the 
Federalist Papers and how it has worked in practice in this 
case, and that's a great thing. And so I certainly join Mary in 
being extremely, not just supportive, but enthusiastic about 
our nominees.
    Steven Higginson. Mary outlined most of his background. He 
has unbelievable academic and intellectual credentials that are 
unquestioned. He also has served as an Assistant U.S. Attorney, 
particularly focusing on appeals. In that role he has gotten 
high, high praise from every part of the Bar, every part of the 
bench. He's just won the respect of everyone in the community 
based on his work ethic, and his honesty, and his integrity, 
and his dedication to the job.
    In that, he has authored over 100 Federal appellate briefs. 
He's reviewed more than 300 additional Federal appellate 
briefs. Obviously his academic background, his clerkship with 
Justice White, other parts of his background, have served him 
exceedingly well in that regard.
    Because of that he also won the Excellence in Law 
Enforcement award from the New Orleans Metropolitan Crime 
Commission, and a lot of that has to do with, he was very 
involved, and a leader, on many of our most important and most 
difficult recent public corruption cases.
    I can tell you, being a Louisiana citizen, his and others' 
work on those public corruption cases has been an enormous 
public service that we're all grateful for. So I'm really, 
really excited to join with Mary in wholeheartedly supporting 
this nomination.
    I also certainly join with her, and I'm extremely 
supportive of, the nomination of Judge Jane Triche-Milazzo as 
well. Again, I agree with Mary. I think an interesting and 
really helpful part of her background is that she didn't go 
immediately into law. She was a school teacher, elementary 
school teacher, a very good one before going to LSU Law School. 
Then she practiced law and has served as a State Court judge on 
Louisiana's Twenty-Third Judicial District Court for several 
years and has won everyone's respect there.
    I also want to mention the dedication and public service of 
her family, including her son who is currently in the U.S. Army 
and was just deployed to Afghanistan. So, we certainly thank 
Judge Triche-Milazzo and her family and her son for that 
dedication and public service and sacrifice of the entire 
family.
    So I'm delighted to join with Mary in strongly endorsing 
both of these nominees, and thank you all for having this 
hearing that includes them both.
    Senator Franken. Thank you very much, Senator Vitter.
    Let's go now to Senator Boozman, who will talk about, I 
guess, Judge Hickey.

  PRESENTATION OF SUSAN O. HICKEY NOMINEE TO BE U.S. DISTRICT 
    JUDGE FOR THE WESTERN DISTRICT OF ARKANSAS BY HON. JOHN 
       BOOZMAN, A U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Chairman Franken and Ranking 
Member Grassley, for allowing me to speak at this important 
hearing today. I am proud to be here and join with my senior 
Senator from Arkansas, Mark Pryor, to introduce and support 
Susan Hickey's nomination as U.S. District Judge for the 
Western District of Arkansas. Her extensive experience and her 
impressive background unanimously qualify her for the position 
of District judge.
    Born in Dallas, Texas, Susan moved to the State of Arkansas 
when she was 5 years old. She graduated from Flippin High 
School and was valedictorian of her class. A fellow Razorback, 
she attended the University of Arkansas, where she received a 
bachelor's degree in Psychology. She then continued her 
education at the University of Arkansas School of Law, where 
she impressively completed her law degree in only two and a 
half years.
    After law school, Susan moved to South Arkansas and was 
employed at a private law firm, and later Murphy Oil 
Corporation. After taking time off to be with her three sons, 
she clerked at the U.S. District Court in El Dorado, before 
being appointed by Governor Mike Bebe to fill the position of 
Circuit Judge for the Thirteenth Judicial District in September 
of 2010.
    One of the most important things that we do in the Senate 
is the confirmation of judges, the process of selecting people 
with the right temperament and the right qualifications. I 
believe that Susan Hickey will do a great job and that we will 
all be very proud of her future service on the bench. I 
congratulate her on her nomination and strongly support her 
confirmation.
    Thank you, and I yield back.
    Senator Franken. Thank you, Senator.
    We'll go to Senator Pryor.

  PRESENTATION OF SUSAN O. HICKEY NOMINEE TO BE U.S. DISTRICT 
JUDGE FOR THE WESTERN DISTRICT OF ARKANSAS BY HON. MARK PRYOR, 
           A U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Pryor. Thank you. Thank you, Mr. Chairman and 
Senator Grassley. Thank you all for having us here today.
    I would like to thank the family and friends of Susan who 
have made the trip to Washington, DC to be with her on this 
very special day, her husband Joe Hickey, along with her two 
sons, Patrick and Michael Hickey are here. She also has two 
special friends in attendance, Becky and Ernie Cagle. So I want 
to thank all them for being here.
    Mr. Chairman, I am honored to sit before you today and 
recommend Susan for confirmation as a Federal judge for the 
Western District of Arkansas. Throughout the confirmation 
process, I believe this Committee will come to understand why 
Susan has earned a reputation, in legal circles and around the 
State of Arkansas, as a hard worker and as a brilliant lawyer.
    While this Committee has seen more than its fair share of 
polarizing nominees, you will find that Susan is not. She is 
well-respected in Arkansas legal circles and has a strong 
commitment to a fair, impartial legal system
    Susan Hickey is currently a Circuit Judge for the 
Thirteenth Judicial District in El Dorado, Arkansas, where she 
has jurisdiction over civil, criminal, juvenile, domestic 
relations, and probate matters in six counties. She also served 
as a career judicial clerk to Judge Harry Barnes and the 
Western District of Arkansas, who she will replace if she's 
confirmed.
    She started her career as a lawyer and a staff attorney at 
Murphy Oil Corporation in El Dorado from 1981 to 1984. She 
earned her law degree at the University of Arkansas School of 
Law in 1980. She received her B.A. from the University of 
Arkansas in 1977.
    As you all know from my background as Attorney General, I 
have a lot of roots in the Arkansas Bar and Arkansas legal 
community, and as such have a lot of friends and acquaintances, 
both personal and professional, who do not hesitate to give me 
advice and counsel regarding legal issues, especially 
concerning Federal judgeships.
    When Susan's name began to circulate for this nomination, I 
only received praise from her colleagues. Susan has the smarts, 
the credentials, the experience, and the judicial temperament 
to be a great Federal judge. In my mind, she has all the tools, 
and I believe the members of this Committee will also find that 
this candidate exemplifies the proper credentials and 
temperament to do so.
    Thank you, Mr. Chairman.
    Senator Franken. Thank you, Senator Pryor.
    Before we turn to our first panel, Professor Higginson, I 
would just like to add to the record this letter from Senator 
Gillebrand offering strong support for the nomination of Ms. 
Nathan.
    [The prepared statement of Senator Gillebrand appears as a 
submission for the record.]
    Senator Franken. OK. Now we will begin our first panel. 
Professor Higginson, will you take your seat? Well, actually, 
why don't you not--just stand and raise your right hand. There 
you go.
    [Whereupon, the nominee was duly sworn.]
    Senator Franken. Thank you.
    Now, is your daughter the soccer player here?
    Professor Higginson. Yes. My twin daughters are. They're 
both here.
    Senator Franken. Yes. OK. You can stay seated, or you can 
stand doing this. I just want to give you--feel free to 
introduce your family however you want, standing or sitting.
    [Laughter.]

  STATEMENT OF STEPHEN HIGGINSON, NOMINEE TO BE U.S. CIRCUIT 
                  JUDGE FOR THE FIFTH CIRCUIT

    Professor Higginson. I'd like to first thank the Senate, 
Chairman and Ranking Member, for allowing me to appear before 
the Senate and this Committee. That's a great honor and I'm 
grateful.
    I'd also like to thank Senator Landrieu for recommending me 
to the President, and the President for nominating me, and 
thank Senator Vitter for his support and his kind words today.
    Additionally today, thank you, I'm joined by my family. My 
parents are here, my mother and father in the front row.
    Senator Franken. Hi. Welcome.
    Professor Higginson. They're not the soccer players.
    [Laughter.]
    Senator Franken. Oh. They're the grandparents of.
    Professor Higginson. The grandparents of the soccer 
players.
    Senator Franken. Yes.
    Professor Higginson. The two soccer players, daughters, 
twins, are Cadie and Noelle here.
    Senator Franken. And this is a full team? It's not two 
people soccer?
    [Laughter.]
    Professor Higginson. It's a full team.
    Senator Franken. Other people won it too, right? 
Congratulations. Thank you for winning on our behalf.
    [Laughter.]
    Professor Higginson. And my son Christopher is also a 
player. I'm very proud of all my children. He's there.
    Senator Franken. How are you doing?
    Professor Higginson. And my two brothers, Timothy and Phil, 
have come from Chicago and North Carolina. And also seated here 
is Judge Patricia Wald, who was my first judicial employer and 
role model.
    I'd like to also thank quite a few friends who have 
traveled from out of State here.
    Senator Franken. OK. Well, welcome to all of you. Again, 
congratulations to the twins for representing our country so 
well in Germany.
    And Professor Higginson, you have--as you were being 
introduced, I was--that was--that's a pretty stunning resume 
there, I must say. And--and also a very bipartisan--did you see 
that, how bipartisan that was, and how enthusiastic they were? 
That will make you happy, right?
    [Laughter.]
    Senator Grassley. Well, you make the Senate look good, too.
    Senator Franken. Yes. Yes. Well, I'm saying they do. OK.
    You have spent the majority of your career as a Federal 
prosecutor, dealing with issues from FDA enforcement against 
criminal drug manufacturers, to accountability for political 
corruption. You have received some of the Department of 
Justice's highest awards for your work in this field.
    If you are confirmed, how will your perspective on cases 
change?
    Professor Higginson. My perspective on cases, I think, 
would in some ways be the same, and in other ways different. To 
elaborate, as an advocate and having had the opportunity to be 
in the courtroom for 20 years, I feel that I do know the rules 
and the importance of professional courtesy and the importance 
of the adversarial process.
    Specifically, having been a public servant for the 
Department of Justice and representing the people of the United 
States, I do understand that my duty has always been to 
faithfully apply and take care that laws are executed. 
Additionally, that the duty of a Federal prosecutor or public 
servant is to see that justice is done. I think those qualities 
will transfer well.
    On the other hand, of course, a judge has to be impartial, 
is not a specific advocate. I think the last 15 years of my 
appellate work specifically might be of assistance to the Fifth 
Circuit because I'm very familiar with the procedures there and 
the rules, and I've been in front of that court and I revere it 
greatly.
    Senator Franken. Now, you're a professor. You talked about 
applying the law, right? And I know you talk to your students 
about that. So let's talk about applying the law. What extent 
do you think that life experience enters into that? I know that 
it's, in theory, you know, not supposed to, but then again it 
does, I would think. Right? Am I--discuss----
    Professor Higginson. Well, Senator, I think--I discuss----
    [Laughter.]
    Professor Higginson. Life experiences and personal 
viewpoints stop at the courtroom door. There is no room for 
them in the role of the judge at all. Now, that said, I do 
think there are temperamental qualities of a judge that are 
important. Everybody who walks into a court--I certainly know 
this having been an attorney--every litigant, every party wants 
to feel welcome when they walk into a court in the United 
States.
    I also think it's very important for Federal judges at any 
level to remain humble, to realize that they serve the people 
and therefore not to be arrogant, because the indispensable 
quality of a judge is to be open-minded, to consider the law 
fully, to apply the facts, but exclusively that.
    So in terms of life experiences, those have no role in the 
decisionmaking of a judge. But I do think that they are 
important in terms of respecting litigants and opposing views 
and not pre-judging anything until the parties all feel they've 
heard. I know, having lost cases, that the most important 
quality and wonderful quality of our system of justice is that 
you know you've been heard.
    Senator Franken. OK. Well, thank you, Professor Higginson. 
You just seem unbelievably qualified and I--and your Senators 
seem to be quite enthusiastic about your nomination. In fact, 
they said so many times.
    [Laughter.]
    Senator Grassley. Are you going to swear him in?
    Senator Franken. I swore him in.
    Senator Grassley. Oh, you did that?
    Senator Franken. Yes.
    Senator Grassley. How did I miss that? I wasn't sleeping, 
I'm sure.
    Senator Franken. No. I think you were reading something 
important. I swore you in.
    Professor Higginson. Yes, you did.
    Senator Franken. Yes, I did. OK.
    [Laughter.]
    Senator Grassley. I saw him stand up, but you made him sit 
down right away.
    Senator Franken. Well, that's what confused you.
    Senator Grassley. OK.
    Senator Franken. Thank you. We'll go the Ranking Member.
    Senator Grassley. In answer to his question, you seem to be 
a pretty good person that I think I'd want on the bench, and I 
don't know much about you yet. But at least I liked that last 
answer you gave about leaving personal feelings at the 
courtroom door.
    As I'm sure you're well aware, there are currently several 
constitutional challenges to the Congress' authority under the 
Commerce Clause to mandate everyone purchase health insurance 
as required under the Patient Protection and Affordable Care 
Act. As a Professor of constitutional law--and I'm looking at 
you in that position right now where you are--I'm interested in 
learning more about your understanding of Congress' authority 
under the Commerce Clause and its potential application to an 
individual mandate.
    Several commentators, including Professor Goodwin Liu, have 
said that Lopez and Morrison are difficult or incoherent 
standards in outlining the limitations of the Interstate 
Commerce Clause. How would you describe the limitations on 
Congress' power under the Commerce Clause?
    Before you answer that, I'd like to say that most people 
that come here to answer our questions would say something like 
this in answer to that question: ``if confirmed, I'll follow 
the law and the precedents.'' That's not really an answer 
because you're a constitutional law professor and understand 
the Commerce Clause better than this farmer does, because I'm 
not a lawyer. And so I'd like to have you answer it from the 
standpoint as, if I'm one of the students in your class. How 
far does the Commerce Clause go?
    Professor Higginson. Senator Grassley, thank you for that 
question. All Congress' powers are few and defined, and that 
includes the enumerated powers which also includes the Commerce 
Clause. The Commerce Clause has been the basis for many Federal 
criminal statutes that I've had to enforce, so I'm acutely 
aware of the limits of the authority of Congress to regulate or 
prescribe activities.
    So being specific, for example, in my practice, arson, 
Hobbs Act, many crimes we pursue we have to be very sensitive 
to the limits of Congressional authority. Now, as a judge, 
separately, I would be very mindful of the fact that Congress 
makes the law. Judges don't make the law, judges interpret the 
law.
    If Congress exceeds its authority, however, it is the job 
of the judge to declare an act that is repugnant to the 
Constitution void. Specifically turning to your Commerce Clause 
question, it would be important--if I were teaching my 
students, I would--I would teach at a level of generality that 
would not face me if I were a judge.
    If I were a judge, it would be imperative for me to know 
the facts and to apply controlling law to those facts, with the 
benefit of the judicial process. And I want to emphasize that. 
Whenever I walk into a court I try never to say or write 
anything that I can't support with a citation to the record or 
to a citation of controlling or persuasive authority. It is not 
a judge's responsibility to do anything other than that.
    But you've asked me to elaborate my views as a teacher, and 
the cases you described do cover the terrain of the Commerce 
Clause scope. Morrison and Lopez were limitations on 
Congressional authority. After that, there was another case, 
the medical marijuana case out of California, Rake, which 
defined further the scope of the Commerce Clause without trying 
to describe what an outcome might be as to cases that are 
presently pending in courts and that will work their way to the 
Supreme Court, which then, if I'm confirmed, I'd be an 
intermediate court, obligated to follow that law. I will say 
that Congress' authority to regulate activity is limited to 
regulating three types of activity. This is spelled out in the 
cases you described: instrumentalities of commerce, channels of 
commerce, and activities that substantial affect interstate 
commerce.
    In that context, the question you asked, I would have to 
define to my students more, well, what is the activity being 
looked at? Is it economic in nature? Is it purely interstate, 
in which case Congress and the Tenth Amendment might have fewer 
powers? So it takes me about 2 weeks, in my constitutional law 
class, to elaborate an answer to that question. But I hope that 
gives you some insight.
    Senator Grassley. Don't take 2 weeks this time.
    Professor Higginson. OK.
    [Laughter.]
    Senator Grassley. Well, listen. That gets me to something 
then that I think Congress is doing for the first time, 
mandating that--saying that Congress can force people to do 
something that I would call economic inactivity. Under your 
understanding of the Lopez and Supreme Court precedent, does 
Congress then have the authority to regulate economic 
inactivity? An example of that is, if I don't want to buy 
health insurance, does the Federal Government give--can 
Congress make me buy health insurance? But don't concentrate on 
the health insurance, concentrate on the inactivity. Can 
Congress regulate economic inactivity?
    Professor Higginson. Senator Grassley, again, if I were 
confirmed to sit in an intermediate court position I would be 
obligated to follow the law. There is guiding Supreme Court law 
on these issues; we've mentioned three cases. But by your 
reference to the view that Congress could be coercing activity, 
that does implicate other limitations spelled out by the 
Supreme Court: the Prince decision, South Dakota v. Dole. There 
are a legion of cases that you correctly do point out that 
Congress' authority is limited and those would have to be 
sensitively applied and considered.
    I can assure you that if I were confirmed to be a judge I 
would assiduously do that, but only in the context of facts 
presented directly to me. It would be crucial, for me to answer 
the question you're asking, to be able to look at your piece of 
legislation, to look at what Congress explicitly has written. I 
do understand that several District Courts have come to 
different conclusions, so again, this is an issue that there 
will be guidance on.
    Senator Grassley. Well, is there any precedent of any court 
to force people into economic activity that they might not want 
to get into?
    Professor Higginson. I'm pausing so I don't misspeak. I 
think that that question is not one that I've studied closely. 
Again, the cases are----
    Senator Grassley. You probably haven't studied it closely 
because I don't think there's any precedent in that area.
    Professor Higginson. Yes. And in that context, if I were in 
a--if I were honored to be a judge and it were an issue of 
first impression, I would turn first to the text of the 
statute, then I would turn to the text of the Commerce Clause 
and other power-restricting features in the Constitution, and 
additionally, given your facts, I suppose----
    Senator Grassley. Let me ask one more question.
    Senator Franken. Take as much time as you'd like.
    Senator Grassley. Well, it kind of gets back to this then. 
Is there any meaningful distinction to be drawn between the 
Commerce Clause and what Congress says the Commerce Clause can 
do? Is there any distinction to be drawn between economic 
activity and economic inactivity?
    Professor Higginson. Well, the focus on economic activity 
has been a salient feature of the Supreme Court decisions, and 
if confirmed, I would apply and diligently look into that 
issue, the--the importance of it being economic activity.
    Senator Grassley. Under the U.S. Constitution, States are 
considered to have general police powers that permit them to 
enact laws for the general welfare, morals, health, and safety 
of their citizens--in fact, maybe to do some things that even 
the Federal Government can't do. Do you believe that the 
Commerce Clause grants Congress a power that is analogous to 
the general police powers of the States?
    Professor Higginson. Absolutely not.
    Senator Grassley. I guess that's it, Mr. Chairman.
    Senator Franken. Thank you, Senator, Ranking Member.
    Senator Grassley. OK.
    Senator Franken. Thank you, Professor. You may step down 
now, and we'll proceed. You're excused, I guess. And we will 
proceed to our second panel. Thank you very much again, 
Professor. And thank you to your family for--for being here.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.001
    
    [GRAPHIC] [TIFF OMITTED] T6350.002
    
    [GRAPHIC] [TIFF OMITTED] T6350.003
    
    [GRAPHIC] [TIFF OMITTED] T6350.004
    
    [GRAPHIC] [TIFF OMITTED] T6350.005
    
    [GRAPHIC] [TIFF OMITTED] T6350.006
    
    [GRAPHIC] [TIFF OMITTED] T6350.007
    
    [GRAPHIC] [TIFF OMITTED] T6350.008
    
    [GRAPHIC] [TIFF OMITTED] T6350.009
    
    [GRAPHIC] [TIFF OMITTED] T6350.010
    
    [GRAPHIC] [TIFF OMITTED] T6350.011
    
    [GRAPHIC] [TIFF OMITTED] T6350.012
    
    [GRAPHIC] [TIFF OMITTED] T6350.013
    
    [GRAPHIC] [TIFF OMITTED] T6350.014
    
    [GRAPHIC] [TIFF OMITTED] T6350.015
    
    [GRAPHIC] [TIFF OMITTED] T6350.016
    
    [GRAPHIC] [TIFF OMITTED] T6350.017
    
    [GRAPHIC] [TIFF OMITTED] T6350.018
    
    [GRAPHIC] [TIFF OMITTED] T6350.019
    
    [GRAPHIC] [TIFF OMITTED] T6350.020
    
    [GRAPHIC] [TIFF OMITTED] T6350.021
    
    [GRAPHIC] [TIFF OMITTED] T6350.022
    
    [GRAPHIC] [TIFF OMITTED] T6350.023
    
    [GRAPHIC] [TIFF OMITTED] T6350.024
    
    [GRAPHIC] [TIFF OMITTED] T6350.025
    
    [GRAPHIC] [TIFF OMITTED] T6350.026
    
    [GRAPHIC] [TIFF OMITTED] T6350.027
    
    [GRAPHIC] [TIFF OMITTED] T6350.028
    
    [GRAPHIC] [TIFF OMITTED] T6350.029
    
    [GRAPHIC] [TIFF OMITTED] T6350.030
    
    [GRAPHIC] [TIFF OMITTED] T6350.031
    
    [GRAPHIC] [TIFF OMITTED] T6350.032
    
    [GRAPHIC] [TIFF OMITTED] T6350.033
    
    [GRAPHIC] [TIFF OMITTED] T6350.034
    
    [GRAPHIC] [TIFF OMITTED] T6350.035
    
    [GRAPHIC] [TIFF OMITTED] T6350.036
    
    [GRAPHIC] [TIFF OMITTED] T6350.037
    
    We will now proceed to the second panel, Ms. Forrest, Judge 
Hickey, Ms. Nathan, and Judge Triche-Milazzo. Will you all 
place take your seats on the panel?
    OK. I'm sorry. Actually, I would now ask you to stand and 
be sworn.
    [Whereupon, the witness was duly sworn.]
    Senator Franken. Thank you.
    Now I'd like to invite you, and we'll start with Judge 
Triche-Milazzo, then going down the table. I'd like you all to 
introduce any friends and family that you have attending.

 STATEMENT OF JUDGE JANE M. TRICHE-MILAZZO, NOMINEE TO BE U.S. 
      DISTRICT JUDGE FOR THE EASTERN DISTRICT OF LOUISIANA

    Judge Triche-Milazzo. OK. Thank you, Senator. First, I'd 
like to thank the Committee for inviting me here today to 
consider my nomination. I certainly want to thank President 
Obama for the honor of this nomination, and Senator Landrieu's 
recommendation of me to the President and her very, very kind 
words today, as well as those of Senator Vitter. I appreciate 
his support during this process.
    I have with me my husband John, son Richard, a daughter, 
Anne, son Jack, my nephew Sam, and somebody's not happy to be 
here.
    [Laughter.]
    Judge Triche-Milazzo. And dear friends, Crissy Chaney, 
Jennifer Walsh, and some other friends. Three of my children 
could not be here. Jerome and Jennifer are watching it on 
webcast, along with my father. My youngest son Joseph actually 
left today for Afghanistan. He's with the unit--Combat 
Engineering Unit out of Baker, Louisiana. He's with me in 
spirit, and I am with him. Thank you very much.
    Senator Franken. Thank you. Your son is Joe, right?
    Judge Triche-Milazzo. Joe.
    Senator Franken. Yes. Well, thank Joe for us, would you?
    Judge Triche-Milazzo. I will. I will.
    Senator Franken. OK. Thank you.
    Judge Triche-Milazzo. Thank you very much.
    Senator Franken. Ms. Nathan.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.038
    
    [GRAPHIC] [TIFF OMITTED] T6350.039
    
    [GRAPHIC] [TIFF OMITTED] T6350.040
    
    [GRAPHIC] [TIFF OMITTED] T6350.041
    
    [GRAPHIC] [TIFF OMITTED] T6350.042
    
    [GRAPHIC] [TIFF OMITTED] T6350.043
    
    [GRAPHIC] [TIFF OMITTED] T6350.044
    
    [GRAPHIC] [TIFF OMITTED] T6350.045
    
    [GRAPHIC] [TIFF OMITTED] T6350.046
    
    [GRAPHIC] [TIFF OMITTED] T6350.047
    
    [GRAPHIC] [TIFF OMITTED] T6350.048
    
    [GRAPHIC] [TIFF OMITTED] T6350.049
    
    [GRAPHIC] [TIFF OMITTED] T6350.050
    
    [GRAPHIC] [TIFF OMITTED] T6350.051
    
    [GRAPHIC] [TIFF OMITTED] T6350.052
    
    [GRAPHIC] [TIFF OMITTED] T6350.053
    
    [GRAPHIC] [TIFF OMITTED] T6350.054
    
    [GRAPHIC] [TIFF OMITTED] T6350.055
    
    [GRAPHIC] [TIFF OMITTED] T6350.056
    
    [GRAPHIC] [TIFF OMITTED] T6350.057
    
    [GRAPHIC] [TIFF OMITTED] T6350.058
    
    [GRAPHIC] [TIFF OMITTED] T6350.059
    
    [GRAPHIC] [TIFF OMITTED] T6350.060
    
    [GRAPHIC] [TIFF OMITTED] T6350.061
    
    [GRAPHIC] [TIFF OMITTED] T6350.062
    
    [GRAPHIC] [TIFF OMITTED] T6350.063
    
    [GRAPHIC] [TIFF OMITTED] T6350.064
    
    [GRAPHIC] [TIFF OMITTED] T6350.065
    
    [GRAPHIC] [TIFF OMITTED] T6350.066
    
    [GRAPHIC] [TIFF OMITTED] T6350.067
    
    [GRAPHIC] [TIFF OMITTED] T6350.068
    
    [GRAPHIC] [TIFF OMITTED] T6350.069
    
    [GRAPHIC] [TIFF OMITTED] T6350.070
    
    [GRAPHIC] [TIFF OMITTED] T6350.071
    
    [GRAPHIC] [TIFF OMITTED] T6350.072
    
    [GRAPHIC] [TIFF OMITTED] T6350.073
    
    [GRAPHIC] [TIFF OMITTED] T6350.074
    
    [GRAPHIC] [TIFF OMITTED] T6350.075
    
    [GRAPHIC] [TIFF OMITTED] T6350.076
    
    [GRAPHIC] [TIFF OMITTED] T6350.077
    
  STATEMENT OF ALISON J. NATHAN, NOMINEE TO BE U.S. DISTRICT 
          JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK

    Ms. Nathan. Thank you, Mr. Chairman. And I thank you and 
Ranking Member Grassley, and Senator Leahy for scheduling this 
hearing and allowing me the great privilege of being here 
before you today.
    I'd also like to thank Senator Schumer for his generous 
introduction and for recommending me, and Senator Gillebrand 
for her support as well. And I thank the President for 
nominating me.
    I would like to introduce my family. I'm here with my 
partner, Professor Margaret Satterthwaite. I'm grateful every 
day for Meg's friendship, love and support. She's here, as 
you've heard, with the apples of my eye, my twin sons, Nathan 
and Oliver, who will turn two this July. My parents, Ellen and 
Bill Nathan are here. They typically seek only to be known as 
Nathan and Oliver's grandparents, which they adore being.
    Senator Franken. Welcome.
    Ms. Nathan. I know they're very proud to be here, and I'm 
grateful that they are, and for their love and support.
    Meg's mom, Sara Satterthwaite, is here, and her husband, 
Neal Freming. Watching by webcast is my brother, Dr. David 
Nathan, and his wife Libima Nathan, from their home in Salt 
Lake City, Utah. The person for whom I currently work is here, 
the Solicitor General of the State of New York, Barbara 
Underwood. I'm grateful that she is here, and for her support.
    And then I would simply note that I'm joined by a number of 
friends and former colleagues from my service in the White 
House Counsel's office; from my prior law firm of Wilmer, Hale, 
Cutler, Pickering & Dorr; from my year that I had the great 
privilege to clerk for Justice Stevens, there are a number of 
fellow clerks from that year here as well; and several friends 
who traveled from New York City to be here today. I'm grateful 
to them and I thank you for allowing me to introduce them. I 
look forward to the Committee's questions.
    Senator Franken. Thank you. And welcome to all of you.
    Ms. Forrest.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.078
    
    [GRAPHIC] [TIFF OMITTED] T6350.079
    
    [GRAPHIC] [TIFF OMITTED] T6350.080
    
    [GRAPHIC] [TIFF OMITTED] T6350.081
    
    [GRAPHIC] [TIFF OMITTED] T6350.082
    
    [GRAPHIC] [TIFF OMITTED] T6350.083
    
    [GRAPHIC] [TIFF OMITTED] T6350.084
    
    [GRAPHIC] [TIFF OMITTED] T6350.085
    
    [GRAPHIC] [TIFF OMITTED] T6350.086
    
    [GRAPHIC] [TIFF OMITTED] T6350.087
    
    [GRAPHIC] [TIFF OMITTED] T6350.088
    
    [GRAPHIC] [TIFF OMITTED] T6350.089
    
    [GRAPHIC] [TIFF OMITTED] T6350.090
    
    [GRAPHIC] [TIFF OMITTED] T6350.091
    
    [GRAPHIC] [TIFF OMITTED] T6350.092
    
    [GRAPHIC] [TIFF OMITTED] T6350.093
    
    [GRAPHIC] [TIFF OMITTED] T6350.094
    
    [GRAPHIC] [TIFF OMITTED] T6350.095
    
    [GRAPHIC] [TIFF OMITTED] T6350.096
    
    [GRAPHIC] [TIFF OMITTED] T6350.097
    
    [GRAPHIC] [TIFF OMITTED] T6350.098
    
    [GRAPHIC] [TIFF OMITTED] T6350.099
    
    [GRAPHIC] [TIFF OMITTED] T6350.100
    
    [GRAPHIC] [TIFF OMITTED] T6350.101
    
    [GRAPHIC] [TIFF OMITTED] T6350.102
    
    [GRAPHIC] [TIFF OMITTED] T6350.103
    
    [GRAPHIC] [TIFF OMITTED] T6350.104
    
    [GRAPHIC] [TIFF OMITTED] T6350.105
    
    [GRAPHIC] [TIFF OMITTED] T6350.106
    
    [GRAPHIC] [TIFF OMITTED] T6350.107
    
    [GRAPHIC] [TIFF OMITTED] T6350.108
    
    [GRAPHIC] [TIFF OMITTED] T6350.109
    
    [GRAPHIC] [TIFF OMITTED] T6350.110
    
STATEMENT OF KATHERINE B. FORREST, NOMINEE TO BE U.S. DISTRICT 
          JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK

    Ms. Forrest. Thank you, Senator. I'd like to thank the 
Committee for holding this hearing and for the great honor to 
appear here today. I'd like to thank the President for the 
confidence that he showed in me for this nomination, and to 
Senator Schumer for the recommendation.
    I'd also like to thank some folks who are with me here 
today, as well as a few who could not make it. My husband could 
not make it. He is with my son, who is 9 years old and who had 
the great honor himself of graduating from the 4th grade today, 
and had a moving up ceremony, a very important event in his 
life. They are watching it on webcast. So, Dylan Baldwin, 
congratulations to my son.
    Senator Franken. Congratulations.
    Ms. Forrest. Yes. I also have here with me today my 
daughter Jane, who is 12 years old and has taken the day off 
from school to be here; my sister Bellamy, her husband Nathan; 
my brother Christopher; his wife Trish. I also have my very 
dear friend John Hagen, who is somewhere back there, and I've 
got several people from my former law firm, Cravath, Swaine & 
Moore, including Evan Chesler, the presiding partner of 
Cravath, Swaine & Moore, Sandra Goldstein, the head of 
litigation, and my former law partner, Michael Reynolds. I also 
am very honored and gratified to have a number of individuals 
who I work with currently at the Department of Justice who have 
taken time out of their busy day to have come here today and to 
support me in this day. Thank you very much. I look forward to 
your questions.
    Senator Franken. Well, thank you. And thank you all for 
being here today. And your son watching on the webcast, 
congratulations, and good luck in the 5th grade.
    [Laughter.]
    Senator Franken. Judge Hickey.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.111
    
    [GRAPHIC] [TIFF OMITTED] T6350.112
    
    [GRAPHIC] [TIFF OMITTED] T6350.113
    
    [GRAPHIC] [TIFF OMITTED] T6350.114
    
    [GRAPHIC] [TIFF OMITTED] T63501.213
    
    [GRAPHIC] [TIFF OMITTED] T6350.115
    
    [GRAPHIC] [TIFF OMITTED] T6350.116
    
    [GRAPHIC] [TIFF OMITTED] T6350.117
    
    [GRAPHIC] [TIFF OMITTED] T6350.118
    
    [GRAPHIC] [TIFF OMITTED] T6350.119
    
    [GRAPHIC] [TIFF OMITTED] T6350.120
    
    [GRAPHIC] [TIFF OMITTED] T6350.121
    
    [GRAPHIC] [TIFF OMITTED] T6350.122
    
    [GRAPHIC] [TIFF OMITTED] T6350.123
    
    [GRAPHIC] [TIFF OMITTED] T6350.124
    
    [GRAPHIC] [TIFF OMITTED] T6350.125
    
    [GRAPHIC] [TIFF OMITTED] T6350.126
    
    [GRAPHIC] [TIFF OMITTED] T6350.127
    
    [GRAPHIC] [TIFF OMITTED] T6350.128
    
    [GRAPHIC] [TIFF OMITTED] T6350.129
    
    [GRAPHIC] [TIFF OMITTED] T6350.130
    
    [GRAPHIC] [TIFF OMITTED] T6350.131
    
    [GRAPHIC] [TIFF OMITTED] T6350.132
    
    [GRAPHIC] [TIFF OMITTED] T6350.133
    
    [GRAPHIC] [TIFF OMITTED] T6350.134
    
    [GRAPHIC] [TIFF OMITTED] T6350.135
    
    [GRAPHIC] [TIFF OMITTED] T6350.136
    
    [GRAPHIC] [TIFF OMITTED] T6350.137
    
    [GRAPHIC] [TIFF OMITTED] T6350.138
    
    [GRAPHIC] [TIFF OMITTED] T6350.139
    
    [GRAPHIC] [TIFF OMITTED] T6350.140
    
    [GRAPHIC] [TIFF OMITTED] T6350.141
    
    [GRAPHIC] [TIFF OMITTED] T6350.142
    
    [GRAPHIC] [TIFF OMITTED] T6350.143
    
    [GRAPHIC] [TIFF OMITTED] T6350.144
    
    [GRAPHIC] [TIFF OMITTED] T6350.145
    
    [GRAPHIC] [TIFF OMITTED] T6350.146
    
    [GRAPHIC] [TIFF OMITTED] T6350.147
    
    [GRAPHIC] [TIFF OMITTED] T6350.148
    
    [GRAPHIC] [TIFF OMITTED] T6350.149
    
    [GRAPHIC] [TIFF OMITTED] T6350.150
    
    [GRAPHIC] [TIFF OMITTED] T6350.151
    
    [GRAPHIC] [TIFF OMITTED] T6350.152
    
STATEMENT OF JUDGE SUSAN O. HICKEY, NOMINEE TO BE U.S. DISTRICT 
           JUDGE FOR THE WESTERN DISTRICT OF ARKANSAS

    Judge Hickey. Senator Franken, I would like to thank you 
and Senator Grassley for allowing me to be here today at this 
hearing. I would also like to thank the President for the 
nomination. I am truly honored. I would like to thank both 
Senator Pryor and Senator Boozman for their support and their 
kind words in introducing me.
    I wanted to also thank all the people back home that 
supported me during this long process. I want to introduce my 
family: my husband Joe is back there, of 30 years; my oldest 
son Patrick is here, who flew in from Nebraska this morning and 
then changed in the Senator's office; my middle son Michael, 
who's down from New York; my youngest son Joseph is back in 
Arkansas. He's going to summer school at the University of 
Arkansas and he had a test today and couldn't get away. I want 
to introduce two special friends, Becky and Ernie Cagle, who 
came in from El Dorado to support me. Thank you.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.153
    
    [GRAPHIC] [TIFF OMITTED] T6350.154
    
    [GRAPHIC] [TIFF OMITTED] T6350.155
    
    [GRAPHIC] [TIFF OMITTED] T6350.156
    
    [GRAPHIC] [TIFF OMITTED] T6350.157
    
    [GRAPHIC] [TIFF OMITTED] T6350.158
    
    [GRAPHIC] [TIFF OMITTED] T6350.159
    
    [GRAPHIC] [TIFF OMITTED] T6350.160
    
    [GRAPHIC] [TIFF OMITTED] T6350.161
    
    [GRAPHIC] [TIFF OMITTED] T6350.162
    
    [GRAPHIC] [TIFF OMITTED] T6350.163
    
    [GRAPHIC] [TIFF OMITTED] T6350.164
    
    [GRAPHIC] [TIFF OMITTED] T6350.165
    
    [GRAPHIC] [TIFF OMITTED] T6350.166
    
    [GRAPHIC] [TIFF OMITTED] T6350.167
    
    [GRAPHIC] [TIFF OMITTED] T6350.168
    
    [GRAPHIC] [TIFF OMITTED] T6350.169
    
    [GRAPHIC] [TIFF OMITTED] T6350.170
    
    [GRAPHIC] [TIFF OMITTED] T6350.171
    
    [GRAPHIC] [TIFF OMITTED] T6350.172
    
    [GRAPHIC] [TIFF OMITTED] T6350.173
    
    [GRAPHIC] [TIFF OMITTED] T6350.174
    
    [GRAPHIC] [TIFF OMITTED] T6350.175
    
    [GRAPHIC] [TIFF OMITTED] T6350.176
    
    [GRAPHIC] [TIFF OMITTED] T6350.177
    
    [GRAPHIC] [TIFF OMITTED] T6350.178
    
    [GRAPHIC] [TIFF OMITTED] T6350.179
    
    [GRAPHIC] [TIFF OMITTED] T6350.180
    
    [GRAPHIC] [TIFF OMITTED] T6350.181
    
    [GRAPHIC] [TIFF OMITTED] T6350.182
    
    [GRAPHIC] [TIFF OMITTED] T6350.183
    
    Senator Franken. Well, thank you. And thank--again, thank 
you to all the family members and friends. You should be very 
proud.
    Ms. Forrest, I know you've done a significant amount of 
work protecting intellectual property, specifically copyrighted 
work. Can you tell me about the challenges of this kind of 
work, and specifically, how do you keep up with technology to 
keep copyrighted works protected?
    Ms. Forrest. Thank you for the question, Senator. I have 
done a number of cases in the Internet space in particular 
related to copyrighted work, as well as I sort of sub-specialty 
in the choreography area.
    In terms of the technology, the world is changing very, 
very quickly in the digital environment. There were cases when 
I was early on in my career as a partner which had one kind of 
technology, the MP3.com technology, where I essentially had to 
be tutored by individuals who were knowledgeable in that. Those 
technologies changed. They grew over time to peer-to-peer file-
sharing technology. I most recently did the Lime Wire case, 
which was a peer-to-peer file-sharing technology. To keep 
abreast of technology I think is something that is a bit of a 
challenge.
    However, I do not have a technology background. It is 
something which judges can understand and can learn. Certainly 
as a practitioner, I was able to do so by speaking with people 
who were knowledgeable in the field. There is an awful lot of 
information that is available to people right now in the 
technology area that assisted me with my cases, and if I were 
confirmed as a District Court judge I would intend to bring 
that digital experience to the bench, and also to keep abreast 
of the technologies as they continue to develop. No doubt they 
will; it's a very changing, fast-paced environment.
    Senator Franken. I'll say.
    Judge Hickey, you spent several years serving as a senior 
law clerk for Judge Harry Barnes, whose seat you are nominated 
to fill.
    Judge Hickey. Yes.
    Senator Franken. I think this would be a unique and very 
effective way to learn how to do the job you're nominated to 
fill. Can you tell us a little bit more about your 
responsibilities as a clerk to Judge Barnes and how this 
prepared you to be a Federal judge?
    Judge Hickey. Senator, thank you for the question. I was 
lucky in that my--my judge allowed me, as a senior law clerk, 
to take part in all matters that were before the court, from 
the time that the case was filed till the final disposition. 
We--I went to status conferences, I went to jury trials, I went 
to--I was basically there every step of the way.
    And seeing how the court works and seeing what a good judge 
does, which I believe, of course, that he is--is a wonderful 
judge, that it helped me understand the process of the judicial 
system, what it takes to move a docket along, what it takes to 
be a good judge, have even temperament, to be respectful to the 
parties, know that people need their day in court, and to work 
toward giving them that day in court.
    I think that it was a good experience. I think it was a 
learning experience, and hopefully, if I am confirmed, that I 
will be able to carry that experience onto the bench.
    Senator Franken. Thank you.
    Ms. Nathan, I understand that, like a number of nominees 
that have come before this committee, you have done extensive 
pro bono work on death penalty cases. My understanding is that 
you've never challenged the constitutionality of the death 
penalty itself, and that you focused instead on challenges to 
specific execution practices and whether or not they comply 
with the Eighth Amendment's prohibition on cruel and unusual 
punishment. Can you tell me more about your pro bono death 
penalty work?
    Ms. Nathan. Thank you, Mr. Chairman, for the opportunity to 
answer that question. I have, in a pro bono capacity, 
represented or participated in litigation involving individuals 
who face the death penalty and I raised, as a lawyer in those 
cases, a number of issues. It's correct, I've not challenged 
the constitution--I don't--none of those cases raised the 
question of the constitutionality of the death penalty. The 
Supreme Court has said repeatedly that the death penalty is 
constitutional.
    I did participate in a--in a case challenging a particular 
protocol with respect to lethal injection. The Supreme Court 
ultimately ruled, in the Baize case, that the lethal injection 
method was constitutional. If I were so fortunate as to be 
confirmed, I would certainly follow the court's guidance and 
apply that law.
    Senator Franken. Thank you.
    Ranking Member.
    Senator Grassley. Thank you very much.
    I'm going to have questions for each of you, a few more 
questions for some than the others, so if you don't get asked a 
lot of questions, don't worry about it.
    I'm going to start with Ms. Nathan. In 2006, you authored 
an article highly critical of the so-called habeas-stripping 
provisions of a version of the Military Commissions Act. In 
that article you referenced September the 11th and said, ``Let 
it not also be the day, as the Bush administration would have 
it, that heralded the loss of the fundamental principles and 
structure of our Constitutional heritage.'' Do you still 
believe that the Bush administration heralded September 11th as 
the day our Nation lost ``the fundamental principles and 
structure of our Constitutional heritage'' ?
    Ms. Nathan. Thank you, Senator Grassley, for the question. 
I--I don't believe that's the case. I--I wrote that commentary 
in the role of somebody advocating for--essentially to the 
Congress for a particular piece of legislation. I'm not--I have 
not kept up as an expert in this area of law, and there's 
obviously been a great deal of development since then. I do 
believe that the Supreme Court, in the Boumediene case, 
ultimately concluded that there had not been an adequate 
substitute for habeas in this area, and any other. I would 
certainly follow the Supreme Court guidance.
    I--I did say in that article, and I believe it as a New 
Yorker who works two blocks from the World Trade Center site, 
that September 11th was a horrific day and--and it's important 
to our National security for there to be judges who follow the 
law in this area to the extent questions come before them, and 
that Congress act as it has in this area.
    Senator Grassley. I think you answered my second question. 
Let me ask it anyway so you know where I was going, but I think 
you've said basically that that's not a temperament that a 
Federal judge should have. The question was, do you think this 
remark reflects the temperament that a Federal judge should 
demonstrate?
    Ms. Nathan. Thank you, Mr. Chairman. I think it's 
critically important that a Federal judge have a judicial 
temperament that is without bias, without impartiality, that is 
calm and open to argument, and that is forceful in the 
application and adherence to the rule of law. I think that's 
critically important.
    Senator Grassley. My third question is, you co-signed a 
letter to Congress in opposition to that provision in 2006. 
Your letter states, ``The bill abandons our longstanding 
constitutional protections . . . against denying individuals 
the opportunity to defend themselves through access to 
exculpatory evidence known to the government.''
    The United States, however, does not have a long history of 
providing exculpatory evidence to those captured during wartime 
as opposed to people that committed crimes in this country--or 
violated laws in this country. Given your strong views on the 
subject, would you recuse yourself from terrorism cases 
involving non-U.S. citizens? And if you wouldn't recuse 
yourself, have you changed your mind then about that statement?
    Ms. Nathan. Thank you, Senator Grassley. In any recusal 
question I would look carefully and closely at the Code of 
Judicial Conduct, at any recusal-related statutes. I'd speak to 
colleagues. I can assure you that if I am fortunate enough to 
be confirmed, I would scrupulously follow any recusal 
requirements.
    Senator Grassley. OK. In your Cornell Law Review note you 
said that, ``Nearly all Federal and State courts agree that the 
Second Amendment does not guarantee an individual the private 
right to bear arms, unrelated to a State's right to maintain a 
militia.'' We've had a couple of Supreme Court decisions, I 
presume, since you wrote that note. Do you still hold the view 
that the Second Amendment protects a collective right to bear 
arms, but not an individual right?
    Ms. Nathan. Thank you, Senator Grassley. It's certainly 
true that since that time the Supreme Court, in Heller, held 
that that Second Amendment contains an individual right, and in 
McDonald that it's a fundamental right. I would have no 
hesitation in following that and related precedent.
    Senator Grassley. Yes. My last question deals with your 
basic qualifications. I want to ask you a couple of questions 
about that, but before I do, the American Bar Association's 
Standing Committee has guidelines, and those guidelines provide 
that ``a prospective nominee to the Federal branch ordinarily 
should have at least 12 years experience in the practice of 
law.'' The ABA Committee also considers ``substantial courtroom 
and trial experience as a lawyer or trial judge important.'' 
Given the dates of your graduation from law school and the 
dates of your Bar memberships, do you believe that you meet the 
ABA's standard?
    Ms. Nathan. Thank you, Senator Grassley. I--I understand 
the weightiness of the job of a District Court judge and I--I 
do believe that I am qualified, based on the set of experiences 
that I've had and the set of skills that I have. And the 
experiences that I believe prepare me for the job include the 
work that I do now in the State Solicitor General's Office and 
the Office of the Attorney General of New York, where I 
litigate matters in both trial court and appellate court, 
issues of State law and Federal law, civil and criminal.
    I litigated for several years at the law firm of Wilmer, 
Hale. I have participated in both the executive branch and the 
judicial branch, and I've taught civil procedure and criminal 
procedure. And I do believe that these experience and skills 
prepare me now for the job of District Court judge, and I can 
assure you that if the Senate--if I am so fortunate as to be 
confirmed, I would do what I've done in all of these 
professional endeavors, which is to bring analytical ability 
and I hope good judgment and extreme work ethic to any 
questions or issues that face me, and I would work hard at that 
every day.
    Senator Grassley. Thank you for your answers.
    I think I'll go, now, to Ms. Hickey. I would also follow a 
little bit on what I just asked Ms. Nathan about what appears 
to be some lack of experience, and particularly litigation 
experience. According to your questionnaire, you have never 
tried a case and your only litigation experience appears to 
have been as staff attorney for the Murphy Oil Company for two 
to 3 years immediately after law school. So I'd like to have 
you have a chance to tell the Committee about your experience 
that qualifies you to serve in the position of Federal District 
judge.
    Judge Hickey. Thank you, Senator, for the question. I have 
not been a litigator, but my experience is on the side of the 
court, from the perspective of the court. As a senior law clerk 
for a District judge, I worked on all aspects of the cases that 
were before the court from the beginning of the case being 
filed until the disposition of that case. That included not 
only the motions of litigants, but it also included the trial 
work of the litigants.
    I understand what a trial judge does. I know what litigants 
do. I understand the rules of civil and criminal procedure. I 
under--the rules of evidence. And that experience working in 
the court system gives me a different perspective as an 
advocate. I--the court is to be neutral. They are to be the--
the person who calls the balls and strikes of--of the 
courtroom. And working in the court system, I know that and I 
can be neutral and that's what I've learned being a law clerk.
    But also, I've been a sitting judge. I've presided over 
cases since September of last year in the Sixth County Circuit. 
I handle mostly criminal--my docket is mostly criminal, but 
I've also handled civil cases and divorce cases, juvenile 
cases. I preside over a drug court in Union County. So I 
believe that my experience has qualified me to be a judge, and 
if I am so fortunate to be confirmed, I believe that I have the 
temperament, the qualifications, the background to be a 
District Judge.
    Senator Grassley. Do you have any--you just referred to 
your State court experience, so I won't repeat that. But do you 
have any additional judicial experience that is not reflected 
in your questionnaire?
    Judge Hickey. I have--you mean, trial work experience, 
Senator? Is----
    Senator Grassley. Yes.
    Judge Hickey. OK. OK. I have tried both criminal matters, I 
have tried aggravated robberies, I have tried civil matters 
having to do with contracts. I have tried bench trials and jury 
trials.
    Senator Grassley. My last question for you might reflect 
that I don't accept what you've already given, but it is 
somewhat limited experience. So let me ask this question: are 
there any skills or experiences that you don't have that you 
think are necessary for a Federal judge to have? And if so, how 
would you plan to make up for any lack of experience you have?
    Judge Hickey. I--I do not believe that I--that I have any 
skills that are lacking to be a District judge, Senator. I 
believe that the experiences that I have sitting on the side of 
the court have--has given me the perspective and the background 
that--that it takes to be a District judge.
    Senator Grassley. OK.
    I will ask, now, Ms. Triche-Milazzo. You have very little 
experience in U.S. Federal courts. This lack of experience is 
complicated by the fact that a majority of your practice has 
been in Louisiana, a State with a very unique legal system 
based largely on French and Spanish civilian law. What 
assurances can you provide future litigants that you will know 
and understand the procedures of our Federal court system, as 
expected of all Federal judges?
    Judge Triche-Milazzo. Thank you, Senator. When I first came 
to practice, I went immediately into practice with my father. 
At that time he was engaged in substantial Federal litigation 
and I sat through many of those cases. So it's not that I come 
to--to this Committee having had no Federal experience, I have. 
But it would be disingenuous if I said that that was the 
majority of my experience. Over the past 3 years, I've presided 
as a State court judge and during that time I have followed the 
Louisiana Code of Evidence, that I can assure you is fashioned 
in large part after the Federal Code of Evidence. So I'm quite 
comfortable that I could make that transition.
    Additionally, Senator, I've followed the Louisiana law. I--
I am aware that there will be a transitional period, but I can 
assure you that my work ethic is such that I will make that 
transition as smoothly as possible and put in the necessary 
hours and the work to make that transition effectively. Thank 
you.
    Senator Grassley. OK. What about this aspect of Louisiana 
law, and I'm surely not--well, I've told you so many times. My 
colleagues get tired of me saying I'm not a lawyer, but I'm not 
a lawyer. It's my understanding that judges in Louisiana are 
not bound by stare decisis, as are judges under our traditional 
common law system. If confirmed, would you adhere to precedent 
rather than your personal interpretation of statute?
    Judge Triche-Milazzo. Yes, sir, Senator. Very frankly, we 
are bound. We call it jurisprudence constante in Louisiana. But 
we are bound by the statute. What I think--and--and then the 
interpretations as provided by the higher courts in Louisiana. 
So this is not a concept that is foreign to me. I'm very 
comfortable that I'll abide by my obligation to follow the--the 
pronouncements of the Supreme Court, in my case, the Fifth 
Circuit Court of Appeals.
    Senator Grassley. If you can educate this non-lawyer on 
that point that you just made, what's the difference between 
what we consider stare decisis and whatever you said was the 
case in Louisiana?
    [Laughter.]
    Judge Triche-Milazzo. Theoretically, under Louisiana law we 
are bound by the code and the higher courts give us guidance. 
That's in theory. But let me assure you that Louisiana judges 
and Louisiana lawyers look to the interpretation by the higher 
courts as being binding.
    Senator Grassley. OK. And my last question will go to Ms. 
Forrest. Again, this question deals with lack of experience, 
but in this case in the area of criminal law. According to your 
questionnaire, 98 percent of your career has been in civil 
practice. If confirmed, how will you prepare yourself to handle 
a variety of criminal issues that a District judge confronts? 
What assurance can you provide future litigants that your 
judgment is sound and well-informed and fair when it comes to 
criminal law?
    Ms. Forrest. Thank you for the question, Senator. It is 
true that the majority of my practice was 20-plus years doing 
complex civil litigation. However, I have been a Deputy 
Assistant Attorney General for the Antitrust Division of the 
Department of Justice for now 8 months. During that time I run 
criminal and civil operations.
    As the person in charge of criminal operations, I oversee a 
docket of over 100 cases where I'm responsible for all aspects 
of the investigation of the matters that come before the 
Division. I deal with plea agreements, I deal with sentencing 
guideline issues. So I have begun the process of educating 
myself. I do understand very seriously that there is more to be 
learned. That is always the case when you are entering into new 
areas of the law. My work ethic is such that I have no doubt 
that I will be able to acquire the skills necessary to be able 
to oversee all aspects of the criminal matters that come before 
me.
    Senator Grassley. Thank you, Mr. Chairman.
    Thank you all very much for answering my questions.
    Senator Franken. Thank you, Senator Grassley.
    Senator Grassley. I'll probably submit some questions for 
answer in writing to some of you.
    Senator Franken. OK. Great.
    Before I adjourn this panel I'd like to introduce into the 
record a quite remarkable letter from 27 of Ms. Nathan's former 
co-clerks from when she clerked with the U.S. Supreme Court, 
and I would note that this includes former clerks for not just 
Justice Stevens, whom you clerked for, but also former Chief 
Justice Rehnquist, Justice Thomas, and Justice Scalia, who are, 
I think, recognized as maybe the more conservative justices in 
the court at that time.
    Senator Grassley. Strict constructionalists.
    Senator Franken. I'm not a lawyer either. So, no. I 
actually--strict constructionalists in a certain way. But, yes. 
Good.
    Let me read the conclusion from this letter: ``We have all 
known Ms. Nathan for at least a decade now and we all believe 
that she has the necessary qualifications and characteristics 
to make an exemplary Federal District judge. If confirmed, we 
are confident that Ms. Nathan will listen carefully to all 
those who come before her and that she will make thoughtful 
judgments based on the law. We recommend her for this position 
without hesitation and without reservation.'' This will be 
submitted into the record.
    [The letter appears as a submission for the record.]
    Senator Franken. I'd like to thank all of you, Ms. Forrest, 
Judge Hickey, Ms. Nathan, and Judge Triche-Milazzo. Thank you 
so much. I'll just--I just, in closing, would like to thank the 
Ranking Member.
    Senator Grassley. I get paid for doing this.
    Senator Franken. I know you get paid. You get the big bucks 
for doing this.
    [Laughter.]
    Senator Franken. And I want to thank each of you for your 
testimony. We will hold the record open for a week so the 
Ranking Member or whoever wants to can submit questions to the 
nominees, and any other materials.
    This hearing is adjourned.
    [Whereupon, at 3:45 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.] 

[GRAPHIC] [TIFF OMITTED] T6350.184

[GRAPHIC] [TIFF OMITTED] T6350.185

[GRAPHIC] [TIFF OMITTED] T6350.186

[GRAPHIC] [TIFF OMITTED] T6350.187

[GRAPHIC] [TIFF OMITTED] T6350.188

[GRAPHIC] [TIFF OMITTED] T6350.189

[GRAPHIC] [TIFF OMITTED] T6350.190

[GRAPHIC] [TIFF OMITTED] T6350.191

[GRAPHIC] [TIFF OMITTED] T6350.192

[GRAPHIC] [TIFF OMITTED] T6350.193

[GRAPHIC] [TIFF OMITTED] T6350.194

[GRAPHIC] [TIFF OMITTED] T6350.195

[GRAPHIC] [TIFF OMITTED] T6350.196

[GRAPHIC] [TIFF OMITTED] T6350.197

[GRAPHIC] [TIFF OMITTED] T6350.198

[GRAPHIC] [TIFF OMITTED] T6350.199

[GRAPHIC] [TIFF OMITTED] T6350.200

[GRAPHIC] [TIFF OMITTED] T6350.201

[GRAPHIC] [TIFF OMITTED] T6350.202

[GRAPHIC] [TIFF OMITTED] T6350.203

[GRAPHIC] [TIFF OMITTED] T6350.204

[GRAPHIC] [TIFF OMITTED] T6350.205

[GRAPHIC] [TIFF OMITTED] T6350.206

[GRAPHIC] [TIFF OMITTED] T6350.207

[GRAPHIC] [TIFF OMITTED] T6350.208

[GRAPHIC] [TIFF OMITTED] T6350.209

[GRAPHIC] [TIFF OMITTED] T6350.210

[GRAPHIC] [TIFF OMITTED] T6350.211

[GRAPHIC] [TIFF OMITTED] T6350.212

[GRAPHIC] [TIFF OMITTED] T6350.213

[GRAPHIC] [TIFF OMITTED] T6350.214

[GRAPHIC] [TIFF OMITTED] T6350.215

[GRAPHIC] [TIFF OMITTED] T6350.216

[GRAPHIC] [TIFF OMITTED] T6350.217

[GRAPHIC] [TIFF OMITTED] T6350.218

[GRAPHIC] [TIFF OMITTED] T6350.219

[GRAPHIC] [TIFF OMITTED] T6350.220

[GRAPHIC] [TIFF OMITTED] T6350.221

[GRAPHIC] [TIFF OMITTED] T6350.222

[GRAPHIC] [TIFF OMITTED] T6350.223

[GRAPHIC] [TIFF OMITTED] T6350.224

[GRAPHIC] [TIFF OMITTED] T6350.225



NOMINATIONS OF CHRISTOPHER DRONEY, NOMINEE TO BE UNITED STATES CIRCUIT 
 JUDGE FOR THE SECOND CIRCUIT; ROBERT D. MARIANI, NOMINEE TO BE UNITED 
 STATES DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF PENNSYLVANIA; CATHY 
  BISSOON, NOMINEE TO BE UNITED STATES DISTRICT JUDGE FOR THE WESTERN 
 DISTRICT OF PENNSYLVANIA; MARK R. HORNAK, NOMINEE TO BE UNITED STATES 
DISTRICT JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA; AND, ROBERT N. 
SCOLA, JR., NOMINEE TO BE UNITED STATES DISTRICT JUDGE FOR THE SOUTHERN 
                          DISTRICT OF FLORIDA

                              ----------                              


                        WEDNESDAY, JUNE 22, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., Room 
226, Dirksen Senate Office Building, Hon. Richard Blumenthal 
presiding.
    Present: Senators Whitehouse and Grassley.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, A U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Good afternoon. I am pleased to call to 
order this nominations hearing. I want to thank my colleagues 
for being here, and everyone who is attending this hearing of 
the Senate Judiciary Committee.
    I am grateful to Chairman Leahy for giving me this 
opportunity to preside this afternoon and to Senator Grassley, 
the Ranking Member, for being here with us. And I know that I 
am joined by Senator Grassley in the strong feeling that we 
have an obligation to move forward and advance this nominations 
process in the Senate, and I am encouraged by the spirit of 
bipartisanship that I have seen in my short time on the 
Judiciary Committee and in the U.S. Senate.
    And, obviously, we are responding to very widely and 
strongly felt feelings on the part of the American public that 
they want us to work together in a bipartisan spirit to advance 
the Nation, to create jobs, and to make sure that our justice 
system works efficiently.
    There are still over 90 Federal judicial vacancies and 
nearly half of those vacancies have been declared judicial 
emergencies. And I am very pleased that this afternoon we will 
take another step toward filling some of those vacancies with 
some very distinguished nominees.
    I hope that we will be joined by other of my colleagues on 
the Judiciary Committee. But in the meantime, I would like to 
yield to the Ranking Member, Senator Grassley, for any remarks 
he may have.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. I, of course, welcome all of the nominees 
who are coming before the committee, and particularly know that 
their family and friends are proud of them.
    As I mentioned at our last nomination hearing, this is an 
important event for the nominees, as well as for the 
institution and for the public. The nominations before us today 
illustrate the critical role of the constitutional advice and 
consent function of our Senate. This Committee previously 
reviewed the qualifications of a nominee to the seat to which 
Judge Droney is now nominated. The Committee found that 
nomination to be lacking and returned it to the President 
without final action.
    The three district nominees from the President were first 
nominated shortly after the election last November. I would 
note that there is a new Senator from Pennsylvania, and when 
the nominations were resubmitted to this Congress, I made sure 
that the rights of that Senator were protected. Working with 
the chairman, we agreed that all home State Senators, 
particularly the new Senators, would be given time to review 
nominations and return blue slips before proceeding, and I, 
obviously, thank Chairman Leahy for that courtesy to us as a 
minority.
    I think that this was a fair process to the Senate, as well 
as to the nominees. We know it is crucial for nominees to have 
the support of home State Senators. Generally, nominations do 
not move forward without their support.
    We have arrived at the point where we can now consider the 
nominations. I look forward to the testimony of the people 
before us. So I will have questions.
    I have a much longer statement that talks about each 
nominee but I am not going to read it. I am going to put it in 
the record. And I would ask that the nominees read what I had 
to say about them.
    Senator Blumenthal. Without objection, that statement will 
be in the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Blumenthal. And we are going to proceed from 
Senator Lieberman onward in introductions. But let me just say 
that we are going to welcome, first--and he will introduce 
him--Judge Christopher Droney, who has been nominated to be a 
judge on the Court of Appeals for the Second Circuit. He is 
from the State of Connecticut and he has served on the United 
States District Court for the District of Connecticut for 14 
years.
    After Senator Lieberman, we will hear from Senator Nelson, 
who will welcome Robert Mariani--I am sorry--who will welcome 
Robert Scola, who has been nominated to be a United States 
District Judge for the Southern District of Florida.
    For the last 16 years, Judge Scola has served as a state 
circuit judge for the 11th Circuit of Florida, and he 
previously worked both as a criminal defense attorney and as a 
state prosecutor. And he will be introduced by both Senator 
Nelson and Senator Rubio, if he arrives.
    We also want to welcome Robert Mariani, who has been 
nominated to be a United States District Judge for the Middle 
District of Pennsylvania. He has worked as a solo practitioner 
in Scranton, Pennsylvania since 1993, and he has an impressive 
resume as a litigator in private practice.
    He will be introduced by his home State Senators, Casey and 
Toomey, who are both here. Thank you.
    And we also welcome Judge Cathy Bissoon and Mark Hornak, 
who have both been nominated to be United States District Judge 
for the Western District of Pennsylvania.
    Mr. Hornak has worked in private practice in Pittsburgh for 
the law firm of Ingersoll & Rooney for nearly his entire legal 
career. And both of them will be introduced by, again, Senators 
Casey and Toomey.
    So with that, Senator Lieberman, the floor is yours.

PRESENTATION OF CHRISTOPHER DRONEY, NOMINEE TO BE U.S. CIRCUIT 
 JUDGE FOR THE SECOND CIRCUIT BY HON. JOSEPH LIEBERMAN, A U.S. 
             SENATOR FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Thank you very much, Chairman 
Blumenthal. It is an honor to be here to introduce Judge Droney 
to the committee, Senator Grassley.
    I must say it is a special personal pleasure to see you, 
Senator Blumenthal, chairing this hearing.
    It really is a personal thrill for me to be able to 
introduce Judge Droney to the Committee as a nominee for the 
second circuit court. I have known Chris Droney and his family 
for a long time.
    Let me just say, by way of introduction, that his wife, 
Liz, and his three daughters, Sarah, Emily and Katherine, are 
here, and they are the best argument for voting to confirm 
Chris Droney, even though he has an extraordinary record.
    I first came to know Chris when he was a private attorney 
in the Hartford area and involved in West Hartford town 
government as a member of the town council and then ultimately 
as mayor. In 1993, President Clinton nominated Chris to be our 
U.S. Attorney in Connecticut.
    Incidentally, we were both remembering, when I had the 
honor of swearing him in as U.S. Attorney in the fall of 1993, 
he was holding one of his daughters in his hand. This would be 
hard to do today.
    We have come a long ways, and Chris did a great job as U.S. 
Attorney for the 4 years he served in that capacity, initiating 
cooperative law enforcement efforts against gangs, health care 
fraud and financial fraud investigations, and trying some major 
cases in Connecticut and across New England, including some 
successful arguments before the United States Second Circuit 
Court of Appeals.
    In 1997, President Clinton nominated Chris Droney to be a 
member of the district court in Connecticut. I remember saying, 
when I had the honor to introduce him that day before this 
committee, that I hoped that I would--that Chris was young 
enough and I hoped that I would serve long enough in the U.S. 
Senate that I would be able to return when he was nominated for 
a higher court, because I felt sure that his service on the 
district court would justify that nomination.
    You can see what I meant when I said that it is a real 
personal thrill to be here today to actually introduce him.
    He has served with great distinction for 13 years as a 
member of the district bench, presiding over hundreds of 
Federal, civil and criminal trials. He has a profound 
commitment to the rule of law, widespread respect he enjoys 
among lawyers practicing in the Federal courts.
    To my way of thinking, he is just a mainstream, bright, 
sensible jurist. In fact, during his 13 years as a district 
judge, Judge Droney has served on second circuit panels a 
number of times and actually written opinions for the second 
circuit court on topics as varied as antitrust law, criminal 
procedure, and Federal labor law.
    So this is a person of great character, hard work, and a 
real love for the law. He has shown that as U.S. Attorney, as a 
district judge, and I am confident, with the support of this 
Committee and our colleagues in the Senate, that he will do the 
same on the second circuit court.
    Actually, his nomination was unanimously confirmed by the 
Senate in 1997 to the district court. That does not happen much 
anymore, but since Leon Panetta was confirmed 100-0 the other 
day, I want to say that I hope we can do the same for Chris 
Droney when he comes before the Senate.
    With that, I introduce him to this honorable committee. 
Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Lieberman.
    Senator Nelson, thank you for being here today. I might 
say, about all of my colleagues, that your being here really is 
very meaningful to the Committee and to the nominees who are 
here today for this hearing.
    Senator Nelson, thank you very much.

   PRESENTATION OF ROBERT N. SCOLA, JR., NOMINEE TO BE U.S. 
  DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA BY HON. 
     BILL NELSON, A U.S. SENATOR FROM THE STATE OF FLORDIA

    Senator Nelson. And, Mr. Chairman, as Senator Lieberman 
just mentioned, it is nice when you have a nominee up for 
confirmation before the Senate like Leon Panetta. I saw him 
today and, through mock surprise, said, ``Boy that was a 
squeaker getting you through.'' And, likewise, I bring to the 
Senate--Senator Rubio and I both bring to the Senate a judge 
that is one of the most esteemed and respected judges in a 
huge, huge state court district, and that being Miami-Dade 
County.
    And the even better news is that Judge Scola is married to 
a judge, Judge Jackie Scola. So we are getting two for the 
price of one. And their whole family is here today, their sons, 
Bobby and Billy, and the judge will introduce them later on in 
his testimony.
    I could go through all the particulars, but you know the 
tremendous bipartisan process that we have in Florida, where we 
try to take politics out of the selection of our judges by 
impaneling a judicial nominating commission that is done by 
custom rather than law and has been done by the two Senators 
from Florida for some period of time.
    And they go through all of the applications. They receive 
the applications. They do the interviews, and they select, from 
outstanding applicants, three for a particular vacancy and 
those three are submitted to the two Senators, who then 
interview them. And then with our recommendations, it goes on 
to the White House.
    Now, the President, of course, constitutionally, is going 
to be the one to make the nomination, but since we do the 
confirmation, it is a collaborative process. And it is working 
and it is working well, and it has produced the kind of quality 
that we find in this nominee, Judge Scola.
    And, Marco, I just told them about our bipartisan process. 
And so Judge Scola is a product of that. He, without a doubt, 
over and over, it has been told to me as I run into members of 
the bar in Miami, that this man is outstanding and he deserves 
this appointment.
    So I ask you all to consider that. As you said, Mr. 
Chairman, he has been a prosecutor. He has been for years a 
circuit judge in the state court system. He is an adjunct 
professor at Florida International University College of Law 
and the University of Miami School of Law. And he is a faculty 
member of the Florida New Judges College and the Florida 
College of Advanced Judicial Studies.
    So you have here all in one package--scholarly, well 
thought of, ethical, experienced, jurist and longstanding 
member of the bar, and, of course, Senator Rubio and I highly 
recommend him.
    Senator Blumenthal. Thank you, Senator Nelson. Thank you 
for being here.
    And thank you to Senator Rubio for joining us. I know you 
had another obligation and appreciate your being here.
    If you would like to introduce Judge Scola.

   PRESENTATION OF ROBERT N. SCOLA, JR., NOMINEE TO BE U.S. 
  DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORDIA BY HON. 
     MARCO RUBIO, A U.S. SENATOR FROM THE STATE OF FLORDIA

    Senator Rubio. Sure, Mr. Chairman. Thank you. And I will be 
brief, because I think Senator Nelson has touched upon all 
these things and just echo all of that and tell you that Judge 
Scola is very well regarded in the legal community, 
particularly in south Florida, where I am from.
    I have had numerous friends of mine in the legal community 
call and recommend him. And so we are proud to present him to 
the Committee and we know you will give him your full and fair 
consideration.
    It is an honor to be here with him. I know he will 
introduce his family in a moment, and I think you will be 
impressed by his resume.
    Senator Blumenthal. Thank you very much.
    Now, I would like to turn to Senators Casey and Toomey.

PRESENTATION OF ROBERT D. MARIANI, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE MIDDLE DISTRICT OF PENNSYLVANIA; CATHY BISSOON 
 NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
 PENNSYLVANIA; AND MARK R. HORNAK, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA BY HON. ROBERT 
  P. CASEY JR., A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Casey. Thank you, Mr. Chairman. We are honored to 
be here and want to thank you for this opportunity. It is a 
great honor to be able to introduce, in this case, three 
Pennsylvanians to be considered before this committee, and I 
want to thank you and thank Senator Grassley.
    I am particularly grateful for the work done by Senator 
Toomey. As is true in a number of states, there is a process 
that results in individuals being considered and then 
recommended to come before this Committee and it is a process 
that I have worked on over a number years with Senator Specter 
and have continued that work with Senator Toomey and I am 
grateful for all the work that he put into this today to make 
this possible.
    I will do a very quick biographical sketch--it will not do 
justice to the achievements and the resumes--of each of our 
nominees. But before I do that, I wanted to say two things.
    One is that often, I think, when we have hearings in 
Washington that involve something as fundamental as the 
confirmation of judges, we can often lose sight of how critical 
this is to our system of justice and, also, how, even with all 
of our challenges and all of our problems in the United States, 
our system of justice is still the envy of the world. It 
separates us from almost every country in the world and the 
basic problem that a lot of nations have is they can never get 
to the point where they have a system of justice that is 
strong, that people have confidence in, and that delivers 
justice on a regular basis. So we should be very proud that we 
have such a system in place.
    Second, I would say, with regard to the nominees, they come 
here with their experience and they come here with their 
achievements and their commitments about the future, if they 
were to become Federal judges. But each of them, in their own 
way, comes with their families, as well, and it is a commitment 
that families make leading up to today and beyond today, and we 
especially want to commend the work and the commitment of each 
member of these three nominees--Bob Mariani's family and the 
families of Cathy Bissoon and Mark Hornak.
    Let me just do a quick sketch for each of them. I have 
known Bob Mariani the longest of the three. I practiced law in 
the same town, in the same bar with him. And even then, all 
those years ago, he commanded great respect, starting from the 
time he left Syracuse University for his law degree.
    As you will hear more of, he has practiced law as a civil 
litigator for more than 3 decades, almost 35 years now. He has 
run a business. Obviously, when you are a lawyer that--for a 
good part of his life as a lawyer, as a sole proprietor running 
that business and doing all the things you have to do to run a 
business.
    So I cannot say enough about his ability, his integrity, 
and his commitment to do justice. And I think our only regret 
here today is that his wife, Sally, is not with us today. We 
are thinking of her today and remembering her. I knew her, as 
well, from the neighborhood that we live in.
    I am so grateful to Bob and his family for making this 
commitment.
    Cathy Bissoon, if you look at her story, her resume, it is 
a remarkable American story of achievement and success and 
overcoming obstacles. A graduate of Harvard Law School, serving 
as a magistrate judge in our Federal system in the Western 
District of Pennsylvania, a member of a number of major law 
firms in Pennsylvania, in Pittsburgh, Pennsylvania.
    But I think more than anything else, you can see from her 
background that it is a story of great achievement, and I have 
no doubt that she will do a great job as a member of the United 
States District Court for the Western District of Pennsylvania.
    Second, in the Western District of Pennsylvania, Mark 
Hornak. Mark I have known for the better part of 15 or more 
years. He is a graduate of the University of Pittsburgh Law 
School. He has been, as you noted earlier, at Buchanan, 
Ingersoll & Rooney, that law firm, in one iteration or another, 
all these years, since, I guess, 1982.
    A tremendous lawyer, great skill and ability and commitment 
to public service. And I am grateful that his family is with 
him today.
    So I could say about all three--Bob Mariani, Cathy Bissoon 
and Mark Hornak--that they are all--each one of them and in a 
collective sense, as well--fully qualified and prepared and I 
think in each instance we will have the kind of integrity and 
the kind of commitment to honesty in the rule of law and a 
commitment to justice that will serve the Western District of 
Pennsylvania well, in the case of Cathy Bissoon and Mark 
Hornak, and in the case of Bob Mariani, the Middle District of 
Pennsylvania.
    I cannot say enough about them. I am grateful to be here, 
and I am also to be joined by Senator Toomey.
    Senator Blumenthal. Thank you, Senator Casey, for those 
very meaningful and significant comments.
    And, Senator Toomey, if you would care to follow him.

PRESENTATION OF ROBERT D. MARIANI, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE MIDDLE DISTRICT OF PENNSYLVANIA; CATHY BISSOON 
 NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
 PENNSYLVANIA; AND MARK R. HORNAK, NOMINEE TO BE U.S. DISTRICT 
JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA BY HON. PATRICK 
    J. TOOMEY, A U.S. SENATOR FROM THE STATE OF PENNSYLVANIA

    Senator Toomey. Thank you very much, Mr. Chairman and 
Ranking Member Grassley. Let me thank each of you and Senator 
Leahy, as well, for the courtesies you have extended to me as 
we have gone through this process.
    Thanks, also, for giving me this chance to help to welcome 
Judge Cathy Bissoon, Mark Hornak, and Robert Mariani before the 
committee.
    The President first nominated these really outstanding 
individuals for the Federal bench in Pennsylvania last year, 
before I was sworn into the Senate, as Senator Grassley 
observed. They were re-nominated in early January and I was 
pleased to submit the blue slips and to support them. And I 
also appreciate your timely scheduling of this hearing.
    Before I talk briefly about the nominees, I just wanted to 
note how pleased I am to be here alongside my colleague, 
Senator Casey. In my brief time, about 6 months thus far here 
in the Senate for me, he and I have not only been working to 
advance these three nominees, but also in really a genuinely 
bipartisan fashion, we have been working to help with the 
remaining five Federal district court vacancies in 
Pennsylvania, and I see today's hearing as an important 
milestone in making real progress in this direction.
    Over the last few weeks and after a thorough review 
process, I have had the opportunity to sit down with and to 
discuss at some length with each of the Pennsylvania nominees 
before you today. As you have heard, they each have very 
different legal backgrounds, but I am confident that each of 
these distinguished nominees carry the important qualities that 
Pennsylvania and America really need on the Federal bench--
intellect, experience, integrity, a commitment to public 
service, impartiality in justice.
    Since Senator Casey has already talked a fair amount about 
the backgrounds of these nominees, I will not take too much 
time, but let me just touch on some of the items that you have 
heard.
    Judge Bissoon is, of course, a very well respected Federal 
magistrate judge, and I agree she has a very compelling life 
story. She is widely lauded in the community for her commitment 
to mentoring young lawyers, in particular, and encouraging 
greater diversity in the legal progression.
    Mr. Hornak is an active and very well respected member of 
both the Pittsburgh legal community and the community at-large, 
serving, as he does, on the board of a number of nonprofit 
organizations, including the Steel Valley School District, the 
Pittsburgh Foundation, and the Girl Scouts of America.
    And, last, Mr. Mariani, a litigator with over 3 decades of 
experience, is an expert in his field, one of the top lawyers 
in the Scranton area, and deeply committed to his family and 
his community.
    So all three Pennsylvania nominees before you today have 
extensive experience in the courtroom. They have excelled at 
their craft. They are well respected members of their 
communities, and they have already presided over legal 
disputes, whether that be as a magistrate judge, as an 
arbitrator, or as a mediator. They have also pledged to be 
impartial, fairminded upholders of the law.
    Taken together, I believe that these attributes will serve 
them very well, if they are confirmed for the bench, and I hope 
that the Committee favorably reports all three nominees to the 
full Senate, which I hope will then promptly confirm them.
    Again, thanks very much for providing me the opportunity to 
say a few words and to welcome and to recommend Judge Bissoon, 
Mr. Hornak, and Mr. Mariani to the Committee today.
    Senator Blumenthal. Thank you, Senator Toomey and Senator 
Casey.
    I might just explain to the folks who are visiting that 
Senators often have other obligations, cannot stay for the 
whole hearing. So we thank you for being here and for making 
this hearing informed about the unique perspectives that you 
bring to each of these nominees.
    I am going to ask Senator Whitehouse to comment. He is a 
member of this Committee and he may not be able to stay himself 
for the full hearing, but I think he wants to make some remarks 
about one of the nominees.

PRESENTATION OF CHRISTOPHER DRONEY, NOMINEE TO BE U.S. CIRCUIT 
JUDGE FOR THE SECOND CIRCUIT BY HON. SHELDON WHITEHOUSE, A U.S. 
             SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I cannot stay, but I appreciate both 
your courtesy, Mr. Chairman, and the Ranking Member's courtesy, 
Senator Grassley's courtesy, in allowing me just to say a brief 
word.
    I know that as the chief law enforcement officer for your 
home State of Connecticut for many, many years and a very 
distinguished practitioner who I think probably has more 
Supreme Court arguments than anybody in the Senate does, you 
are keenly aware of the talents that Chris Droney brings to the 
table.
    I just wanted to share briefly that he and I were United 
States Attorneys together. In the world of 93 United States 
Attorneys, there is a certain amount of sort of jockeying and 
prestige and trying to sort out----
    Senator Blumenthal. I would not know that.
    Senator Whitehouse [continuing]. Trying to sort out who the 
really superstar ones are and all of that. And not only did I 
have a very high regard for Chris Droney during his time as 
United States Attorney, but I believe that all of his 
colleagues did. He was seen as one of the finest of the U.S. 
Attorneys, and that is a pretty competitive crowd.
    So I just wanted to stop by briefly to wish him well, to 
hope that his process is uncontroversial and smooth, and, of 
course, if there is anything that I can do to assist with any 
of my colleagues in trying to understand how good a nominee he 
is, to see to it that they agree that he should be 
noncontroversial, I am all in for that.
    He is a very good lawyer, he has been a great U.S. 
Attorney, and I look forward to his smooth confirmation.
    Thank you, Mr. Chairman. And I thank the Ranking Member, 
also.
    Senator Blumenthal. Thank you, Senator Whitehouse. And let 
me say that I bring a little bit of the same perspective, 
having been United States Attorney in Connecticut for 4.5 years 
before I was Attorney General, and I have worked with Judge 
Droney both as a United States Attorney, when he served in that 
position, and then later as a judge when my office--and I 
personally had cases before him.
    So today is a day of particular pride for me as a citizen 
of Connecticut, as a public official, as well as a member of 
the bar in Connecticut, a former prosecutor, and now a Senator, 
to be presiding.
    Judge Droney brings to this nomination a really rare, if 
not unique set of qualifications and experience. Having been a 
prosecutor, as well as a private practitioner, and a citizen 
involved in his community, speaking to some of the 
qualifications that Senator Lieberman mentioned in his very 
able opening remarks.
    I had occasion to work with Judge Droney when he was United 
States Attorney on some of the most challenging and difficult 
cases and observed those cases that he had. He was particularly 
successful in prosecuting street gangs. He presided in an 
office that pursued more than 150 gang-related convictions, 
securing very significant sentences and other results. And he 
succeeded in coordinating state, local and Federal 
prosecutorial and law enforcement officials to crack down on 
street crime and organized crime, deterring that kind of 
activity, as well as prosecuting it.
    He served as a member of the United States District Court 
for the District of Connecticut for 14 years and, in that 
capacity, presided over more than 3,000 civil cases and nearly 
400 criminal cases, and he had very significant experience on 
the court of appeals to which he has now been nominated, where 
he served as a visiting judge on more than 50 appeals.
    He has written more than 700 opinions, including six while 
sitting by designation on the second circuit. I might say by 
way of qualification, or disqualification, he has presided as a 
judge over a number of arguments and cases that my office had 
before him as an attorney general, and we won some and we lost 
some, but we always had extraordinary and deep respect for the 
scholarship and judgment that Judge Droney brought to those 
cases.
    He has also been involved in his community, very 
significantly in the Science Museum of Connecticut, St. Francis 
Hospital and Medical Center, the American Cancer Society's 
Connecticut chapter, and he has received numerous awards.
    These distinctions are all in the record and I am not going 
to go over them in great detail, but I might just mention for 
the record that the ABA standing Committee on the Federal 
Judiciary unanimously rated Judge Droney well qualified, which 
is its highest ranking.
    He is accompanied today by his family, which, as Senator 
Lieberman mentioned, is one of his major, I think, 
distinctions. His wife, Elizabeth, and his daughters, Emily, 
Sarah and Katherine.
    And I might just say to the families of all the nominees--I 
know Judge Droney personally, I do not know the others--but you 
should all be very, very proud of the family members who are 
before this committee. They have served with tremendous 
distinction and great dedication as public servants to this 
point in their lives and whatever the outcome before the U.S. 
Senate, you should be very, very proud of what they have done 
for this Nation.
    So having said that, I am going to ask Judge Droney to 
please take the witness stand, and we will give you the 
opportunity to make an opening statement; first, to be sworn 
and then to make an opening statement.
    [Nominee sworn.]
    Senator Blumenthal. Thank you. Please be seated. And if you 
would like to make an opening statement, please feel free.

   STATEMENT OF HON. CHRISTOPHER DRONEY, NOMINEE TO BE U.S. 
              CIRCUIT JUDGE FOR THE SECOND CIRCUIT

    Judge Droney. Thank you, Mr. Chairman. I do not have an 
opening statement to make. I would like to thank the Committee 
for having the hearing.
    Senator Blumenthal. Please turn on your microphone. Thank 
you.
    Judge Droney. Thank you, Mr. Chairman. I would like to 
thank, first, the Committee for having the hearing. I would 
like to thank you, Senator Whitehouse and Senator Lieberman for 
their very kind words today and their comments earlier.
    I do not know if it is necessary to introduce my family 
again, but I will. My wife, Liz, is here and my daughters, 
Sarah, who is studying for the Connecticut bar is here. Emily 
is a registered nurse in Hartford, she is also here. And then 
Katherine, my youngest, just finished her freshman year in 
college.
    So I know that they are very proud and happy to be here, as 
well.
    And I am happy to answer any questions you might have.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.226
    
    [GRAPHIC] [TIFF OMITTED] T6350.227
    
    [GRAPHIC] [TIFF OMITTED] T6350.228
    
    [GRAPHIC] [TIFF OMITTED] T6350.229
    
    [GRAPHIC] [TIFF OMITTED] T6350.230
    
    [GRAPHIC] [TIFF OMITTED] T6350.231
    
    [GRAPHIC] [TIFF OMITTED] T6350.232
    
    [GRAPHIC] [TIFF OMITTED] T6350.233
    
    [GRAPHIC] [TIFF OMITTED] T6350.234
    
    [GRAPHIC] [TIFF OMITTED] T6350.235
    
    [GRAPHIC] [TIFF OMITTED] T6350.236
    
    [GRAPHIC] [TIFF OMITTED] T6350.237
    
    [GRAPHIC] [TIFF OMITTED] T6350.238
    
    [GRAPHIC] [TIFF OMITTED] T6350.239
    
    [GRAPHIC] [TIFF OMITTED] T6350.240
    
    [GRAPHIC] [TIFF OMITTED] T6350.241
    
    [GRAPHIC] [TIFF OMITTED] T6350.242
    
    [GRAPHIC] [TIFF OMITTED] T6350.243
    
    [GRAPHIC] [TIFF OMITTED] T6350.244
    
    [GRAPHIC] [TIFF OMITTED] T6350.245
    
    [GRAPHIC] [TIFF OMITTED] T6350.246
    
    [GRAPHIC] [TIFF OMITTED] T6350.247
    
    [GRAPHIC] [TIFF OMITTED] T6350.248
    
    [GRAPHIC] [TIFF OMITTED] T6350.249
    
    [GRAPHIC] [TIFF OMITTED] T6350.250
    
    [GRAPHIC] [TIFF OMITTED] T6350.251
    
    [GRAPHIC] [TIFF OMITTED] T6350.252
    
    [GRAPHIC] [TIFF OMITTED] T6350.253
    
    [GRAPHIC] [TIFF OMITTED] T6350.254
    
    [GRAPHIC] [TIFF OMITTED] T6350.255
    
    [GRAPHIC] [TIFF OMITTED] T6350.256
    
    [GRAPHIC] [TIFF OMITTED] T6350.257
    
    [GRAPHIC] [TIFF OMITTED] T6350.258
    
    [GRAPHIC] [TIFF OMITTED] T6350.259
    
    [GRAPHIC] [TIFF OMITTED] T6350.260
    
    [GRAPHIC] [TIFF OMITTED] T6350.261
    
    [GRAPHIC] [TIFF OMITTED] T6350.262
    
    [GRAPHIC] [TIFF OMITTED] T6350.263
    
    [GRAPHIC] [TIFF OMITTED] T6350.264
    
    [GRAPHIC] [TIFF OMITTED] T6350.265
    
    [GRAPHIC] [TIFF OMITTED] T6350.266
    
    [GRAPHIC] [TIFF OMITTED] T6350.267
    
    [GRAPHIC] [TIFF OMITTED] T6350.268
    
    [GRAPHIC] [TIFF OMITTED] T6350.269
    
    [GRAPHIC] [TIFF OMITTED] T6350.270
    
    [GRAPHIC] [TIFF OMITTED] T6350.271
    
    [GRAPHIC] [TIFF OMITTED] T6350.272
    
    [GRAPHIC] [TIFF OMITTED] T6350.273
    
    [GRAPHIC] [TIFF OMITTED] T6350.274
    
    [GRAPHIC] [TIFF OMITTED] T6350.275
    
    [GRAPHIC] [TIFF OMITTED] T6350.276
    
    [GRAPHIC] [TIFF OMITTED] T6350.277
    
    [GRAPHIC] [TIFF OMITTED] T6350.278
    
    [GRAPHIC] [TIFF OMITTED] T6350.279
    
    [GRAPHIC] [TIFF OMITTED] T6350.280
    
    [GRAPHIC] [TIFF OMITTED] T6350.281
    
    [GRAPHIC] [TIFF OMITTED] T6350.282
    
    [GRAPHIC] [TIFF OMITTED] T6350.283
    
    [GRAPHIC] [TIFF OMITTED] T6350.284
    
    [GRAPHIC] [TIFF OMITTED] T6350.285
    
    [GRAPHIC] [TIFF OMITTED] T6350.286
    
    [GRAPHIC] [TIFF OMITTED] T6350.287
    
    [GRAPHIC] [TIFF OMITTED] T6350.288
    
    [GRAPHIC] [TIFF OMITTED] T6350.289
    
    [GRAPHIC] [TIFF OMITTED] T6350.290
    
    [GRAPHIC] [TIFF OMITTED] T6350.291
    
    [GRAPHIC] [TIFF OMITTED] T6350.292
    
    [GRAPHIC] [TIFF OMITTED] T6350.293
    
    [GRAPHIC] [TIFF OMITTED] T6350.294
    
    [GRAPHIC] [TIFF OMITTED] T6350.295
    
    [GRAPHIC] [TIFF OMITTED] T6350.296
    
    [GRAPHIC] [TIFF OMITTED] T6350.297
    
    [GRAPHIC] [TIFF OMITTED] T6350.298
    
    [GRAPHIC] [TIFF OMITTED] T6350.299
    
    [GRAPHIC] [TIFF OMITTED] T6350.300
    
    [GRAPHIC] [TIFF OMITTED] T6350.301
    
    [GRAPHIC] [TIFF OMITTED] T6350.302
    
    [GRAPHIC] [TIFF OMITTED] T6350.303
    
    [GRAPHIC] [TIFF OMITTED] T6350.304
    
    [GRAPHIC] [TIFF OMITTED] T6350.305
    
    [GRAPHIC] [TIFF OMITTED] T6350.306
    
    [GRAPHIC] [TIFF OMITTED] T6350.307
    
    [GRAPHIC] [TIFF OMITTED] T6350.308
    
    [GRAPHIC] [TIFF OMITTED] T6350.309
    
    [GRAPHIC] [TIFF OMITTED] T6350.310
    
    [GRAPHIC] [TIFF OMITTED] T6350.311
    
    [GRAPHIC] [TIFF OMITTED] T6350.312
    
    [GRAPHIC] [TIFF OMITTED] T6350.313
    
    [GRAPHIC] [TIFF OMITTED] T6350.314
    
    [GRAPHIC] [TIFF OMITTED] T6350.315
    
    [GRAPHIC] [TIFF OMITTED] T6350.316
    
    [GRAPHIC] [TIFF OMITTED] T6350.317
    
    Senator Blumenthal. Thank you. I will begin with some 
questions and then ask Senator Grassley whether he has any.
    One aspect of your background that has not been mentioned 
and I should have made reference to it has been your service as 
the deputy mayor and then mayor of West Hartford. And I wonder 
if that experience, combined with your prosecutorial and your 
judicial experience, has given you a perspective on what you 
will be doing as a judge on the second circuit, if confirmed.
    Judge Droney. I think it was very important experience for 
me in all the different roles that I've had. I think service in 
local government like that teaches you to be fair to people, to 
be patient, to listen to everybody, and to, also, understand 
that just because someone is better educated than someone else 
doesn't mean that person is more intelligent than the one who 
hasn't the benefits of a great education like I have.
    I hope I have brought those qualities to my other 
positions, too, as U.S. Attorney and as a trial judge.
    Senator Blumenthal. And how would you describe your view of 
the role of precedent or decisions by higher courts in what you 
do as a judge?
    Judge Droney. Well, I certainly follow precedent, I'm bound 
to it, of the Supreme Court and the second circuit. I hope and 
I think that I have demonstrated that over my 14 years as a 
district judge, that my own personal views have no place in 
adjudicating those cases and I am bound by those decisions of 
the higher courts.
    Senator Blumenthal. I am happy to turn to the Ranking 
Member, Senator Grassley.
    Senator Grassley. First of all, congratulations.
    Judge Droney. Thank you, Senator.
    Senator Grassley. I should say you are lucky you earned it, 
but all these nice comments about you.
    When you served as U.S. Attorney in Connecticut, the New 
York Times quoted you as saying, ``I believe in redemption, but 
I also believe in paying for your sins.''
    Has your time on the Federal bench changed your views you 
originally held as a U.S. Attorney and if so, how?
    Judge Droney. I don't think so. I think certainly there is 
a role for punishment. It's one of the things we think about in 
applying the Federal sentencing statute. I think it was 
appropriate in that particular case. It was a gang member who 
was sentenced to prison and he was arguing in that article that 
he shouldn't have received a sentence of imprisonment.
    But I had hoped that he turned his life around and was 
going to return as a contributing member of society, but he 
also, I think, had to pay for some of the misdeeds that he had 
a member of the Los Solidos.
    I still believe--I still believe generally in those 
principles that I articulated in that article.
    Senator Grassley. One, I ask the next question because of 
your position as a district judge and it is in regard to the 
issue of terrorism, and I only want to quote Attorney General 
Holder, because he has a very good quote about Article 3, court 
system, ``our most effective terror-fighting weapon.''
    What is your reaction to the statement, based on your 
experience as an Article 3 judge? Is this a burden the Attorney 
General should put on our court, and what do you think the 
court's proper role would be in the war on terror?
    Judge Droney. Well, I think it's for people than I to 
decide where those cases should be placed. I know it has 
received a lot of attention, even this week, about whether they 
should be tried in military tribunals or in the district court.
    All I can say is if I have one of those cases, I would 
certainly adjudicate it and follow the law. But I think as to 
the decision as to where is the proper forum, I don't think 
that's something that at least I have encountered.
    It's possible, I think, that it could come before me, but I 
think that it's a prosecutorial decision rather than a judicial 
decision typically and the Attorney General would make that 
call, I believe.
    Senator Grassley. In your questionnaire, when you were 
nominated for district judge, you said that judges should use, 
``traditional methods of legislative interpretation when 
defining the intent behind certain laws and their scope.''
    What specifically do you consider--let me go to my second 
question.
    There has been renewed interest in textualism, including 
criticism of the use of legislative history and statutory 
interpretation. How does this approach fit into your view of 
traditional methods of legislative interpretation?
    Judge Droney. Well, I think my views are the same now as 
they were 14 years ago when I provided that answer to you. I 
think it was to you, Senator. And it is that, of course, the 
first thing that we should look to is the language of the 
statute or the Constitution itself and try to be guided by 
that.
    Second, we do--I still think it is appropriate to look at 
legislative history. At times, it's hard to figure it out, but 
it's our obligation to do our best to see what the legislature 
intended in passing that statute. And then, finally, of course, 
the decisions of the higher courts in interpreting the statute, 
they should be of some guidance, too, and, as I mentioned 
before, are binding, if it's a precedent that's right on point.
    Senator Grassley. Now, you have been a judge for 14 years. 
And if confirmed to the second circuit, how would your approach 
to judging change and, specifically, do you think that this 
will be a difficult transition for you to make?
    Judge Droney. I don't think my approach will change. As 
Senator Blumenthal, as the Chairman has pointed out, I have sat 
on the second circuit eight times in my time as a district 
judge by invitation.
    So I have, I think, a pretty good idea of how the court 
works. I still, of course, have a lot to learn, but I still 
think I'd be guided by the same principles.
    And, also, as I think either Senator Blumenthal or Senator 
Lieberman pointed out, I've written, I think, over 700 opinions 
and, as you well know, the job of a district judge is not just 
to try cases and preside over court hearings, but also to write 
a lot, and I have done that.
    So I think I've had a lot of experience in that and, as 
I've mentioned, I still think I have some to learn, but I think 
I'm very well prepared for that, if I'm fortunate enough to be 
confirmed.
    Senator Grassley. Here is kind of a philosophical approach 
to how you might judge, and I am going to quote President 
Obama. He has said that he hopes judges would reach decisions 
based on, ``a broader vision of what America should be.''
    Do you believe judges should consider, ``their broader 
vision of what America should be'' when deciding cases?
    Judge Droney. Well, I certainly don't think my personal 
views should be involved in deciding cases. As I've mentioned, 
I do strongly believe that the decisions of the higher courts 
should bind the lower courts, and I think I've demonstrated 
over the 14 years that I've followed those rules, and that's 
the way I've approached my judging, without--I hope and I 
think, without having my personal views come into play.
    Senator Grassley. This will be the last question, but I 
might submit some for answer in writing.
    We recently had Brown v. Plata, the case about the 30,000 
prisoners from California prisons. Judge Scalia dissented, and 
you do not have to comment on what he said, but it is kind of a 
basis for my question, that gets to a broader question, in 
writing about these types of injunctions, that it turned judges 
into, ``long-term administrators of complex social 
institutions, such as schools, prisons and police departments, 
requiring judges to play a role essentially indistinguishable 
from the role ordinarily played by executive officials.''
    Do you believe that structural injunctions like this are 
consistent with the judicial power called for in Article 3 in 
the U.S. Constitution?
    Judge Droney. Well, I know the Supreme Court has recently, 
not just in that California case, but in the last 10 years or 
so, has reminded all of us that it's better to have those big 
organizations run by state agencies, because they are better 
equipped than a district judge to do that, and I firmly believe 
in that.
    But I also, from the Supreme Court decision, know that 
there are times when the constitutional violations are such 
that the courts have to intervene and we shouldn't shy away 
from that. But I do agree that, generally speaking, those 
agencies, those departments are better served by a state agency 
running them. They are better equipped to do that.
    Senator Grassley. Thank you, Judge Droney.
    Judge Droney. Thank you, Senator.
    Senator Blumenthal. Thank you, Senator Grassley.
    There are no other members here, but we really want to 
thank you very much for being here to testify. And we will turn 
now to the next panel. Thank you.
    Judge Droney. Thank you very much.
    Senator Blumenthal. I am going to ask now Judge Bissoon, 
Mr. Mariani and Mr. Hornak to please take the stand. And Judge 
Scola, as well, I am sorry. I know you would not want to be 
left out.
    [Nominees sworn.]
    Senator Blumenthal. Please be seated.
    Why do we not go in order from Mr. Mariani across the 
table, if any of you would like to make opening statements or 
introduce your families.

  STATEMENT OF ROBERT D. MARIANI, NOMINEE TO BE UNITED STATES 
     DISTRICT JUDGE FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

    Mr. Mariani. Thank you, Senator. I would like to introduce 
my three children behind me, my son, Robert, and my daughters, 
Christine and Jeanne Michele.
    I'd like to thank you and Senator Grassley for the 
opportunity to respond to your questions, and I'm particularly 
appreciative of Senators Toomey and Casey being here to speak 
on my behalf.
    Senator Blumenthal. Thank you.
    Judge Bissoon.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.318
    
    [GRAPHIC] [TIFF OMITTED] T6350.319
    
    [GRAPHIC] [TIFF OMITTED] T6350.320
    
    [GRAPHIC] [TIFF OMITTED] T6350.321
    
    [GRAPHIC] [TIFF OMITTED] T6350.322
    
    [GRAPHIC] [TIFF OMITTED] T6350.323
    
    [GRAPHIC] [TIFF OMITTED] T6350.324
    
    [GRAPHIC] [TIFF OMITTED] T6350.325
    
    [GRAPHIC] [TIFF OMITTED] T6350.326
    
    [GRAPHIC] [TIFF OMITTED] T6350.327
    
    [GRAPHIC] [TIFF OMITTED] T6350.328
    
    [GRAPHIC] [TIFF OMITTED] T6350.329
    
    [GRAPHIC] [TIFF OMITTED] T6350.330
    
    [GRAPHIC] [TIFF OMITTED] T6350.331
    
    [GRAPHIC] [TIFF OMITTED] T6350.332
    
    [GRAPHIC] [TIFF OMITTED] T6350.333
    
    [GRAPHIC] [TIFF OMITTED] T6350.334
    
    [GRAPHIC] [TIFF OMITTED] T6350.335
    
    [GRAPHIC] [TIFF OMITTED] T6350.336
    
    [GRAPHIC] [TIFF OMITTED] T6350.337
    
    [GRAPHIC] [TIFF OMITTED] T6350.338
    
    [GRAPHIC] [TIFF OMITTED] T6350.339
    
    [GRAPHIC] [TIFF OMITTED] T6350.340
    
    [GRAPHIC] [TIFF OMITTED] T6350.341
    
    [GRAPHIC] [TIFF OMITTED] T6350.342
    
    [GRAPHIC] [TIFF OMITTED] T6350.343
    
    [GRAPHIC] [TIFF OMITTED] T6350.344
    
    [GRAPHIC] [TIFF OMITTED] T6350.345
    
    [GRAPHIC] [TIFF OMITTED] T6350.346
    
    [GRAPHIC] [TIFF OMITTED] T6350.347
    
    [GRAPHIC] [TIFF OMITTED] T6350.348
    
    [GRAPHIC] [TIFF OMITTED] T6350.349
    
    [GRAPHIC] [TIFF OMITTED] T6350.350
    
    [GRAPHIC] [TIFF OMITTED] T6350.351
    
    [GRAPHIC] [TIFF OMITTED] T6350.352
    
    [GRAPHIC] [TIFF OMITTED] T6350.353
    
    [GRAPHIC] [TIFF OMITTED] T6350.354
    
    [GRAPHIC] [TIFF OMITTED] T6350.355
    
    [GRAPHIC] [TIFF OMITTED] T6350.356
    
    [GRAPHIC] [TIFF OMITTED] T6350.357
    
    [GRAPHIC] [TIFF OMITTED] T6350.358
    
    [GRAPHIC] [TIFF OMITTED] T6350.359
    
 STATEMENT OF HON. CATHY BISSOON, NOMINEE TO BE UNITED STATES 
    DISTRICT JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA

    Judge Bissoon. Thank you, Senator Blumenthal. Thank you for 
presiding today.
    I have a slightly longer introduction because I have a much 
bigger group here today.
    Senator Blumenthal. Take your time.
    Judge Bissoon. First of all, I would like to thank the 
President for his nomination. I would like to thank Senator 
Casey for his kind words today, as well as his recommendation, 
and Senator Toomey for his generous introduction and his 
support in this process.
    Thanks to the committee, including Chairman Leahy and 
Ranking Member Grassley, for convening this hearing today.
    I have a number of family members here with me today. I'm 
joined by my husband, Greg Bradley, and I can assure you that I 
would not be sitting here but for him.
    Our two biggest joys in our life, my kids, Maya and Aiden 
Bradley. My mother is here, Ann Bissoon; my sister, Cindy 
Wolff, and my brother, Ronald Bissoon. I also have a cousin 
here, Nicholas Ramcharitar; and, my mother-in-law, Mildred 
Bradley.
    I'm joined by several friends here today, as well. Michael 
Braxton (ph), Michael Palace (ph), Svitlana Gordetsky (ph), Jim 
Genstein (ph). Several members of my staff, Jim Imhoff (ph), 
David Dumonte (ph), Richard Ting (ph), and a former law clerk, 
Shwayda Gupta (ph).
    I also have a large contingent looking on on the Webcast. 
So I just want to acknowledge my court family, as well as my 
Girl Scouts in Girl Scout Troop 51023, who I know are watching, 
as well.
    Thank you for the opportunity, and I welcome the 
committee's questions.
    Senator Blumenthal. Thank you, Judge.
    Mr. Hornak.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.361
    
    [GRAPHIC] [TIFF OMITTED] T6350.362
    
    [GRAPHIC] [TIFF OMITTED] T6350.363
    
    [GRAPHIC] [TIFF OMITTED] T6350.364
    
    [GRAPHIC] [TIFF OMITTED] T6350.365
    
    [GRAPHIC] [TIFF OMITTED] T6350.366
    
    [GRAPHIC] [TIFF OMITTED] T6350.367
    
    [GRAPHIC] [TIFF OMITTED] T6350.368
    
    [GRAPHIC] [TIFF OMITTED] T6350.369
    
    [GRAPHIC] [TIFF OMITTED] T6350.370
    
    [GRAPHIC] [TIFF OMITTED] T6350.371
    
    [GRAPHIC] [TIFF OMITTED] T6350.372
    
    [GRAPHIC] [TIFF OMITTED] T6350.373
    
    [GRAPHIC] [TIFF OMITTED] T6350.374
    
    [GRAPHIC] [TIFF OMITTED] T6350.375
    
    [GRAPHIC] [TIFF OMITTED] T6350.376
    
    [GRAPHIC] [TIFF OMITTED] T6350.377
    
    [GRAPHIC] [TIFF OMITTED] T6350.378
    
    [GRAPHIC] [TIFF OMITTED] T6350.379
    
    [GRAPHIC] [TIFF OMITTED] T6350.380
    
    [GRAPHIC] [TIFF OMITTED] T6350.381
    
    [GRAPHIC] [TIFF OMITTED] T6350.382
    
    [GRAPHIC] [TIFF OMITTED] T6350.383
    
    [GRAPHIC] [TIFF OMITTED] T6350.384
    
    [GRAPHIC] [TIFF OMITTED] T6350.385
    
    [GRAPHIC] [TIFF OMITTED] T6350.386
    
    [GRAPHIC] [TIFF OMITTED] T6350.387
    
    [GRAPHIC] [TIFF OMITTED] T6350.388
    
    [GRAPHIC] [TIFF OMITTED] T6350.389
    
    [GRAPHIC] [TIFF OMITTED] T6350.390
    
    [GRAPHIC] [TIFF OMITTED] T6350.391
    
    [GRAPHIC] [TIFF OMITTED] T6350.392
    
    [GRAPHIC] [TIFF OMITTED] T6350.393
    
    [GRAPHIC] [TIFF OMITTED] T6350.394
    
    [GRAPHIC] [TIFF OMITTED] T6350.395
    
    [GRAPHIC] [TIFF OMITTED] T6350.396
    
    [GRAPHIC] [TIFF OMITTED] T6350.397
    
    [GRAPHIC] [TIFF OMITTED] T6350.398
    
    [GRAPHIC] [TIFF OMITTED] T6350.399
    
    [GRAPHIC] [TIFF OMITTED] T6350.400
    
    [GRAPHIC] [TIFF OMITTED] T6350.401
    
    [GRAPHIC] [TIFF OMITTED] T6350.402
    
    [GRAPHIC] [TIFF OMITTED] T6350.403
    
    [GRAPHIC] [TIFF OMITTED] T6350.404
    
    [GRAPHIC] [TIFF OMITTED] T6350.405
    
    [GRAPHIC] [TIFF OMITTED] T6350.406
    
    [GRAPHIC] [TIFF OMITTED] T6350.407
    
    [GRAPHIC] [TIFF OMITTED] T6350.408
    
    [GRAPHIC] [TIFF OMITTED] T6350.409
    
    [GRAPHIC] [TIFF OMITTED] T6350.410
    
    [GRAPHIC] [TIFF OMITTED] T6350.411
    
    [GRAPHIC] [TIFF OMITTED] T6350.412
    
    [GRAPHIC] [TIFF OMITTED] T6350.413
    
    [GRAPHIC] [TIFF OMITTED] T6350.414
    
    [GRAPHIC] [TIFF OMITTED] T6350.415
    
   STATEMENT OF MARK R. HORNAK, NOMINEE TO BE UNITED STATES 
    DISTRICT JUDGE FOR THE WESTERN DISTRICT OF PENNSYLVANIA

    Mr. Hornak. Mr. Chairman, thank you very much. I'd like to 
begin by thanking this committee's Chairman and its Ranking 
Member for affording me the privilege of appearing today and 
responding to your questions.
    I'd like to express my appreciation to you, Senator 
Blumenthal, for chairing today's hearing.
    On behalf of myself and my entire family, I would like to 
say thank you to Senators Casey and Toomey for their generous 
introductions and taking time from their busy schedule to be 
here today to introduce all of us and for their support through 
this process.
    I would also like to thank the President of the United 
States for his trust and confidence in submitting my nomination 
to the U.S. Senate.
    If I may take a moment to introduce my family, Mr. 
Chairman. With us today are my wife of nearly 30 years, Beth, 
without whom nothing in our family would be possible. She is 
the soul and inspiration of our home.
    Also with me are our five children. I'll start at the 
oldest. Our oldest son, Sam, who attended college here in the 
District, recently completed his law studies at the University 
of Pittsburgh and is studying for the bar; our oldest daughter, 
Rachel, who is a resident of the District, also attended school 
here and works in Washington; our daughter, Becca, who attends 
college in the Commonwealth of Virginia; our daughter, Mary, 
who is about to become a high school senior; and, last, but not 
least, our 9-year-old son, Matthew.
    It is a special blessing that with us today is my mother, 
Marge Hornak, from Pittsburgh, Pennsylvania. And I'm also proud 
that my cousins, Diane Reed and John Somyak (ph), could join 
us.
    Back in Pittsburgh are my wonderful mother-in-law, Betty 
Meyer, and my dear brother, Matthew and his family. And 
watching on the webcam is my assistant, Pat Smith.
    Thank you, Senator.
    Senator Blumenthal. Thank you, Mr. Hornak.
    Judge Scola.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.416
    
    [GRAPHIC] [TIFF OMITTED] T6350.417
    
    [GRAPHIC] [TIFF OMITTED] T6350.418
    
    [GRAPHIC] [TIFF OMITTED] T6350.419
    
    [GRAPHIC] [TIFF OMITTED] T6350.420
    
    [GRAPHIC] [TIFF OMITTED] T6350.421
    
    [GRAPHIC] [TIFF OMITTED] T6350.422
    
    [GRAPHIC] [TIFF OMITTED] T6350.423
    
    [GRAPHIC] [TIFF OMITTED] T6350.424
    
    [GRAPHIC] [TIFF OMITTED] T6350.425
    
    [GRAPHIC] [TIFF OMITTED] T6350.426
    
    [GRAPHIC] [TIFF OMITTED] T6350.427
    
    [GRAPHIC] [TIFF OMITTED] T6350.428
    
    [GRAPHIC] [TIFF OMITTED] T6350.429
    
    [GRAPHIC] [TIFF OMITTED] T6350.430
    
    [GRAPHIC] [TIFF OMITTED] T6350.432
    
    [GRAPHIC] [TIFF OMITTED] T6350.433
    
    [GRAPHIC] [TIFF OMITTED] T6350.434
    
    [GRAPHIC] [TIFF OMITTED] T6350.435
    
    [GRAPHIC] [TIFF OMITTED] T6350.436
    
    [GRAPHIC] [TIFF OMITTED] T6350.437
    
    [GRAPHIC] [TIFF OMITTED] T6350.438
    
    [GRAPHIC] [TIFF OMITTED] T6350.439
    
    [GRAPHIC] [TIFF OMITTED] T6350.440
    
    [GRAPHIC] [TIFF OMITTED] T6350.441
    
    [GRAPHIC] [TIFF OMITTED] T6350.442
    
    [GRAPHIC] [TIFF OMITTED] T6350.443
    
    [GRAPHIC] [TIFF OMITTED] T6350.444
    
    [GRAPHIC] [TIFF OMITTED] T6350.445
    
    [GRAPHIC] [TIFF OMITTED] T6350.446
    
    [GRAPHIC] [TIFF OMITTED] T6350.447
    
    [GRAPHIC] [TIFF OMITTED] T6350.448
    
    [GRAPHIC] [TIFF OMITTED] T6350.449
    
    [GRAPHIC] [TIFF OMITTED] T6350.450
    
    [GRAPHIC] [TIFF OMITTED] T6350.451
    
    [GRAPHIC] [TIFF OMITTED] T6350.452
    
    [GRAPHIC] [TIFF OMITTED] T6350.453
    
    [GRAPHIC] [TIFF OMITTED] T6350.454
    
    [GRAPHIC] [TIFF OMITTED] T6350.455
    
    [GRAPHIC] [TIFF OMITTED] T6350.456
    
    [GRAPHIC] [TIFF OMITTED] T6350.457
    
    [GRAPHIC] [TIFF OMITTED] T6350.458
    
    [GRAPHIC] [TIFF OMITTED] T6350.459
    
    [GRAPHIC] [TIFF OMITTED] T6350.460
    
    [GRAPHIC] [TIFF OMITTED] T6350.461
    
    [GRAPHIC] [TIFF OMITTED] T6350.462
    
    [GRAPHIC] [TIFF OMITTED] T6350.463
    
    [GRAPHIC] [TIFF OMITTED] T6350.464
    
    [GRAPHIC] [TIFF OMITTED] T6350.465
    
    [GRAPHIC] [TIFF OMITTED] T6350.466
    
    [GRAPHIC] [TIFF OMITTED] T6350.467
    
    [GRAPHIC] [TIFF OMITTED] T6350.468
    
    [GRAPHIC] [TIFF OMITTED] T6350.469
    
    [GRAPHIC] [TIFF OMITTED] T6350.470
    
    [GRAPHIC] [TIFF OMITTED] T6350.471
    
    [GRAPHIC] [TIFF OMITTED] T6350.472
    
    [GRAPHIC] [TIFF OMITTED] T6350.473
    
    [GRAPHIC] [TIFF OMITTED] T6350.474
    
 STATEMENT OF HON. ROBERT N. SCOLA, JR., NOMINEE TO BE UNITED 
   STATES DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF FLORIDA

    Judge Scola. Thank you. I want to start by thanking Senator 
Blumenthal for chairing this Committee and Ranking Member 
Grassley for participating and considering my nomination.
    I want to thank President Obama for the confidence he 
placed in me with this nomination, and Senators Nelson and 
Rubio for honoring me with their presence today and for their 
support throughout this process.
    I also want to thank Senator Rubio's predecessor, former 
Senator George LeMieux, for his support while he was in office 
during this process.
    And I'm very pleased today to have with me my wife of 25 
years and the love of my life, Jackie Scola, who is a judge in 
Miami, as well. Our two sons are here, Bobby, who just 
graduated from Tufts University, and Billy, who will be a 
senior in high school.
    Stephanie White, who is Bobby's girlfriend, is here, and 
Evan Helguero-Kelley, a friend of Billy's and a close friend of 
our family's; my sister, Nunziata Reynolds, who is an attorney 
in Massachusetts; my step-mom, Marilyn Scola, who was a great 
second mom to me growing up; and, also, a close family friend, 
Cheryl Goldstein, is here.
    Unfortunately, my mom and dad are no longer with us, having 
passed away. And they had a tremendous influence on my life, 
particularly my dad, who inspired me to be a judge. And I know 
that they're looking down with pride upon these proceedings.
    I also have a number of close friends and family watching 
on the Web. My wife's parents, Dr. William Hogan, and his wife, 
Mary Hogan, as well as my wife's mom, Barbara Hogan, are 
watching, and my eight other brothers and sisters and step-
brothers and sisters, Gay, Tony, Jimmy, Nicky, Cathy, John, 
Paul and Sarah are watching from California to Switzerland and 
places in between. And Armano Garlifick (ph) and his family are 
watching from Puerto Rico.
    And I'd be happy to answer any questions that you have.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.475
    
    [GRAPHIC] [TIFF OMITTED] T6350.476
    
    [GRAPHIC] [TIFF OMITTED] T6350.477
    
    [GRAPHIC] [TIFF OMITTED] T6350.478
    
    [GRAPHIC] [TIFF OMITTED] T6350.479
    
    [GRAPHIC] [TIFF OMITTED] T6350.480
    
    [GRAPHIC] [TIFF OMITTED] T6350.481
    
    [GRAPHIC] [TIFF OMITTED] T6350.482
    
    [GRAPHIC] [TIFF OMITTED] T6350.483
    
    [GRAPHIC] [TIFF OMITTED] T6350.484
    
    [GRAPHIC] [TIFF OMITTED] T6350.485
    
    [GRAPHIC] [TIFF OMITTED] T6350.486
    
    [GRAPHIC] [TIFF OMITTED] T6350.487
    
    [GRAPHIC] [TIFF OMITTED] T6350.488
    
    [GRAPHIC] [TIFF OMITTED] T6350.489
    
    [GRAPHIC] [TIFF OMITTED] T6350.490
    
    [GRAPHIC] [TIFF OMITTED] T6350.491
    
    [GRAPHIC] [TIFF OMITTED] T6350.492
    
    [GRAPHIC] [TIFF OMITTED] T6350.493
    
    [GRAPHIC] [TIFF OMITTED] T6350.494
    
    [GRAPHIC] [TIFF OMITTED] T6350.495
    
    [GRAPHIC] [TIFF OMITTED] T6350.496
    
    [GRAPHIC] [TIFF OMITTED] T6350.497
    
    [GRAPHIC] [TIFF OMITTED] T6350.498
    
    [GRAPHIC] [TIFF OMITTED] T6350.499
    
    [GRAPHIC] [TIFF OMITTED] T6350.500
    
    [GRAPHIC] [TIFF OMITTED] T6350.501
    
    [GRAPHIC] [TIFF OMITTED] T6350.502
    
    [GRAPHIC] [TIFF OMITTED] T6350.503
    
    [GRAPHIC] [TIFF OMITTED] T6350.504
    
    [GRAPHIC] [TIFF OMITTED] T6350.505
    
    [GRAPHIC] [TIFF OMITTED] T6350.506
    
    [GRAPHIC] [TIFF OMITTED] T6350.507
    
    [GRAPHIC] [TIFF OMITTED] T6350.508
    
    [GRAPHIC] [TIFF OMITTED] T6350.509
    
    [GRAPHIC] [TIFF OMITTED] T6350.510
    
    [GRAPHIC] [TIFF OMITTED] T6350.511
    
    [GRAPHIC] [TIFF OMITTED] T6350.512
    
    [GRAPHIC] [TIFF OMITTED] T6350.513
    
    [GRAPHIC] [TIFF OMITTED] T6350.514
    
    [GRAPHIC] [TIFF OMITTED] T6350.515
    
    [GRAPHIC] [TIFF OMITTED] T6350.516
    
    [GRAPHIC] [TIFF OMITTED] T6350.517
    
    [GRAPHIC] [TIFF OMITTED] T6350.518
    
    [GRAPHIC] [TIFF OMITTED] T6350.519
    
    [GRAPHIC] [TIFF OMITTED] T6350.520
    
    [GRAPHIC] [TIFF OMITTED] T6350.521
    
    [GRAPHIC] [TIFF OMITTED] T6350.522
    
    [GRAPHIC] [TIFF OMITTED] T6350.523
    
    [GRAPHIC] [TIFF OMITTED] T6350.524
    
    [GRAPHIC] [TIFF OMITTED] T6350.525
    
    [GRAPHIC] [TIFF OMITTED] T6350.526
    
    [GRAPHIC] [TIFF OMITTED] T6350.527
    
    [GRAPHIC] [TIFF OMITTED] T6350.528
    
    [GRAPHIC] [TIFF OMITTED] T6350.529
    
    [GRAPHIC] [TIFF OMITTED] T6350.530
    
    [GRAPHIC] [TIFF OMITTED] T6350.531
    
    [GRAPHIC] [TIFF OMITTED] T6350.532
    
    [GRAPHIC] [TIFF OMITTED] T6350.533
    
    [GRAPHIC] [TIFF OMITTED] T6350.534
    
    [GRAPHIC] [TIFF OMITTED] T6350.535
    
    [GRAPHIC] [TIFF OMITTED] T6350.536
    
    [GRAPHIC] [TIFF OMITTED] T6350.537
    
    [GRAPHIC] [TIFF OMITTED] T6350.538
    
    Senator Blumenthal. Thank you very much, Judge Scola.
    Let me say by way of preface, to each of you, thank you for 
being willing to take on this responsibility. As you well know 
from your experience, and I do as mine, having appeared before 
numerous district judges, you will be, if confirmed, the face 
and voice of justice for countless individuals who will come 
before you, some of them in very desperate circumstances, some 
of them as criminal defendants about to be sentenced, some of 
them as people about to become citizens, and you will be, for 
them, the source of an aspiration and dream or potentially 
punishment and you will need to address each of them with the 
kind of care and sensitivity, as well as intellect, that your 
background has prepared you to provide.
    And talking about background, Mr. Mariani, by asking you, 
because you have had extensive experience as a labor lawyer and 
you have acted as an impartial mediator and arbitrator in a 
large number of cases.
    Can you perhaps describe for the Committee how that 
background would prepare you for your duties as a United States 
district court judge?
    Mr. Mariani. Thank you, Senator, for the question. As an 
arbitrator, I have, on many occasions, been confronted with 
deciding cases of some complexity, recognizing the rights of 
both litigants to the matter. That has certainly developed my 
sense of fairness in adjudication.
    As a litigator, I have brought many, many cases to court, 
particularly in the Federal courts, where I have had experience 
with virtually all of the Federal employment statutes that are 
in effect today. That, again, has given me, in my view, a very 
keen sense of what it takes to be a judge, particularly--
particularly the qualities of integrity, impartiality, and that 
would be the approach I would take, if I were to be confirmed.
    Senator Blumenthal. And your experience is primarily in the 
civil area. You feel that you would be qualified, also, to 
preside over criminal matters.
    Mr. Mariani. I do, Senator, and I will tell you that it has 
been many years since I have had a matter of criminal nature to 
be involved in. So as a consequence of that, I will tell you 
that I am absolutely dedicated to making sure that as those 
cases come before me, I am well acquainted with both the 
substantive criminal law, as well as the criminal procedures 
that will be used in those cases.
    I consider that a personal goal of mine, if I am confirmed.
    Senator Blumenthal. Thank you. And one last question for 
you, Mr. Mariani. What do you view as the role of precedent in 
guiding a district court judge?
    Mr. Mariani. Well, in particular, as a district court 
judge, I feel I am duty-bound to follow the precedents on 
matters that come before me. That's particularly true, of 
course, with respect to the precedents of the United States 
Supreme Court, and, as well, the court of appeals for the third 
circuit.
    I regard that as the way to approach every case, beginning 
with the statute, where you must read the statute and be guided 
by it, but then, also, pay close heed to what the Supreme Court 
has said, as well as the court of appeals in my circuit.
    Senator Blumenthal. Thank you.
    Judge Bissoon, you have been a judge magistrate since 2008, 
I believe. And I wonder if you could tell the Committee how you 
think that experience has prepared you for a United States 
district court judgeship, if confirmed.
    Judge Bissoon. Thank you very much for the question, 
Senator.
    I am fortunate to be in a district where magistrate judges 
have significant authority over cases. We have a very robust 
consent system in our court, and when the parties consent to my 
jurisdiction, I sit as the district judge in those cases. And 
so I do do that quite regularly.
    I do not have the same level of criminal experience. I deal 
with preliminary criminal matters, preliminary hearings, 
detention hearings. I deal with issues of probable cause and 
issuing search warrants and arrest warrants, as well as 
complaints.
    And it's been a while since I've done any felony criminal 
work. I did some work as a law clerk, but not for a while. But 
I would look to certainly lean on my colleagues, my Article 3 
colleagues on the bench and look to their expertise and use all 
available resources to master that area.
    Senator Blumenthal. But you certainly have a familiarity 
with the Federal criminal statutes.
    Judge Bissoon. Absolutely.
    Senator Blumenthal. And let me ask you the same question 
about the role of precedent in informing and shaping the 
opinions of a district court judge.
    Judge Bissoon. Well, I certainly agree with Mr. Mariani. It 
is the cornerstone of what we do as judicial officers.
    We are bound by precedent, both the precedent of the 
Supreme Court, as well as the court of appeals for the third 
circuit.
    Senator Blumenthal. Whether you agree or disagree.
    Judge Bissoon. Regardless of whether I agree or disagree.
    Senator Blumenthal. Thank you.
    Mr. Hornak, let me ask you. You have been an attorney. You 
have very extensive experience as a mediator and arbitrator in 
a variety of civil cases. Do you think that experience, as well 
as your experience as an advocate will guide you as a United 
States district court judge, if confirmed?
    Mr. Hornak. Thank you for the question, Mr. Chairman.
    The short answer is yes. I've been very fortunate over the 
course of nearly 30 years of practicing law to have had the 
privilege of representing clients in a wide array of areas of 
practice, ranging from workplace issues to construction law to 
representing government officials, local units of government.
    And the court in which Judge Bissoon sits has a very 
extensive alternative dispute resolution program and I've been 
very fortunate to have been selected by the parties and 
approved by the judges to serve as a mediator in a wide array 
of cases, and I believe that has given me an exposure to the 
breadth of the matters that would come before our district 
court in Western Pennsylvania.
    Senator Blumenthal. And do you share the views that have 
been articulated by Judge Bissoon and Mr. Mariani that 
precedent should be binding on United States district court 
judges?
    Mr. Hornak. I absolutely do share them. I believe that 
adherence to precedent by our trial judges is really central to 
litigants and society having confidence in courts. It is 
adherence to the precedent and the commitment to following it 
that allows people to have predictability in our legal system.
    Senator Blumenthal. Thank you.
    Judge Scola, you have served as a state circuit court judge 
for the Eleventh Judicial District of Florida in Miami-Dade 
County for 16 years, and you have worked on a vast variety of 
cases, because the court, I believe, is one of general 
jurisdiction.
    And I wonder if you could tell us how you think that 
experience would shape your views as a United States district 
court judge, if confirmed.
    Judge Scola. Thank you for the question, Chairman 
Blumenthal. I have had the opportunity to sit in the criminal, 
the family, and the civil or general jurisdiction divisions 
over the past 16 years, and I also, during my 9.5 years as a 
private attorney, tried a number of cases in Federal court.
    So I have some familiarity personally with the issues that 
are brought up in Federal court, particularly criminal issues. 
And I think there are a lot of parallels to judging, whether 
you're in state court or Federal court. Certainly, some of the 
rules of procedure are different and some of the substantive 
laws are different, but one of the reasons I'm applying is 
because I'm looking forward to the challenge of learning a new 
area of law and relying on the lawyers to educate me and apply 
those new laws.
    But I think a lot of the things I do in state court will 
apply to how I judge in Federal court, if I'm fortunate enough 
to be confirmed by this Committee and the Senate.
    Senator Blumenthal. And I think you have presided over 
about 600 cases that have gone to final judgment, including 
about 33 percent of that number being jury trials; have you 
not? So you have extensive experience in presiding over juries.
    Judge Scola. Yes, sir, particularly in--I'm in the family 
division now, where there are no juries in Florida. Those are 
all non-juried proceedings. But in the criminal division and 
the general jurisdiction division, I was very active trying 
jury trials.
    Senator Blumenthal. I believe that before serving on the 
bench, you were a defense attorney and a prosecutor for various 
periods of time. Is that true?
    Judge Scola. Yes, sir. I started in the state attorney's 
office in 1980 and I was there 6.5 years, and that's when we 
were the murder capital of the country.
    I tried over 25 murder trials as a prosecutor and several 
death penalty cases and then was 9.5 years as a criminal 
defense attorney in state and Federal courts.
    Senator Blumenthal. And I presume that experience also 
would help you as a judge, even though it is on the Federal 
bench rather than in the state courts.
    Judge Scola. I think having been both a prosecutor and a 
defense attorney, seeing the justice system from both sides and 
now being in the middle, hopefully I've been in the middle, for 
the last 16 years, I think all of those together have given me 
a good perspective on what I need to do.
    Senator Blumenthal. And one last question on the role of 
precedent for a district court judge, Federal trial judge, your 
view as to the binding effect, or not, of higher court 
decisions.
    Judge Scola. I think my colleagues from the Commonwealth of 
Pennsylvania have accurately summed up our role as judges 
regarding precedent, and I would definitely follow the 
precedent of the United States Supreme Court and the eleventh 
circuit court of appeals, if I am fortunate enough to be 
confirmed.
    Senator Blumenthal. Thank you very much.
    I am happy to yield to the Ranking Member, Senator 
Grassley.
    Senator Grassley. Congratulations to all of you. I am going 
to do the same thing and ask each of you different questions. I 
am going to start with Bissoon.
    You have promoted diversity in the courts and in the legal 
profession for many years, particularly as director of 
diversity at Reed Smith.
    I have three questions along this line. To what degree 
should the legal profession or the courts mirror the ethnic 
composition of the community?
    Judge Bissoon. Thank you for the question, Senator. As far 
as I'm concerned, I think that it is very useful for the 
community, particularly young people, to see people who look 
like them in the court system.
    I have looked at myself as a role model for young people, 
in particular, to show them that people of color can achieve 
great things.
    Senator Grassley. Then it would be natural to follow-up 
with this question. How much consideration should be given to 
diversity or other concerns of racial or ethnic justice in your 
decisions as a judge?
    Judge Bissoon. I would say absolutely none, sir.
    Senator Grassley. Thank you. And, last, what about 
diversity in the courtroom--and you just spoke to this on the 
first one, but let me ask a little more specific.
    What about diversity in the courtroom, particularly jury 
panels, what are your views on that and how would you approach 
the question, if confirmed?
    Judge Bissoon. I honestly have not really given much 
thought to the issue of diversity in jury panels.
    When I--I mean, I use the term ``diversity'' perhaps a 
little more broadly than some, and so I really look at 
diversity as a broadness of perspectives and backgrounds, and I 
think that our jury system is designed so that it is--it pulls 
from those various sectors geographically and I think that is 
what it is supposed to do.
    Senator Grassley. So your answer, I think, would respond 
more to what the pool is----
    Judge Bissoon. Correct.
    Senator Grassley [continuing]. As opposed to what would 
actually be selected for the courtroom. Is that what you are 
saying?
    Judge Bissoon. I suppose that would be what I was getting 
at, Senator Grassley. I don't think that I have a role in 
seeing that juries are diverse. I think that our system is 
designed so that it achieves that.
    Senator Grassley. Mr. Hornak, while speaking at the 2004 
commencement ceremonies at your alma mater, you spoke at length 
about preserving civil liberties during wartime. You noted, 
``These are indeed times of great challenge, but not times any 
more difficult than the previous generation saw.''
    Do you believe Americans have sacrificed liberty and 
freedom since 9/11 and if so, what is it that has been 
sacrificed?
    Mr. Hornak. I don't--thank you for the question, Senator, 
and the opportunity to address it. I don't believe, as I think 
about it, that there has been a loss by Americans of civil 
liberties or freedoms.
    I think my remarks were aimed that at times of great 
challenge for our Nation, our responsibilities as citizens and 
as leaders in our society is heightened, to make sure that as 
we protect our country and protect our Nation and watch out for 
our security, that we remain true to all of our constitutional 
values.
    And I think our history has taught us, as a Nation and as a 
society, we're capable of doing those things at the same time. 
It just requires a lot of attention and a lot of work.
    Senator Grassley. During wartime and other instances of 
national emergency, do you believe the judiciary owes any extra 
deference to the political branches?
    Mr. Hornak. Senator, thank you for the question. I have not 
given that topic a lot of thought. I do believe that one of the 
cornerstones of the obligations of the judicial branch are to 
have great respect for the role of the executive, for the 
President, in his capacity as commander-in-chief, and respect 
for the role of Congress, as the legislative branch of the 
government.
    And it's often in times of peril and of national challenge 
that those other branches of government take on special 
responsibilities, and I think it's an obligation of the judge 
and the judiciary to have respect for the roles that the other 
branches of government play.
    Senator Grassley. Thank you.
    And, Mr. Mariani, in a newspaper editorial, you argued that 
employees who want to unionize are often intimidated by their 
bosses to vote against forming a union. A card check, you said, 
``would eliminate all of that.''
    It is my understanding that card check bypasses the secret 
ballot elections. I would like to have you explain how card 
check better protects employees from coercion when employees 
within face pressure from both management and unions on how to 
vote.
    I do not ask that question from not having some experience, 
because I was a member of the International Association of 
Machinists from 1961 to 1971, and I have been in this 
environment a little bit.
    Go ahead.
    Mr. Mariani. Thank you for the question, Senator. Actually, 
I think the use of the card check as opposed to the typical 
petition to the National Labor Relations Board for an election 
doesn't really change the atmosphere in which elections are 
conducted.
    I think, for the most part, elections are fairly conducted. 
I think the National Labor Relations Board's role to supervise 
the elections is well carried out.
    Many times, the words have been used that the elections 
should be carried out in laboratory conditions, and, in fact, I 
believe that has been the case over my time as a lawyer.
    Senator Grassley. The doctrine of at-will employment has 
been a longstanding feature of our law. It has been accredited 
for helping promote a culture of entrepreneurism and economic 
growth.
    Yet, you have said that, ``It just does not seem fair,'' 
that at-will contracts should form the dominant employment 
relationship in the United States.
    You have also said that the principles behind at-will 
employment are, ``unfair and egregious.'' To what extent do you 
view employment as a right or an entitlement?
    Mr. Mariani. I do not view employment as a right or 
entitlement. I will also tell the Senator that I recognize in 
my state that the at-will employment rule has become bedrock, 
well established law for many, many years, and it is that, in 
my view, that would govern, to the extent that matter would 
come before me.
    I do not see my personal views on the employment at-will 
rule to have any role in my role as a Federal judge and 
adjudicating controversies where state law may be in issue.
    That is still the law and I'm duty-bound to follow it.
    Senator Grassley. I would like to have you tell me what you 
meant by this statement and whether you stand by it. You have 
also said that union protections are necessary if we are to 
remain, ``a proud democracy.''
    Mr. Mariani. In my view, Senator, if a free society 
recognizes, as it has for so many years since the Wagner Act 
was passed in 1935, the right of employees to collectively 
bargain.
    It has been a right that has been time and time again 
upheld, and I believe that then, when it was passed, as now, it 
serves a salutary role in promoting democracy.
    But, again, for purposes of my role as a Federal judge, the 
mission I have is to follow the law as it is given to me by the 
Supreme Court of the United States and by the Third Circuit 
Court of Appeals.
    Senator Grassley. I only have two other questions, if you 
think I am spending too much time with you.
    In 1984, you successfully argued a precedent-setting case 
that allowed unionized employees to still collect unemployment 
compensation during a strike. Do you still believe that a court 
made the right decision in that case?
    Mr. Mariani. Well, I will tell you that the Pennsylvania 
Supreme Court allowed argument and re-argument on that issue 
before it was decided. I think they struck a very careful 
balance, making sure that the collection of unemployment 
compensation benefits will determine--would be determined, in 
large part, upon which party, union or employer, or 
responsibility for the work stoppage.
    I recall Justice Nix, at that time, of the Pennsylvania 
Supreme Court saying that the rule would enhance the clarity 
and predictability that both sides in a labor dispute require, 
and I believe that case still to be good law.
    Senator Grassley. My last question for you is kind of along 
the lines of these views that you have expressed either today 
or previously and using them as background for this question.
    What evidence can you provide the Committee that should 
labor-management issues come before your court, that you would 
remain neutral and be fair to all parties?
    Mr. Mariani. Thank you for the question, Senator. Thank you 
very much.
    I can assure the Senator that I do not come to the bench 
with any predisposition whatsoever with respect to labor-
management issues.
    I have represented employers in those kinds of matters, as 
well, although the bulk of my work has been with labor. But, 
again, I can tell you that I bring no predisposition whatsoever 
to the bench.
    I have long recognized over the course of my career that 
each case must be decided on its merits and the merits 
sometimes fall one way or the other, and that is the approach I 
will take.
    Senator Grassley. Just one question of you, Mr. Scola, and 
do not feel badly if I only ask you one and the others more.
    You have been a Florida State court judge for many years. 
What is the most difficult decision you have ever had to make 
as a judge?
    Judge Scola. I was called upon on two occasions to consider 
whether or not to impose the death penalty, and they were two 
men who ultimately I determined did deserve the ultimate 
punishment, but--and I did impose the death penalty.
    But I think when you are called upon to make a decision of 
that magnitude, it is a very solemn responsibility and very 
difficult one and--but I did consider it and imposed the 
sentence.
    So I think that was probably the hardest thing I did as a 
judge.
    Senator Grassley. I thank all of you and I congratulate all 
of you.
    Judge Scola. Thank you.
    Mr. Hornak. Thank you.
    Mr. Mariani. Thank you very much, Senator.
    Senator Blumenthal. Thank you all for your candid and 
forthcoming responses and for your willingness to undertake 
this very important responsibility.
    I am going to adjourn the hearing. The record will remain 
open for 1 week in case any Senators have follow-up questions 
for the nominees. And thank the visitors for attending, as 
well.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 3:44 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T6350.539

[GRAPHIC] [TIFF OMITTED] T6350.540

[GRAPHIC] [TIFF OMITTED] T6350.541

[GRAPHIC] [TIFF OMITTED] T6350.542

[GRAPHIC] [TIFF OMITTED] T6350.543

[GRAPHIC] [TIFF OMITTED] T6350.544

[GRAPHIC] [TIFF OMITTED] T6350.545

[GRAPHIC] [TIFF OMITTED] T6350.546

[GRAPHIC] [TIFF OMITTED] T6350.547

[GRAPHIC] [TIFF OMITTED] T6350.548

[GRAPHIC] [TIFF OMITTED] T6350.549

[GRAPHIC] [TIFF OMITTED] T6350.550

[GRAPHIC] [TIFF OMITTED] T6350.551

[GRAPHIC] [TIFF OMITTED] T6350.552

[GRAPHIC] [TIFF OMITTED] T6350.553

[GRAPHIC] [TIFF OMITTED] T6350.554

[GRAPHIC] [TIFF OMITTED] T6350.555

[GRAPHIC] [TIFF OMITTED] T6350.556

[GRAPHIC] [TIFF OMITTED] T6350.557

[GRAPHIC] [TIFF OMITTED] T6350.558

[GRAPHIC] [TIFF OMITTED] T6350.559

[GRAPHIC] [TIFF OMITTED] T6350.560

[GRAPHIC] [TIFF OMITTED] T6350.561

[GRAPHIC] [TIFF OMITTED] T6350.562

[GRAPHIC] [TIFF OMITTED] T6350.563

[GRAPHIC] [TIFF OMITTED] T6350.564

[GRAPHIC] [TIFF OMITTED] T6350.565

[GRAPHIC] [TIFF OMITTED] T6350.566

[GRAPHIC] [TIFF OMITTED] T6350.567

[GRAPHIC] [TIFF OMITTED] T6350.568

[GRAPHIC] [TIFF OMITTED] T6350.569

[GRAPHIC] [TIFF OMITTED] T6350.570

[GRAPHIC] [TIFF OMITTED] T6350.571

[GRAPHIC] [TIFF OMITTED] T6350.572

[GRAPHIC] [TIFF OMITTED] T6350.573

[GRAPHIC] [TIFF OMITTED] T6350.574

[GRAPHIC] [TIFF OMITTED] T6350.575

[GRAPHIC] [TIFF OMITTED] T6350.576

[GRAPHIC] [TIFF OMITTED] T6350.577

[GRAPHIC] [TIFF OMITTED] T6350.578

[GRAPHIC] [TIFF OMITTED] T6350.579

[GRAPHIC] [TIFF OMITTED] T6350.580

[GRAPHIC] [TIFF OMITTED] T6350.581

[GRAPHIC] [TIFF OMITTED] T6350.582

[GRAPHIC] [TIFF OMITTED] T6350.583

[GRAPHIC] [TIFF OMITTED] T6350.584

[GRAPHIC] [TIFF OMITTED] T6350.585

[GRAPHIC] [TIFF OMITTED] T6350.586

[GRAPHIC] [TIFF OMITTED] T6350.587

[GRAPHIC] [TIFF OMITTED] T6350.588



 NOMINATION OF MORGAN CHRISTEN, OF ALASKA, NOMINEE TO BE CIRCUIT JUDGE 
  FOR THE NINTH CIRCUIT; SCOTT W. SKAVDAHL, OF WYOMING, NOMINEE TO BE 
   DISTRICT JUDGE FOR THE DISTRICT OF WYOMING; SHARON L. GLEASON, OF 
ALASKA, NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF ALASKA; YVONNE 
 GONZALEZ ROGERS, OF CALIFORNIA, NOMINEE TO BE DISTRICT JUDGE FOR THE 
 NORTHERN DISTRICT OF CALIFORNIA; AND RICHARD G. ANDREWS, OF DELAWARE, 
       NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF DELAWARE

                              ----------                              


                        WEDNESDAY, JULY 13, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Christopher 
A. Coons, presiding.
    Present: Senators Coons, Feinstein, Franken, Grassley, and 
Hatch.
    Senator Coons. Good afternoon, everyone. I am pleased to 
call to order this nominations hearing of the Senate Committee 
on the Judiciary. I would like to welcome each of the nominees, 
their families, friends, and supporters to the U.S. Senate and 
congratulate them on their nominations. I would also like to 
welcome those of my colleagues who are here to introduce 
several of the nominees today.
    Due to the large number of home State Senators here to give 
introductions, I will hold off on my opening statement until 
the introductions are complete. Today we will hear 
introductions by each nominee's home State Senators from each 
delegation in order of their seniority. I know that my 
colleagues' schedules are quite demanding, so please do feel 
free to leave if you so choose after you have concluded your 
introductions.
    Following opening statements and introductions, each of the 
nominees will be permitted to give an opening statement, and I 
encourage them to also recognize their loved ones and 
supporters when their respective panels are called.
    We will begin, therefore, with Hon. Yvonne Rogers, who is 
nominated to be a district judge for the Northern District of 
California, and I will invite Senator Feinstein to proceed.

PRESENTATION OF YVONNE GONZALEZ ROGERS, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE NORTHERN DISTRICT OF CALIFORNIA, BY HON. DIANNE 
     FEINSTEIN, A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. It is 
a great pleasure for me to introduce and express my support for 
Judge Yvonne Gonzalez Rogers whom the President nominated to be 
a United States District Judge for the Northern District of 
California. She is a well-regarded judge with a proven record 
of success and dedication in Northern California. Her 
nomination is also historic. She will be the first Latina 
district judge for the Northern District of California.
    Judge Gonzalez Rogers has been screened and recommended to 
me by a bipartisan screening selection Committee that I have 
used these past 18 years. This Committee reviews candidates for 
their legal acumen, professionalism, breadth of personal 
experience, judicial temperament, and overall commitment to 
excellence in the field of law. And so Judge Gonzalez Rogers 
stood out because of her impressive record, her life of 
service, and her dedication to her community. She also has 
Senator Boxer's strong support as well.
    Judge Gonzalez Rogers represents an American success story. 
Her parents were each the eldest of nine siblings and grew up 
in South Texas, and Spanish was their first language. Her 
father served in the United States Army and went to college 
with assistance from the GI bill. Of her parents, her 16 aunts 
and uncles, and their children, Judge Gonzalez Rogers is one of 
only three family members to attend college.
    Her path in life has been extraordinary, rising from modest 
beginnings to graduating from one of the best universities in 
the country--Princeton. During school breaks and weekends, she 
worked cleaning houses and cutting grass to help pay her 
tuition. She took pride in the callused hands she got doing 
that work.
    She excelled at Princeton, graduating cum laude. She then 
went on to attend two of the best public law schools in the 
country: the University of Texas at Austin and the University 
of California at Berkeley. She began the practice of law at the 
prestigious San Francisco firm Cooley LLP, where she had a 
distinguished career in private practice and continued to break 
down barriers. When she began practicing, no Latina woman had 
been elected into the partnership ranks of any major San 
Francisco law firm. She worked her way up the ranks, starting 
as a young associate in complex litigation in 1991. In her own 
words, she worked hard to break that mold by becoming an 
excellent attorney worthy of invitation to the partnership.
    Over years of litigating complex cases, she did just that. 
By all accounts, she was intelligent, balanced, reasonable, and 
represented her clients extremely well. She built a sterling 
reputation as an attorney and was elected to Cooley's 
partnership in 1998.
    In 2003, she took time away from the practice of law to 
devote time to her children, who I believe are here today. 
Judge Gonzalez Rogers and her husband, Matt, have three young 
children--Christopher, 16; Maria, 12; and Joshua, 10--and they 
are very excited not only to support their mother's nomination, 
but also to tour the Capitol tomorrow.
    So even while away from the practice of law, Judge Gonzalez 
Rogers has remained passionately dedicated to her community. 
For example, she served as the foreperson of the Alameda County 
civil grand jury. Now, in Alameda, the civil grand jury is an 
active, investigative division of the county court system that 
holds the county government accountable. As foreperson, Judge 
Gonzalez Rogers oversaw all of the grand jury's investigations, 
including major reviews of the county hospital system and the 
county office of education. In addition, she served as a pro 
tem judge on the superior court, sitting in for absent judges 
and providing mediation assistance in civil cases, often 
managing over 100 cases a day.
    She also worked hard as a strong advocate for Piedmont 
Public Schools. As the co-chair of Citizens for Piedmont 
Schools, Judge Gonzalez Rogers helped lead a campaign to pass 
funding measures for the local public schools. The campaign was 
successful, passing those measures with over 80 percent of the 
votes each. That is pretty rare in California.
    She also committed herself to being directly involved in 
her children's schools, serving on the PTA of Piedmont Middle 
School as president of the Wildwood Elementary School Parent 
Board. As a former mayor, I know how valuable it is for members 
of the community to contribute to making your community a 
better place, and I would like to applaud Judge Gonzalez 
Rogers' extraordinary record of service.
    In 2008, the California Governor, Arnold Schwarzenegger, 
appointed her to be a judge of the Alameda County Superior 
Court. The president of the State bar praised her nomination, 
saying, ``There are certain skills they look for in a judge: be 
well prepared, a good listener, have good judgment, and be 
decisive.'' She demonstrates all of those skills.
    So by all accounts that I can find, she has been an 
outstanding superior court judge, handling substantial criminal 
and civil caseloads. And during the past few years, she has 
presided over a criminal calendar, conducted over 30 jury 
trials, and hundreds of hearings on all kinds of civil cases. 
She oversees a civil docket now of more than 500 civil cases. 
So she has a great record. She has the breadth of experience in 
private practice. She has been on the bench, and she has served 
in public service, and she is prepared to hit the ground 
running as a Federal judge.
    So I hope that you will agree with me, Mr. Chairman. I 
believe she will be a fine addition to the Federal bench, and I 
urge my colleagues to support her nomination.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you very much, Senator Feinstein.
    Next we welcome Hon. Scott Skavdahl. Judge Skavdahl 
currently sits as a magistrate judge of the District of 
Wyoming, and he is nominated to serve as a district judge on 
that same court, and both of his home State Senators are here 
to offer introductions and encouragement, and I invite Senator 
Enzi to proceed.

PRESENTATION OF SCOTT W. SKAVDAHL, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE DISTRICT OF WYOMING, BY HON. MICHAEL B. ENZI, A U.S. 
               SENATOR FROM THE STATE OF WYOMING

    Senator Enzi. Thank you, Mr. Chairman. I am pleased to have 
the opportunity to introduce Judge Scott Skavdahl, who has been 
nominated by the President to serve as a judge for the United 
States District Court for the District of Wyoming. His 
nomination was submitted by our Governor Freudenthal, who is a 
Democrat, and is supported by both Senators, as is demonstrated 
by the two of us being here to introduce him. I want to thank 
the Chairman and Senator Grassley and all the staffs for 
scheduling this hearing and Senator Coons for chairing this 
hearing and getting it done so promptly.
    While Judge Skavdahl grew up in Harrison, Nebraska, he has 
established deep roots in Wyoming. He first moved west to our 
great State to play football for the University of Wyoming, 
where he received his undergraduate degree and law degree. He 
walked onto the team and played Division I football after 
graduating from a high school of less than 50 students. While 
others might have been discouraged or intimidated, Scott 
committed and played for the Cowboys for 4 years.
    Judge Skavdahl has been described as an incredibly smart 
and hard-working attorney and judge. Between his time in 
private practice and his service on the judicial bench, he 
knows the issues that face the people of Wyoming. I have heard 
nothing but good things about his approach to the law and his 
demeanor as a judge. The judge has lengthy experience already 
as a judge, making him uniquely qualified for this position. He 
is currently a full-time magistrate judge for the District of 
Wyoming and served as a judge on the Seventh Judicial District 
Court in Casper, Wyoming, from 2003 to 2011. The judge has also 
served as a part-time United States magistrate judge from 2001 
to 2003.
    From 1994 to 1997, he served as a judicial law clerk to 
Chief Judge William F. Downes of the United States District 
Court for the District of Wyoming. He is now poised to fill 
Judge Downes' seat. Through his experience, Judge Skavdahl 
already knows the administrative ins and outs of the District 
of Wyoming.
    I also want to mention how important this judgeship is to 
Wyoming. While Senators disagree at times about specific 
nominees, we can all agree that without judges in place, our 
legal system slows down and does a disservice to the people we 
represent. Judge Downes announced his retirement nearly a year 
ago with the hopes that his seat would not remain vacant and 
that the nomination process would run efficiently. I am pleased 
the Senate Judiciary Committee is moving quickly and thoroughly 
on this nomination, and I appreciate the Committee's time and 
look forward to your approval of the nomination of this judge.
    Senator Coons. Thank you, Senator Enzi.
    Senator Barrasso.

PRESENTATION OF SCOTT W. SKAVDAHL, NOMINEE TO BE DISTRICT JUDGE 
  FOR THE DISTRICT OF WYOMING, BY HON. JOHN BARRASSO, A U.S. 
               SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. Thanks 
for allowing me the opportunity to join my colleague Senator 
Enzi in supporting Scott Skavdahl's nomination to be the United 
States District Judge for the District of Wyoming. As Senator 
Enzi has said, Scott came to Wyoming, played football for 4 
years at the university, and I can personally attest to his 
orthopedic injuries.
    [Laughter.]
    Senator Barrasso. He graduated from the University of 
Wyoming College of Law, and in the 19 years since his 
graduation, he had distinguished himself both as an attorney 
and as a trial judge. He worked in private practice. He clerked 
for U.S. District Judge Bill Downes and then was appointed by 
former Governor Dave Freudenthal to serve as a district court 
judge for Wyoming's Seventh Judicial District.
    In Wyoming, district court judges are required to stand for 
retention every 6 years. Judge Skavdahl was up for retention in 
2010. Prior to the November election, members of the Wyoming 
State Bar were surveyed on their views of sitting judges, and 
the results of the survey are very telling about Judge 
Skavdahl. He exceeded the average score of all judges in every 
single category. He was recognized by members of the bar for 
his integrity and his ethics to carry out his duties, for his 
reasoned decisions, for the manner in which he conducts himself 
in the courtroom, for being prepared, and for his knowledge of 
the law. Ninety-six percent of the attorneys surveyed supported 
the retention of Judge Skavdahl. In November, the voters agreed 
with the findings of the Wyoming Judicial Advisory Panel by 
overwhelmingly retaining Judge Skavdahl.
    So, Mr. Chairman, you have before you an outstanding 
individual in Scott Skavdahl. He is an excellent choice to fill 
the seat of retiring Federal Judge William Downes. Judge 
Skavdahl is joined here today by his wife, Cidne; their 
daughter, Caitlyn; and his father, John.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Barrasso, and thank you 
to both Senators from Wyoming.
    I am proceeding now in order of seniority. I would like to 
invite Senator Carper to introduce our nominee from the State 
of Delaware, Rich Andrews.

  PRESENTATION OF RICHARD G. ANDREWS, NOMINEE TO BE DISTRICT 
JUDGE FOR THE DISTRICT OF DELAWARE, BY HON. THOMAS R. CARPER, A 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. This reminds me of 
the last time, about a year or so ago, we had a hearing for 
another fellow who was nominated to be a district court judge 
in Delaware, and the person presiding that day was your 
immediate predecessor, Ted Kaufman, and I had the privilege of 
introducing our nominee. You may recall that in the audience 
that day was the legendary University of Delaware professor Jim 
Soles who has recently passed away. So we had not only the 
nominee here, but both Senators, one presiding and one 
introducing, and the mentor, if you will, lifelong mentor for 
the nominee in the audience. That was a very special day. This 
is a special day, too, and I am pleased to present to this 
Committee our nominee for the district court vacancy.
    Before I start, I just want to say to the other nominees 
that are here in the room, whether they might be from Alaska, 
whether they might be from Wyoming, but interestingly enough, 
these are three at-large States where we have more Senators--we 
all have more Senators than we have Representatives, and then 
also our nominee from California. Just a special thanks to our 
nominees for your willingness to serve and to your families for 
your willingness to share your husband or your wife or your mom 
or your dad with the people of this country.
    Last year, I was pleased to provide the President with the 
names of three superbly qualified Delawareans for him to 
consider for the open seat in the U.S. District Court in 
Delaware. I believe any one of them would have made excellent 
additions to the court, and all of them uphold the high regard 
in which this court is held. As the Chairman knows, we have 
four judgeships on that court, and we have had--for some period 
of time, we actually had only two people serving. Now we are 
back up to three, and hopefully we will soon be at four.
    The President has made, I believe, a strong choice in 
nominating Richard G. Andrews for this judicial appointment. 
Again, I believe our Nation is fortunate and our State if 
fortunate having someone with his outstanding credentials who 
stepped forward to do this important work.
    Mr. Andrews' education, his background, and his legal 
experience make him superbly qualified for this position. I kid 
him. He was unable to get into Ohio State as an undergraduate, 
but he did get into Haverford, which is not a bad school, right 
across the line from us in Delaware. He graduated at a Bachelor 
of Arts in political science. Then he earned his law degree at 
the University of California in Berkeley where he served as 
note and comment editor for the California Law Review. I asked 
him, I said, ``Is that some kind of gossip column, the note and 
comment editor for the California Law Review? '' He insists it 
was a legitimate position and a real job and one that was 
sought after. I am sure it was.
    But after law school, Rich Andrews launched his career as a 
clerk for the legendary Collins J. Seitz, who was the chief 
judge of the Third Circuit Court of Appeals, a revered name in 
our State, as our Chairman knows.
    Following his clerkship, for 23 years Rich Andrews served 
as a prosecutor in the U.S. Attorney's Office in Wilmington, 
Delaware, serving in a number of high-profile positions and 
eventually rising to the position of Assistant U.S. Attorney. 
As Senator Coons knows, in addition, on three separate 
occasions Rich Andrews stepped up to serve as Acting U.S. 
Attorney when the incumbent had resigned. I like to kid him and 
say he has probably served more time as the Interim U.S. 
Attorney than some people have served as U.S. Attorney. So he 
got just really a wealth of experience there.
    During his time with the U.S. Attorney's Office, Rich 
prepared and prosecuted countless Federal cases--and I think he 
told me how many, but it is a huge number--and in so doing 
gained wide-ranging trial experience that he will draw upon 
heavily while serving as a district court judge, if confirmed.
    Currently Rich Andrews serves as a State prosecutor for the 
Delaware Department of Justice where he manages the criminal 
division, oversees more than 70 deputy attorneys general, makes 
critical decisions about how to proceed in high-level criminal 
cases. He is also the supervisor there for State Attorney 
General Beau Biden. I said that with a smile. But he is a 
senior guy on the Attorney General's team.
    In his free time Rich Andrews has coached for the Concord 
Soccer Association of Delaware for more than a decade, and I 
understand that Rich has also spent the last 4 years grading 
answers for the Delaware Bar exam. I say, for you no purgatory, 
straight to heaven, Rich.
    [Laughter.]
    Senator Carper. Finally, in addition to his professional 
experience, Rich is a family man and a person of great 
character. He is joined today by his wife, Cathy Lanctot. Cathy 
is sitting right behind him over there, and Cathy is in the 
green. And Cathy is--I said, ``What kind of name is that, 
Lanctot? You do not see that name every day.'' And she says it 
is French Canadian, so bienvenue. Cathy is associate dean and 
professor of law at the Villanova University. And when he 
testifies here today at this table, if you watch carefully, you 
can see her lips move. In the case of my family, my wife is far 
brighter than me, and he married up as well.
    Their son, Peter, will be a rising sophomore at Columbia 
University. Their daughter, Amy, will be a senior, and she is 
also the student council president at Mount Pleasant High 
School, a place that our Chairman knows well, and a place where 
I literally run every Sunday morning. It is one of the places I 
run when I go out for a run early Sunday mornings. So I feel 
like I am a Green Knight along with her, but she is not just 
any student there. She is the leader of the student body, 
elected by her peers.
    In every facet of his life, Rich Andrews has performed with 
distinction, and let me just conclude by saying that I am proud 
to have the privilege of introducing someone who has provided 
and who will continue to provide exemplary service for the 
people of our State and Nation. His sound legal judgment, his 
tireless work ethic, and his experience as a Federal prosecutor 
have prepared Rich Andrews well to fill this seat on the U.S. 
District Court in Delaware, and I urge our colleagues on this 
Committee and in the Senate as a whole to move quickly on his 
confirmation.
    I thank you for this opportunity to introduce him today, 
Mr. Chairman and colleagues.
    Senator Coons. Thank you, Senator Carper.
    If I might, I will briefly add to your comments of 
introduction of the nominee.
    Senator Carper. You may want to correct parts of it.
    Senator Coons. I may be tempted, but the record I think 
will stand for itself, particularly with regard to the location 
of your Sunday morning running habits.
    Rich Andrews is, as you have heard at length from Senator 
Carper, a distinguished public servant in Delaware who has 
served us 30 years, and in his current role as State 
prosecutor, someone who has led both policy formation and 
supervised literally tens of thousands of prosecutions in 
Delaware's State court system. He has tried 50 felony jury 
cases and argued 17 cases before the Third Circuit Court of 
Appeals. He has in my view all the qualities that will make an 
outstanding district judge in any court, but his familiarity in 
particular with Delaware, its legal community, its long 
tradition of decency and civility makes him in my view an ideal 
candidate for the District Court of Delaware.
    I simply will close by saying that Rich in my view has 
established himself as a talented, dedicated, and humble public 
servant who possesses a strong work ethic and the highest 
integrity and intellect, and we are grateful he will have the 
opportunity, God willing and the Senate acting, to continue to 
serve the people of our great State as a district court judge, 
and I join Senator Carper in welcoming Cathy, Peter, and Amy as 
well.
    Thank you, Senator Carper, for introducing Rich Andrews to 
our panel today.
    Finally, we welcome Hon. Morgan Christen and Hon. Sharon 
Gleason. Judge Christen is nominated to be a circuit judge for 
the Ninth Circuit Court of Appeals, and Judge Gleason is 
nominated to be a district judge for the District of Alaska. 
Judge Christen and Judge Gleason will be introduced today by 
their home State Senators, Senator Murkowski and Senator 
Begich.
    Senator Murkowski, please proceed.

 PRESENTATION OF MORGAN CHRISTEN, NOMINEE TO BE CIRCUIT JUDGE 
  FOR THE NINTH CIRCUIT, AND SHARON L. GLEASON, NOMINEE TO BE 
    DISTRICT JUDGE FOR THE DISTRICT OF ALASKA, BY HON. LISA 
       MURKOWSKI, A U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. It is not very 
often that I get to come to the Judiciary Committee to 
introduce Alaskans to you, so today is a special treat. As 
Senator Carper said, it is a special day for Delaware as he 
made the introduction. It is not only special for Alaskans. 
Today is a historic day for us in Alaska.
    We are a very young State. We are just a little over 50 
years old as a State, and since Alaska was admitted as a State, 
only two Alaskans have served on the Ninth Circuit: Robert 
Boochever, who was appointed by President Carter back in 1980; 
and then Andrew Kleinfeld, appointed by President Bush in 1991. 
Both of these individuals are currently on senior status.
    The President has nominated Justice Christen to succeed 
Judge Kleinfeld on the Ninth Circuit. Further, only ten 
individuals have served on the U.S. District Court for Alaska. 
None of those individuals on either court have been women. So 
while it is historic whenever a vacancy arises on either court, 
today's hearing is especially historic because, if confirmed, 
Morgan Christen and Sharon Gleason will be the first two Alaska 
women to serve on the Federal bench.
    As a member of the Alaska Bar and as the senior Senator 
from Alaska, let me say that the President could not have 
nominated two more qualified individuals to fill these seats. 
And in saying that, I speak not only for myself but for also a 
broad segment of those who are involved in the justice system 
in Alaska. Both Justice Christen and Judge Gleason are products 
of the Alaska court system and won their positions through a 
merit selection process. That merit selection process was 
created by the Alaska Constitution. It was intended really to 
keep politics out of the judicial selection process. And we are 
very proud of that system.
    Before an individual may serve on an Alaska court, he or 
she is broadly vetted by the Alaska Judicial Council, which is 
a nonpartisan and independent body consisting of citizen and 
attorney members. Every candidate is formally evaluated on 
issues like integrity, professional competence, fairness, 
judicial temperament, and suitability of experience. I think if 
you were to ask any Alaskan attorney about the rigor of this 
process, I think you would get pretty much the same answer. The 
grading is tough, and for those who are not up to the 
challenge, they are told no in no uncertain terms. But both 
Justice Christen and Judge Gleason have survived this selection 
process, and I think survived it most admirably.
    I should point out that Justice Christen has survived this 
process now twice. Once before, she was appointed to the 
superior court by Democratic Governor Tony Knowles and again 
before, she was appointed to the Alaska Supreme Court by 
Republican Governor Sarah Palin. Now, if that does not speak 
itself to Justice Christen's exceptional integrity and 
competence for a judicial role, I would also point out to you 
that Justice Christen received the highest score of all 
candidates for the Supreme Court seat within that vetting 
process.
    Under Alaska's system, State judges must stand for periodic 
retention elections. Prior to those elections, they are vetted 
once again by the Judicial Council through polls of peace and 
probation officers, jurors, social workers, fellow judges, and 
practicing attorneys. This information then provides the 
Judicial Council with an evidentiary basis to make a 
recommendation to the public on whether or not the judge should 
be retained.
    I would note that Justice Christen and Judge Gleason have 
both participated in this very rigorous retention process, and 
each has been returned to the bench by the voters with an 
affirmative recommendation of the Judicial Council.
    I have known Justice Christen for almost 25 years now. We 
graduated from law school just about the same time. We both 
clerked for the Alaska State court system at just about the 
same time. We have kept in touch over the years, and I have 
come to know her husband, Jim, and her family. I have 
appreciated that Justice Christen has been mindful of the 
separation of powers throughout her judicial career and mindful 
of the fact that her personal views have no bearing when it is 
time to determine what the rule of law is. And I know that we 
can expect her to continue in that vein when she moves to the 
Federal bench.
    Judge Gleason was appointed to the Anchorage Superior Court 
by Governor Knowles back in 2001. She was last evaluated for 
retention by the Alaska Judicial Council in 2010. Her rating by 
each of the stakeholder groups polled as part of the Alaska 
Judicial Council's retention process was, again, among the 
highest of all the superior court judges in the State.
    In 2009, when Morgan Christen was elevated to the Alaska 
Supreme Court, Judge Gleason was appointed to become the 
presiding judge of the Third Judicial District. That position 
is responsible for overseeing nearly 70 percent of the caseload 
of the entire State trial courts and includes 40 judges and 20 
magistrates. Like Justice Christen, Judge Gleason is 
exceptionally well qualified to serve, and I strongly support 
her nomination.
    I appreciate the opportunity again to speak to the 
Committee on behalf of two exceptional--exceptional--judges 
from the State of Alaska and would encourage confirmation 
through the process. Thank you.
    Senator Coons. Thank you very much, Senator Murkowski.
    Senator Begich.

 PRESENTATION OF MORGAN CHRISTEN, NOMINEE TO BE CIRCUIT JUDGE 
  FOR THE NINTH CIRCUIT, AND SHARON L. GLEASON, NOMINEE TO BE 
DISTRICT JUDGE FOR THE DISTRICT OF ALASKA, BY HON. MARK BEGICH, 
            A U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Begich. Thank you very much, Chairman Coons, 
Committee members. Thank you for the opportunity to join 
Senator Murkowski in introducing two of Alaska's finest judges 
who have been nominated for Federal appointments. I know both 
of these candidates quite well, have worked with them for 
years, and recommended both to President Obama for the 
positions he has nominated them for.
    Let me start with Judge Christen. Morgan and I have known 
each other for more than a decade. I worked with her in her 
capacity as a judge and as a member of nonprofit boards. When I 
was elected mayor of Anchorage in 2003, she was the presiding 
judge for Alaska's Third Judicial District. It is there we 
worked especially closely together on a task force that I 
created to address gangs in south-central Alaska, our State's 
largest population center.
    We also worked together to better coordinate the technology 
used by the municipality of Anchorage, the Anchorage Police 
Department, and the State of Alaska court system. From that 
work I can say without reservation that Judge Christen is a 
person of great integrity, ability, and compassion. She has 
built an excellent reputation in Alaska's legal circles for 
fairness, thoroughness, and sound professional judgment.
    Alaska's judicial system is set up to be nonpartisan, and 
Morgan certainly is. Her fellow lawyers have given her the 
highest marks over the years, and she has the support of the 
Alaska public through her retention elections. To her credit, 
she is deeply committed to public service. As a lifelong 
Alaskan, I also appreciate that Judge Christen has traveled 
extensively in our State and knows its diversity. I am 
confident that Morgan will be an excellent judge on the Ninth 
Circuit Court of Appeals.
    The Alaskan nominated for our State's U.S. district court, 
who will be on your second panel, is Judge Sharon Gleason. Like 
with Morgan, I know Sharon well. She was appointed to the 
Anchorage Superior Court by Governor Tony Knowles, who was my 
boss when he served as mayor of Anchorage. On the court Judge 
Gleason has presided over a large variety of cases, including 
complex civil litigation, divorce and custody proceedings, 
child-in-need-of-aid proceedings, and criminal cases.
    After Judge Christen was nominated to the Alaska Supreme 
Court, Judge Gleason was appointed to become the presiding 
judge of the Third Judicial District. That position is 
responsible for overseeing nearly 70 percent of the caseload of 
the entire State trial courts. It includes 40 judges and 20 
magistrates. Her record as a judge has been excellent. She is 
widely praised for her temperament, her fairness on the bench, 
and especially her pioneering work on behalf of families and 
children. For that work she was awarded the prestigious Light 
of Hope Award.
    Sharon is active in her community and served on numerous 
legal committees. I think the way she relaxes is with her 
clarinet, and she has been playing in the Anchorage Symphony 
Orchestra for more than 25 years.
    Mr. Chairman and Committee members, my only regret--and I 
know Senator Murkowski's regret, too--with recommending these 
two outstanding Alaskans is that Alaska's State courts will 
lose two of their finest when these two outstanding judges move 
to the Federal bench. But our Federal judiciary and our country 
will be much better off.
    Thank you again for this opportunity to introduce two fine 
Alaskan judges.
    Senator Coons. Thank you very much, Senators Murkowski and 
Begich. From your description it sounds as if Alaska has a 
remarkably thorough, nonpartisan, and effective means of 
selecting qualified and talented judges. As someone who had the 
honor of clerking for Judge Jane Roth on the Third Circuit, who 
also just happened to be the first woman on the Federal bench 
in Delaware and an incredible, outstanding judicial contributor 
to Delaware's legal culture for a generation, I am grateful to 
hear your introductions of the two outstanding nominees from 
Alaska. Thank you very much for joining us today.
    I will now move, if I can, to a brief opening statement to 
be followed by Senator Hatch, and then we will proceed to our 
first panel, if we might.

STATEMENT OF HON. CHRISTOPHER A. COONS, A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Coons. I am pleased to be here once again. I am 
pleased to be joined by Senator Hatch at our nominations 
hearing. I am especially pleased our Committee has Richard 
Andrews before us today, nominated to sit on the Federal trial 
court in my home State of Delaware, and I thank both Chairman 
Leahy and Senator Grassley for their cooperation in allowing 
this Committee to hear Rich Andrews' nomination today.
    Nomination hearings are important. The positions to which 
all of our nominees today are seeking confirmation carry with 
them lifetime tenure. It is in my view important the Senate 
takes seriously its role to examine the qualifications, work 
ethic, and intelligence of our nominees. We serve as the final 
gatekeeper, and it is our role to ensure the Federal judiciary 
is staffed with capable, honest, and hard-working judges.
    Another qualification we must examine in nominees is their 
temperament, for not every great attorney is appropriate to be 
a great judge. Great judging requires modesty and respect for 
the role that judges play in our system as arbiters of facts 
and the law rather than makers of policy. Judging also requires 
a certain degree of selflessness. Each of these candidates 
could no doubt make a much better living in another line of 
work, yet they choose to forgo a larger paycheck for their 
families in order to serve the broader public interest. 
Finally, in my view being a great judge requires some balance 
of empathy and evenhandedness--empathy to understand the 
situations and motivations of litigants who come before them, 
and evenhandedness to apply the law fairly and independently, 
regardless of any personal concerns of the outcome.
    Just as serious as our obligations to scrutinize the 
nominations closely, however, is our obligation to consider the 
President's nominees expeditiously. It goes without saying 
judges are essential to our judiciary. Just as they seek a non-
political office, we in this body ought not in my view play 
politics, to the extent possible, with nominations. There are 
15 judicial nominees sitting on the executive calendar who were 
reported out of this Committee without dissent. Some have been 
awaiting action for 3 months, an unfortunate and difficult 
period of time. Candidates should be scrutinized and, when the 
conscience of a member demands it, even opposed. But where 
candidates have been scrutinized and no objection raised, I 
believe we owe it to them and the American people to act 
swiftly.
    Because of the failure to reach some consensus on their 
consideration, litigants throughout this country, from Maine to 
New York, Missouri to Colorado, are receiving today slower and 
less justice in my view than they deserve. So the nominees 
before us today, it is my hope you will find this process fair 
and substantive. I can promise personally that I will consider 
your nominations on their merits and hope you will receive 
similarly fair and open treatment from all of my colleagues.
    Senator Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. I am pleased 
to support the Ranking Member, Senator Grassley, to participate 
with you in today's hearing.
    I note that the current total of 90 judicial vacancies 
across the country is 10 percent below what it was at this time 
last year.
    Now, this is the tenth judicial confirmation hearing so far 
this year, and these hearings have included a total of 42 
judicial nominees--the busiest schedule during the comparable 
period under the last several Presidents, by the way.
    The 24 district court nominees confirmed so far this year 
is the highest total during the comparable period under any 
President in American history.
    I mention these facts only to say that while there are some 
real substantive differences about a handful of controversial 
nominees, I think we are making solid confirmation progress. I 
know that the Ranking Member and all Senators on our side are 
committed to making progress.
    Mr. Chairman, we have before us today several nominees to 
the Federal district and appellate courts. I see they include a 
nominee to the U.S. district court in your State of Delaware 
with nearly a quarter century of experience as a Federal 
prosecutor.
    I just want to welcome all of you nominees as well as your 
families and friends to the Judiciary Committee. I look forward 
to hearing from you, and we will proceed from that.
    Thanks, Mr. Chairman.
    Senator Coons. Thank you, Senator Hatch, and I agree with 
you that we are blessed to have a working partnership that is 
allowing us to continue to move forward with nominees. I just 
hope we will continue to sustain the current pace.
    Now I would like to ask Justice Christen to step forward 
and remain standing. Please, if you would, raise your right 
hand and repeat after me. Do you solemnly swear that the 
testimony you are about to give to this Committee will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Justice Christen. I do.
    Senator Coons. Please be seated. Thank you. Let the record 
show the nominee has taken the oath.
    Now, Justice Christen, I would welcome you to acknowledge 
any family members or friends you may have with you here today 
and give an opening statement to the Committee. Thank you.

 STATEMENT OF MORGAN CHRISTEN, NOMINEE TO BE CIRCUIT JUDGE FOR 
                       THE NINTH CIRCUIT

    Justice Christen. Thank you, Senator. I am going to take 
you up on your offer to introduce my family, but that requires 
a list so that I do not forget any of them, or I would be in 
big trouble.
    My husband, Jim Torgerson, is here, and my daughter, Erin 
Torgerson, and June Smith; and that is my Alaskan family.
    My sister, Betty Thompson, and niece, Christen, and nephew, 
Max, are here from North Carolina.
    Pat Christen, my sister, and Rene Durazzo, my brother-in-
law, are here from the San Francisco Bay Area, with two more 
nieces--Morgan and Madison. And our two brothers are not here, 
Michael and Bob, but they will be watching.
    Our parents will be watching from Washington State, and I 
have in-laws and a lot of extended family watching from 
northern Minnesota.
    Thank you, Senator. I do not have an opening statement, 
Senator. I know you all are very busy. I just want to thank you 
very much for this hearing, and, of course, I would like to 
thank the President for nominating me.
    [The biographical information of Justice Christen follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.589
    
    [GRAPHIC] [TIFF OMITTED] T6350.590
    
    [GRAPHIC] [TIFF OMITTED] T6350.591
    
    [GRAPHIC] [TIFF OMITTED] T6350.592
    
    [GRAPHIC] [TIFF OMITTED] T6350.593
    
    [GRAPHIC] [TIFF OMITTED] T6350.594
    
    [GRAPHIC] [TIFF OMITTED] T6350.595
    
    [GRAPHIC] [TIFF OMITTED] T6350.596
    
    [GRAPHIC] [TIFF OMITTED] T6350.597
    
    [GRAPHIC] [TIFF OMITTED] T6350.598
    
    [GRAPHIC] [TIFF OMITTED] T6350.599
    
    [GRAPHIC] [TIFF OMITTED] T6350.600
    
    [GRAPHIC] [TIFF OMITTED] T6350.601
    
    [GRAPHIC] [TIFF OMITTED] T6350.602
    
    [GRAPHIC] [TIFF OMITTED] T6350.603
    
    [GRAPHIC] [TIFF OMITTED] T6350.604
    
    [GRAPHIC] [TIFF OMITTED] T6350.605
    
    [GRAPHIC] [TIFF OMITTED] T6350.606
    
    [GRAPHIC] [TIFF OMITTED] T6350.607
    
    [GRAPHIC] [TIFF OMITTED] T6350.608
    
    [GRAPHIC] [TIFF OMITTED] T6350.609
    
    [GRAPHIC] [TIFF OMITTED] T6350.610
    
    [GRAPHIC] [TIFF OMITTED] T6350.611
    
    [GRAPHIC] [TIFF OMITTED] T6350.612
    
    [GRAPHIC] [TIFF OMITTED] T6350.613
    
    [GRAPHIC] [TIFF OMITTED] T6350.614
    
    [GRAPHIC] [TIFF OMITTED] T6350.615
    
    [GRAPHIC] [TIFF OMITTED] T6350.616
    
    [GRAPHIC] [TIFF OMITTED] T6350.617
    
    [GRAPHIC] [TIFF OMITTED] T6350.618
    
    [GRAPHIC] [TIFF OMITTED] T6350.619
    
    [GRAPHIC] [TIFF OMITTED] T6350.620
    
    [GRAPHIC] [TIFF OMITTED] T6350.621
    
    [GRAPHIC] [TIFF OMITTED] T6350.622
    
    [GRAPHIC] [TIFF OMITTED] T6350.623
    
    [GRAPHIC] [TIFF OMITTED] T6350.624
    
    [GRAPHIC] [TIFF OMITTED] T6350.625
    
    [GRAPHIC] [TIFF OMITTED] T6350.626
    
    [GRAPHIC] [TIFF OMITTED] T6350.627
    
    [GRAPHIC] [TIFF OMITTED] T6350.628
    
    [GRAPHIC] [TIFF OMITTED] T6350.629
    
    [GRAPHIC] [TIFF OMITTED] T6350.630
    
    [GRAPHIC] [TIFF OMITTED] T6350.631
    
    [GRAPHIC] [TIFF OMITTED] T6350.632
    
    [GRAPHIC] [TIFF OMITTED] T6350.633
    
    [GRAPHIC] [TIFF OMITTED] T6350.634
    
    [GRAPHIC] [TIFF OMITTED] T6350.635
    
    [GRAPHIC] [TIFF OMITTED] T6350.636
    
    [GRAPHIC] [TIFF OMITTED] T6350.637
    
    [GRAPHIC] [TIFF OMITTED] T6350.638
    
    [GRAPHIC] [TIFF OMITTED] T6350.639
    
    [GRAPHIC] [TIFF OMITTED] T6350.640
    
    [GRAPHIC] [TIFF OMITTED] T6350.641
    
    [GRAPHIC] [TIFF OMITTED] T6350.642
    
    [GRAPHIC] [TIFF OMITTED] T6350.643
    
    [GRAPHIC] [TIFF OMITTED] T6350.644
    
    [GRAPHIC] [TIFF OMITTED] T6350.645
    
    [GRAPHIC] [TIFF OMITTED] T6350.646
    
    [GRAPHIC] [TIFF OMITTED] T6350.647
    
    [GRAPHIC] [TIFF OMITTED] T6350.648
    
    [GRAPHIC] [TIFF OMITTED] T6350.649
    
    [GRAPHIC] [TIFF OMITTED] T6350.650
    
    [GRAPHIC] [TIFF OMITTED] T6350.651
    
    [GRAPHIC] [TIFF OMITTED] T6350.652
    
    [GRAPHIC] [TIFF OMITTED] T6350.653
    
    [GRAPHIC] [TIFF OMITTED] T6350.654
    
    [GRAPHIC] [TIFF OMITTED] T6350.655
    
    [GRAPHIC] [TIFF OMITTED] T6350.656
    
    [GRAPHIC] [TIFF OMITTED] T6350.657
    
    [GRAPHIC] [TIFF OMITTED] T6350.658
    
    [GRAPHIC] [TIFF OMITTED] T6350.659
    
    [GRAPHIC] [TIFF OMITTED] T6350.660
    
    Senator Coons. Thank you, Justice. Then my inclination is 
to begin with 5-minute rounds and for us to proceed with 
questioning.
    Justice Christen, could you begin by describing your 
judicial philosophy for us?
    Justice Christen. Sure. Senator, I really believe that my 
job is all about public service, and the way my branch serves 
the public is to decide cases according to the rule of law, not 
according to how we would like the law to be or according to 
our personal views. I believe that we have an absolute 
obligation to provide a fair, impartial forum for litigants, to 
always be mindful of the separation of powers and the 
importance of judicial restraint. And I would say also that I 
think it is always incumbent upon judicial officers to make 
sure that they set the tone so that all litigants are always 
treated with courtesy and respect.
    Senator Coons. You mentioned judicial restraint. Can you 
give us an example or two of cases where you were called upon 
to exercise judicial restraint and talk to us about how 
challenging or uplifting that might have and what the outcome 
was?
    Justice Christen. Sure. When I talk about judicial 
restraint, I am speaking of the need to decide just the case or 
controversy before the court and nothing more. We are human 
beings, of course, but we are called upon to review the facts 
and review the law and rule just on the controversy that is 
before us.
    One example of that might be Brown v. LDG, which is a case 
that I decided when I was a superior court judge. The case 
involved a woman who was killed, and she left a couple of young 
sons behind. There had been a lot of controversy in Alaska over 
the tort reform statute in our State. I think that is true in 
many States. We were no exception. But the question before me 
in that case was not about the pros and cons of tort reform. 
The question was really whether the legislature's cap on non-
economic damages was constitutional. That was the issue. And in 
my judgment it was, and I upheld that statute. That might be an 
example that would speak to your question.
    Senator Coons. In your view, Justice, how would your job as 
a judge of an intermediate appellate court differ from your 
previous experience as a trial court and differ from being a 
Supreme Court Justice? And how would the skills that you have 
developed in your various roles--excuse me, on different State 
benches, translate to your responsibilities as a Ninth Circuit 
judge?
    Justice Christen. Well, I certainly think there are some 
different substantive areas, Senator. There is no question that 
there are different substantive areas. The work that I did on 
the trial court I think will be invaluable to me because, as an 
appellate court judge, I know what it takes to create that 
record and I know how to find things in the record. And that 
has been incredibly valuable to me as I made the transition 
from the trial court to the State Supreme Court.
    I now have a full-time docket, of course, of appellate 
court work, and that in and of itself is a big transition 
because, of course, there are different standards of review and 
it is an entirely different analysis in that sense. We do not 
re-try the facts, certainly. And I have also made the 
transition from being a single-judge court to being one of five 
on a multi-judge court, which is another very significant 
difference.
    I think one of the challenges will be that the Ninth 
Circuit is enormous and there is a lot of travel time involved 
and I think will have to work very hard to know my colleagues 
because I think it is terribly important to have collegial 
relationships with all colleagues, not just because that is 
nice--but it is--but because I believe that courts function 
better and the work product is better if we know each other 
well. There is more tugging, pushing and pulling on those 
decisions, and we give each other more leeway to do that and 
generate a better work product if we know each other. And I 
think that is something we would have to work at given that 
there are so few judges over such a vast distance.
    I hope that is not a sign.
    [Laughter.]
    Senator Coons. I think there was a thunderstorm outside.
    Justice Christen. OK. All right.
    Senator Coons. Maybe it was a resolution of the debt 
ceiling, Who knows?
    [Laughter.]
    Senator Coons. As a circuit court judge--last question from 
me--how would you see your role in ensuring fair access to the 
courts and to justice? It is a quite different role than a 
State judge, but I think all of us who have any connection with 
the justice system still need to have some concerns about 
access. How would you see your role as a Ninth Circuit judge?
    Justice Christen. Well, I am always a little suspicious of 
people who have not served on a court giving advice to that 
court about how it ought to be done. So the first thing I would 
like to say--I am going to answer your question, of course, but 
the first thing I would like to say is I would first want to 
hear from the professional staff and the judges on the Ninth 
Circuit because I know they have worked at this very hard 
already.
    My experience in the trial court might go to your question 
because Alaska, of course, is huge and there are only 700,000 
people sprinkled throughout that State. And so we work very 
hard on access to justice, everything from our computer systems 
so that folks who cannot get to the courthouse because there 
literally is not a road--maybe it is only accessible by snow 
machine or boat or airplane--so that those people can 
participate by getting the court forms and getting them filed 
that way. And we have done a lot of work on television cameras 
in the courtroom on the Alaska Supreme Court. Almost all of our 
hearings are televised so that folks can participate or 
certainly have access to our hearings that way.
    Senator Coons. Thank you, Justice.
    Senator Hatch.
    Senator Hatch. Thank you, Mr. Chairman.
    Justice Christen, welcome to the Judiciary Committee.
    Justice Christen. Thank you.
    Senator Hatch. Now, my main focus in evaluating judicial 
nominees--I will try and get a little closer here--is whether 
they are qualified by legal experience as well as their 
judicial philosophy. Those are the two big areas that I 
currently feel are the most important.
    Now, you currently serve on a State appellate court which 
follows common law, but you have been nominated to a Federal 
appellate court which uses written law.
    Now, we have seen many needs take that path, but in my 
opinion, they do not always make the transition to what I 
believe is a more defined, limited judicial role in the Federal 
court system.
    What do you see is the difference? Do Federal judges have 
as much discretion, as much power, when interpreting statutes 
or the Constitution as State judges have in developing and 
applying common law?
    Justice Christen. Well, thank you, Senator. For the first 7 
years when I was on the bench, of course, I was a superior 
court judge, and I was bound by precedent as well, bound by the 
Alaska State court precedent, and certainly bound by the 
statutes the legislature had given to us. Whether I have been 
called upon to apply statutes or regulations or have been 
required to very closely read our case law and follow that 
precedent, I think I have been very faithful about ruling 
according to the rule of law.
    Senator Hatch. OK. In one of your opinions on the Alaskan 
Supreme Court, Allstate Insurance Company v. Dooley, you 
created a new cause of action for what you called ``fraudulent 
concealment of evidence.''
    Now, versus Federal statutes, various Federal statutes 
create duties, but not all create private causes of action. 
Now, Federal judges are sometimes invited to create what 
Congress does not by simply saying that a cause of action is 
implied.
    What approach are you going to use--or let us put it this 
way: What approach should a Federal judge take when asked to 
interpret a statute so as to create an implied private cause of 
action?
    Justice Christen. A Federal judge, like a State court 
judge, should always interpret the law faithfully according to 
the law that we are given by the legislative branch. When a 
statute is unambiguous, Senator, my job is to apply it 
currently in the job that I have now, and it certainly would be 
if I am fortunate enough to be confirmed.
    Senator Hatch. Well, according to the Constitution as well 
as written statute.
    Now, President Obama has said that judges should base their 
rulings on ``one's deepest values, one's core concerns, one's 
broader perspectives on how the world works, and the depth and 
breadth of one's empathy.'' Do you agree with that?
    Justice Christen. I believe that judges have an obligation 
to rule based on the rule of law, and that is what I have done 
for 9\1/2\ years. I think I have that track record, Senator.
    I do not think that empathy plays any role in determining 
what the rule of law is or in how we apply the rule of law. We 
are not allowed to tilt the scales depending on how we feel 
about a case. But I believe that there are life lessons that we 
have all learned that are very important that judges retain and 
take with them to the bench. By that I mean that I think it is 
very important that we are always mindful that there are real 
people on the receiving end of our orders, and very often there 
are people's lives on hold or their businesses are on hold 
waiting for our decisions. That is why it matters very much 
that our work is timely, for example.
    Senator Hatch. Federal judges interpret and apply written 
law to decide cases. Now, interpreting the Constitution or 
statutes requires determining what their words mean.
    Justice Christen. Yes.
    Senator Hatch. A more restrained or limited approach says 
that the only legitimate meaning is already provided by those 
who made the Constitution law--in other words, its original 
meaning. A more activist or flexible approach says that judges 
may give new meaning to the Constitution that they find from 
various sources. Some judges focus on the text. Others focus on 
purposes and consequences that they really want to achieve.
    Now, could you tell us your view? I do not mean to 
pigeonhole or label you, but I do want to understand more about 
your approach to judging. Which approach is more consistent 
with what you believe is the power and proper role of Federal 
judges?
    Justice Christen. Thank you. What I have learned is that 
people, even judges, mean a really different thing by those 
phrases and terms, Senator, and so I try to avoid using them. 
For example, I do not use the phrase ``living, breathing.'' I 
think that is subject to a lot of misinterpretation. I think a 
lot of members of the public, for example, hear that and they 
think we mean that we can--that any judge can change the words 
that are in the Constitution. And we clearly cannot do that. It 
is not permitted. There are other phrases, ``calling balls and 
strikes'' and so forth, and I try to avoid them.
    What I do, what I have done for the last 9\1/2\ years, when 
I am, for example, called upon to look at a constitutional 
question, is always start with the language of the 
Constitution. I believe absolutely that those words are 
enduring. They have guided us for over 200 years. It is not the 
job or within the range of my duties or my power to change 
those words. We always start--I always start with the language 
of the Constitution, and then I look at binding authority. I 
have faithfully applied binding authority, Senator, and if I am 
fortunate enough to be confirmed, I will continue to do so.
    Senator Hatch. Well, thank you.
    Justice Christen. Certainly.
    Senator Hatch. My time is up, Mr. Chairman. I appreciate 
it.
    Senator Coons. Thank you, Senator Hatch.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Justice Christen, I noticed you said you had some family 
viewing from northern Minnesota.
    Justice Christen. A few dozen.
    [Laughter.]
    Senator Franken. OK. And where in northern Minnesota would 
that be? Would they be all over northern Minnesota or located 
in one specific area?
    Justice Christen. The closest place that has a dot on the 
map that you might be familiar with is probably Bemidji.
    Senator Franken. Oh, OK. Well, you know Senator Begich has 
family on the Iron Range. Well, I guess you did not know that.
    [Laughter.]
    Senator Franken. I guess he did not prepare you.
    Justice Christen. Are you going to tell him?
    [Laughter.]
    Senator Franken. Yes. I have just told you.
    Justice Christen. OK. Thank you.
    Senator Franken. Well, anyway, hello to all your family. 
They should be very proud.
    Justice Christen. Thank you.
    Senator Franken. I noticed that while you were in private 
practice, you represented the State of Alaska in litigation 
that followed the Exxon Valdez oil spill. Can you tell us about 
that litigation and what you learned from it?
    Justice Christen. What I learned from that litigation was 
what it is like to work on a very large litigation team with 
many different moving parts. That is for sure.
    My particular part was small. There were just a few of us 
working on the liability portion of the case for the State of 
Alaska. That is where I fit in. And to be very specific, my job 
in the early years of that case--because it did extend for many 
years, but for the first couple of years, my job was focused on 
compiling the most accurate record I could of the timeline of 
events, 24 hours before the grounding of the tanker and 24 
hours after the grounding of the tanker.
    I also worked on the--because I was part of the litigation 
team, I worked on the summary judgment motion, which 
established liability.
    Senator Franken. OK. And leading up to that, there was some 
drinking involved, was there?
    Justice Christen. Not by the litigation team.
    [Laughter.]
    Senator Franken. I will do the jokes.
    [Laughter.]
    Senator Hatch. I kind of like yours better.
    Senator Franken. I am afraid you lost a vote.
    [Laughter.]
    Senator Hatch. Well, let me retract that.
    Justice Christen. Thank you, Senator Hatch.
    Senator Franken. I have empathy so I will vote for you.
    Speaking of which, I noticed that--because this is 
interesting, because on this empathy question, which we hear 
over and over and over again, and I agree that you have to 
decide on the law and that--certainly the way you feel, but I 
noticed that you said that you have to apply certain life 
lessons, and so you answered--to me, you answered with a little 
nuance, which actually I find a little refreshing because I 
think empathy sometimes is confused with sympathy.
    Justice Christen. Yes.
    Senator Franken. And empathy simply means understanding 
human beings. And I think that the experience of a judge is 
whether--no matter how the judge factors, tries to factor that 
out, the experience of a judge has something to do with how 
they are a judge. Do you agree or not?
    Justice Christen. The experience of a judge has something 
to do with how they----
    Senator Franken. The life experience cannot help but have--
I mean, otherwise, we just have judges that were like in a 
bubble. That would be the ideal way to raise a judge, although 
then they would have to recuse themselves on cases that involve 
people who lived in bubbles.
    [Laughter.]
    Justice Christen. And your question is?
    Senator Franken. Could you comment on that?
    [Laughter.]
    Justice Christen. I can try.
    I agree with you that people sometimes confuse empathy with 
sympathy, and there is an important distinction to be made 
there, Senator. I meant what I said when I talked about 
interpreting the rule of law, and we do not get to tilt that 
scale based upon how we feel. But we are not robots, and in our 
system in our country, we do not leave judging to an Excel 
spread sheet or to robots, certainly.
    I also meant what I said about believing very firmly that 
it is so important--and I trained judges in the trial court--
that those life lessons mean a lot. Absolutely we need to 
always remember who is on the receiving end of those orders. It 
matters very much for some of the reasons that I mentioned 
earlier.
    Senator Franken. Well, thank you. You seem eminently 
qualified, and everyone in your family should be very proud of 
you.
    Justice Christen. Thank you.
    Senator Franken. And thank you very much.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Franken.
    Are there any further questions by members of today's 
panel?
    Senator Hatch. No, sir.
    I intend to support you, so I will follow up on that.
    Justice Christen. Thank you.
    Senator Coons. If there are no further questions, I will 
hold the record open for a week for members of the Committee 
who may not have been able to join us due to their schedules 
but may wish to submit questions. And, again, Justice, I want 
to particularly thank you and your whole family for joining us 
here today. I congratulate you on your nomination and wish you 
all the best. I am confident that you will serve admirably and 
thoughtfully as a member of the Ninth Circuit, and, Justice 
Christen, as you and your friends and family are departing, I 
would like to invite the next panel to come forward and join 
us.
    Justice Christen. Thank you, Senator.
    Senator Coons. Thank you very much, Justice Christen.
    I would like to ask each of our four nominees on the second 
panel to please rise, raise your right hand, and repeat after 
me. Do you solemnly swear that the testimony you are about to 
give to this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Judge Gleason. I do.
    Judge Gonzalez Rogers. I do.
    Mr. Andrews. I do.
    Judge Skavdahl. I do.
    Senator Coons. Thank you. Let the record show the nominees 
have taken the oath. Now the nominees will have an opportunity 
to recognize their family and friends and give an opening 
statement in order.
    Judge Gleason, starting with you, I welcome you to 
recognize any family members or friends you have with you today 
and then offer an opening statement.

 STATEMENT OF SHARON L. GLEASON, NOMINEE TO BE DISTRICT JUDGE 
                   FOR THE DISTRICT OF ALASKA

    Judge Gleason. Thank you, Senator Coons.
    First I would like to thank the Senators for having me here 
today to attend this hearing.
    I will also press my microphone button and repeat that.
    I would like to thank you both for having me here today to 
attend this hearing, and I would like to thank Senator 
Murkowski and Senator Begich for their very kind words that 
they had on behalf of me. And I certainly thank the President 
for the honor of this nomination.
    My parents, Peter and Vera Gleason, are, I know, watching 
the webcast. They are in upstate New York and were unable to 
travel here today, but I certainly thank them for all of the 
support that they have given me. And my sister, Pat, is with 
them, and my other sister and brothers are watching throughout 
the country.
    My daughter, Chloe, traveled with me here. She is a college 
senior, came from Alaska with me earlier this week. She is a 
government major so this has been quite a great experience for 
her.
    My son, David, signed up months ago to be a camp counselor 
in San Diego at a tennis camp this month so he is not here, but 
one of his jobs is planning the evening activities, and he said 
the webcast will feature prominently on the camp program 
tonight.
    My niece, Kristen Larson, is here in the courtroom, and a 
family friend, Molly Quinn, is here as well.
    I know I have friends and colleagues in Alaska that are 
watching, and I certainly appreciate their support and, in 
particular, the support of my two office teammates: my 
administrative assistant, Anne, and my law clerk, Lindsay.
    So I do not have an opening statement, but I certainly look 
forward to answering any questions that you might have.
    [The biographical information of Judge Gleason follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.661
    
    [GRAPHIC] [TIFF OMITTED] T6350.662
    
    [GRAPHIC] [TIFF OMITTED] T6350.663
    
    [GRAPHIC] [TIFF OMITTED] T6350.664
    
    [GRAPHIC] [TIFF OMITTED] T6350.665
    
    [GRAPHIC] [TIFF OMITTED] T6350.666
    
    [GRAPHIC] [TIFF OMITTED] T6350.667
    
    [GRAPHIC] [TIFF OMITTED] T6350.668
    
    [GRAPHIC] [TIFF OMITTED] T6350.669
    
    [GRAPHIC] [TIFF OMITTED] T6350.670
    
    [GRAPHIC] [TIFF OMITTED] T6350.671
    
    [GRAPHIC] [TIFF OMITTED] T6350.672
    
    [GRAPHIC] [TIFF OMITTED] T6350.673
    
    [GRAPHIC] [TIFF OMITTED] T6350.674
    
    [GRAPHIC] [TIFF OMITTED] T6350.675
    
    [GRAPHIC] [TIFF OMITTED] T6350.676
    
    [GRAPHIC] [TIFF OMITTED] T6350.677
    
    [GRAPHIC] [TIFF OMITTED] T6350.678
    
    [GRAPHIC] [TIFF OMITTED] T6350.679
    
    [GRAPHIC] [TIFF OMITTED] T6350.680
    
    [GRAPHIC] [TIFF OMITTED] T6350.681
    
    [GRAPHIC] [TIFF OMITTED] T6350.682
    
    [GRAPHIC] [TIFF OMITTED] T6350.683
    
    [GRAPHIC] [TIFF OMITTED] T6350.684
    
    [GRAPHIC] [TIFF OMITTED] T6350.685
    
    [GRAPHIC] [TIFF OMITTED] T6350.686
    
    [GRAPHIC] [TIFF OMITTED] T6350.687
    
    [GRAPHIC] [TIFF OMITTED] T6350.688
    
    [GRAPHIC] [TIFF OMITTED] T6350.689
    
    [GRAPHIC] [TIFF OMITTED] T6350.690
    
    [GRAPHIC] [TIFF OMITTED] T6350.691
    
    [GRAPHIC] [TIFF OMITTED] T6350.692
    
    [GRAPHIC] [TIFF OMITTED] T6350.693
    
    [GRAPHIC] [TIFF OMITTED] T6350.694
    
    [GRAPHIC] [TIFF OMITTED] T6350.695
    
    [GRAPHIC] [TIFF OMITTED] T6350.696
    
    [GRAPHIC] [TIFF OMITTED] T6350.697
    
    [GRAPHIC] [TIFF OMITTED] T6350.698
    
    [GRAPHIC] [TIFF OMITTED] T6350.699
    
    [GRAPHIC] [TIFF OMITTED] T6350.700
    
    [GRAPHIC] [TIFF OMITTED] T6350.701
    
    [GRAPHIC] [TIFF OMITTED] T6350.702
    
    [GRAPHIC] [TIFF OMITTED] T6350.703
    
    [GRAPHIC] [TIFF OMITTED] T6350.704
    
    [GRAPHIC] [TIFF OMITTED] T6350.705
    
    [GRAPHIC] [TIFF OMITTED] T6350.706
    
    [GRAPHIC] [TIFF OMITTED] T6350.707
    
    [GRAPHIC] [TIFF OMITTED] T6350.708
    
    [GRAPHIC] [TIFF OMITTED] T6350.709
    
    Senator Coons. Thank you very much, Judge Gleason.
    Judge Rogers.

  STATEMENT OF YVONNE GONZALEZ ROGERS, NOMINEE TO BE DISTRICT 
         JUDGE FOR THE NORTHERN DISTRICT OF CALIFORNIA

    Judge Gonzalez Rogers. Thank you, Chairman. I would like to 
first thank Senator Hatch, Ranking Member Grassley, and 
Chairman Leahy for their leadership in holding these hearings.
    My warm thanks to Senator Feinstein. Her enthusiastic 
support of my nomination has been incredible and really is 
deeply appreciated.
    I also thank Senator Boxer for her support and the 
President for the confidence that he has shown in me by this 
nomination.
    I am here with a number of family members. I will art with 
my husband of 23 years, Matt Rogers. As Senator Feinstein 
mentioned, we are here with our three children: Christopher, 
who is 16 and aspires to be an engineer; Maria, who is 12, she 
loves math and volleyball; and Joshua, who is 10. He wants to 
be a professional soccer player, was very happy with the 
women's win today, and a chef.
    I am also here joined by my mother, Bertha Mayorga, who 
traveled from Texas, and my three sisters, who also traveled 
from Texas: Liza Reyes, Lora DeBord, and Cynthia Rhett, who is 
also here with her husband, Eric.
    Unfortunately, my brother, Rene Gonzalez, could not be with 
us, nor could my late father, G.B. Gonzalez. I know he would 
have been proud to witness these hearings, and he certainly was 
an inspiration to me.
    I do not have a formal statement. I do want to recognize 
and acknowledge the constitutional importance of these 
proceedings, and I look forward to answering any questions that 
you may have.
    Thank you.
    [The biographical information of Judge Gonzalez Rogers 
follows.]

[GRAPHIC] [TIFF OMITTED] T6350.710

[GRAPHIC] [TIFF OMITTED] T6350.711

[GRAPHIC] [TIFF OMITTED] T6350.712

[GRAPHIC] [TIFF OMITTED] T6350.713

[GRAPHIC] [TIFF OMITTED] T6350.714

[GRAPHIC] [TIFF OMITTED] T6350.715

[GRAPHIC] [TIFF OMITTED] T6350.716

[GRAPHIC] [TIFF OMITTED] T6350.717

[GRAPHIC] [TIFF OMITTED] T6350.718

[GRAPHIC] [TIFF OMITTED] T6350.719

[GRAPHIC] [TIFF OMITTED] T6350.720

[GRAPHIC] [TIFF OMITTED] T6350.721

[GRAPHIC] [TIFF OMITTED] T6350.722

[GRAPHIC] [TIFF OMITTED] T6350.723

[GRAPHIC] [TIFF OMITTED] T6350.724

[GRAPHIC] [TIFF OMITTED] T6350.725

[GRAPHIC] [TIFF OMITTED] T6350.726

[GRAPHIC] [TIFF OMITTED] T6350.727

[GRAPHIC] [TIFF OMITTED] T6350.728

[GRAPHIC] [TIFF OMITTED] T6350.729

[GRAPHIC] [TIFF OMITTED] T6350.730

[GRAPHIC] [TIFF OMITTED] T6350.731

[GRAPHIC] [TIFF OMITTED] T6350.732

[GRAPHIC] [TIFF OMITTED] T6350.733

[GRAPHIC] [TIFF OMITTED] T6350.734

[GRAPHIC] [TIFF OMITTED] T6350.735

[GRAPHIC] [TIFF OMITTED] T6350.736

[GRAPHIC] [TIFF OMITTED] T6350.737

[GRAPHIC] [TIFF OMITTED] T6350.738

[GRAPHIC] [TIFF OMITTED] T6350.739

[GRAPHIC] [TIFF OMITTED] T6350.740

[GRAPHIC] [TIFF OMITTED] T6350.741

[GRAPHIC] [TIFF OMITTED] T6350.742

[GRAPHIC] [TIFF OMITTED] T6350.743

[GRAPHIC] [TIFF OMITTED] T6350.744

[GRAPHIC] [TIFF OMITTED] T6350.745

[GRAPHIC] [TIFF OMITTED] T6350.746

[GRAPHIC] [TIFF OMITTED] T6350.747

[GRAPHIC] [TIFF OMITTED] T6350.748

[GRAPHIC] [TIFF OMITTED] T6350.749

[GRAPHIC] [TIFF OMITTED] T6350.750

[GRAPHIC] [TIFF OMITTED] T6350.751

[GRAPHIC] [TIFF OMITTED] T6350.752

[GRAPHIC] [TIFF OMITTED] T6350.753

[GRAPHIC] [TIFF OMITTED] T6350.754

[GRAPHIC] [TIFF OMITTED] T6350.755

[GRAPHIC] [TIFF OMITTED] T6350.756

    Senator Coons. Thank you, Judge Rogers.
    Mr. Andrews.

 STATEMENT OF RICHARD G. ANDREWS, NOMINEE TO BE DISTRICT JUDGE 
                  FOR THE DISTRICT OF DELAWARE

    Mr. Andrews. Thank you, Senator, and Mr. Chairman.
    First, I do want to thank you and Senator Hatch and Senator 
Franken for being here for these hearings and for holding them. 
I very much want to thank Senator Carper and, again, Mr. 
Chairman, you for your kind remarks. I am very honored that the 
President nominated me for this position, and I want to thank 
him.
    As has been mentioned by Senator Carper, my wife, Cathy 
Lanctot, is here, to whom I have been married 23 years--it 
seems like a lucky number here--and my children, Peter Andrews 
and Amy Andrews.
    I want to acknowledge my father, Peter Andrews, who is 
watching by webcast in Wilmington, Delaware; and Cathy's 
mother, who is very special to me, Claire Lanctot, who is 
watching by webcast in Woonsocket, Rhode Island.
    I want to mention my sister, Patricia Andrews, and her 
husband, Michael Gray, who is from Minneapolis, and I wish 
Senator Franken was still here because, believe it or not, they 
are actually on an airplane to Bemidji, Minnesota, and I want 
to thank them.
    I also want to acknowledge two friends of mine, Adam Safwat 
and Rudy Contreras, who are present, and I thank them for their 
support.
    I look forward to answering whatever questions the 
Committee has.
    [The biographical information of Mr. Andrews follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.757
    
    [GRAPHIC] [TIFF OMITTED] T6350.758
    
    [GRAPHIC] [TIFF OMITTED] T6350.759
    
    [GRAPHIC] [TIFF OMITTED] T6350.760
    
    [GRAPHIC] [TIFF OMITTED] T6350.761
    
    [GRAPHIC] [TIFF OMITTED] T6350.762
    
    [GRAPHIC] [TIFF OMITTED] T6350.763
    
    [GRAPHIC] [TIFF OMITTED] T6350.764
    
    [GRAPHIC] [TIFF OMITTED] T6350.765
    
    [GRAPHIC] [TIFF OMITTED] T6350.766
    
    [GRAPHIC] [TIFF OMITTED] T6350.767
    
    [GRAPHIC] [TIFF OMITTED] T6350.768
    
    [GRAPHIC] [TIFF OMITTED] T6350.769
    
    [GRAPHIC] [TIFF OMITTED] T6350.770
    
    [GRAPHIC] [TIFF OMITTED] T6350.771
    
    [GRAPHIC] [TIFF OMITTED] T6350.772
    
    [GRAPHIC] [TIFF OMITTED] T6350.773
    
    [GRAPHIC] [TIFF OMITTED] T6350.774
    
    [GRAPHIC] [TIFF OMITTED] T6350.775
    
    [GRAPHIC] [TIFF OMITTED] T6350.776
    
    [GRAPHIC] [TIFF OMITTED] T6350.777
    
    [GRAPHIC] [TIFF OMITTED] T6350.778
    
    [GRAPHIC] [TIFF OMITTED] T6350.779
    
    [GRAPHIC] [TIFF OMITTED] T6350.780
    
    [GRAPHIC] [TIFF OMITTED] T6350.781
    
    [GRAPHIC] [TIFF OMITTED] T6350.782
    
    [GRAPHIC] [TIFF OMITTED] T6350.783
    
    [GRAPHIC] [TIFF OMITTED] T6350.784
    
    [GRAPHIC] [TIFF OMITTED] T6350.785
    
    [GRAPHIC] [TIFF OMITTED] T6350.786
    
    [GRAPHIC] [TIFF OMITTED] T6350.787
    
    [GRAPHIC] [TIFF OMITTED] T6350.788
    
    [GRAPHIC] [TIFF OMITTED] T6350.789
    
    [GRAPHIC] [TIFF OMITTED] T6350.790
    
    [GRAPHIC] [TIFF OMITTED] T6350.791
    
    [GRAPHIC] [TIFF OMITTED] T6350.792
    
    [GRAPHIC] [TIFF OMITTED] T6350.793
    
    [GRAPHIC] [TIFF OMITTED] T6350.794
    
    [GRAPHIC] [TIFF OMITTED] T6350.795
    
    [GRAPHIC] [TIFF OMITTED] T6350.796
    
    [GRAPHIC] [TIFF OMITTED] T6350.797
    
    [GRAPHIC] [TIFF OMITTED] T6350.798
    
    [GRAPHIC] [TIFF OMITTED] T6350.799
    
    [GRAPHIC] [TIFF OMITTED] T6350.800
    
    [GRAPHIC] [TIFF OMITTED] T6350.801
    
    [GRAPHIC] [TIFF OMITTED] T6350.802
    
    [GRAPHIC] [TIFF OMITTED] T6350.803
    
    [GRAPHIC] [TIFF OMITTED] T6350.804
    
    [GRAPHIC] [TIFF OMITTED] T6350.805
    
    [GRAPHIC] [TIFF OMITTED] T6350.806
    
    [GRAPHIC] [TIFF OMITTED] T6350.807
    
    [GRAPHIC] [TIFF OMITTED] T6350.808
    
    [GRAPHIC] [TIFF OMITTED] T6350.809
    
    Senator Coons. Thank you, Mr. Andrews.
    And last, but certainly not least, Judge Skavdahl.

 STATEMENT OF SCOTT W. SKAVDAHL, NOMINEE TO BE DISTRICT JUDGE 
                  FOR THE DISTRICT OF WYOMING

    Judge Skavdahl. Thank you, Senator Coons and Senator Hatch, 
and the Committee for holding this hearing today. I am humbled 
and deeply honored by President Obama's nomination given the 
significance of this position and the quality of the 
individuals that were recommended for it.
    I am also appreciative to Governor Freudenthal who deemed 
me worthy of consideration, and to Senators Enzi and Barrasso 
for their kind words and introduction and support in this 
process.
    I want to recognize my best decision I ever made, my wife, 
Cidne Skavdahl, seated behind me, of 20 years come August 17th; 
my daughter, Caitlyn Skavdahl, the greatest blessing I have 
had. My father, John Skavdahl, is here today. My mother is back 
in Nebraska watching the dogs. And my sister, Sean Nick, and 
her husband, Brad, and my nieces and nephews in Fremont, 
Nebraska.
    My friend and colleague, Judge Forgey, from Wyoming, was 
able to join us today. I appreciate him being here. Mr. Ben 
Hebner, a family friend, as well as Mr. and Mrs. Neff, family 
friends.
    I am also wanting to say hello to the staff and colleagues 
and friends and mentors back in Wyoming who might be watching 
by web cam and who, without their support, I would not be here.
    Thank you.
    [The biographical information of Judge Skavdahl follows]

    [GRAPHIC] [TIFF OMITTED] T6350.810
    
    [GRAPHIC] [TIFF OMITTED] T6350.811
    
    [GRAPHIC] [TIFF OMITTED] T6350.812
    
    [GRAPHIC] [TIFF OMITTED] T6350.813
    
    [GRAPHIC] [TIFF OMITTED] T6350.814
    
    [GRAPHIC] [TIFF OMITTED] T6350.815
    
    [GRAPHIC] [TIFF OMITTED] T6350.816
    
    [GRAPHIC] [TIFF OMITTED] T6350.817
    
    [GRAPHIC] [TIFF OMITTED] T6350.818
    
    [GRAPHIC] [TIFF OMITTED] T6350.819
    
    [GRAPHIC] [TIFF OMITTED] T6350.820
    
    [GRAPHIC] [TIFF OMITTED] T6350.821
    
    [GRAPHIC] [TIFF OMITTED] T6350.822
    
    [GRAPHIC] [TIFF OMITTED] T6350.823
    
    [GRAPHIC] [TIFF OMITTED] T6350.824
    
    [GRAPHIC] [TIFF OMITTED] T6350.825
    
    [GRAPHIC] [TIFF OMITTED] T6350.826
    
    [GRAPHIC] [TIFF OMITTED] T6350.827
    
    [GRAPHIC] [TIFF OMITTED] T6350.828
    
    [GRAPHIC] [TIFF OMITTED] T6350.829
    
    [GRAPHIC] [TIFF OMITTED] T6350.830
    
    [GRAPHIC] [TIFF OMITTED] T6350.831
    
    [GRAPHIC] [TIFF OMITTED] T6350.832
    
    [GRAPHIC] [TIFF OMITTED] T6350.833
    
    [GRAPHIC] [TIFF OMITTED] T6350.834
    
    [GRAPHIC] [TIFF OMITTED] T6350.835
    
    [GRAPHIC] [TIFF OMITTED] T6350.836
    
    [GRAPHIC] [TIFF OMITTED] T6350.837
    
    [GRAPHIC] [TIFF OMITTED] T6350.838
    
    [GRAPHIC] [TIFF OMITTED] T6350.839
    
    [GRAPHIC] [TIFF OMITTED] T6350.840
    
    [GRAPHIC] [TIFF OMITTED] T6350.841
    
    [GRAPHIC] [TIFF OMITTED] T6350.842
    
    [GRAPHIC] [TIFF OMITTED] T6350.843
    
    [GRAPHIC] [TIFF OMITTED] T6350.844
    
    [GRAPHIC] [TIFF OMITTED] T6350.845
    
    [GRAPHIC] [TIFF OMITTED] T6350.846
    
    [GRAPHIC] [TIFF OMITTED] T6350.847
    
    [GRAPHIC] [TIFF OMITTED] T6350.848
    
    [GRAPHIC] [TIFF OMITTED] T6350.849
    
    [GRAPHIC] [TIFF OMITTED] T6350.850
    
    [GRAPHIC] [TIFF OMITTED] T6350.851
    
    [GRAPHIC] [TIFF OMITTED] T6350.852
    
    [GRAPHIC] [TIFF OMITTED] T6350.853
    
    [GRAPHIC] [TIFF OMITTED] T6350.854
    
    [GRAPHIC] [TIFF OMITTED] T6350.855
    
    [GRAPHIC] [TIFF OMITTED] T6350.856
    
    [GRAPHIC] [TIFF OMITTED] T6350.857
    
    [GRAPHIC] [TIFF OMITTED] T6350.858
    
    Senator Coons. Thank you, Judge, and thank you to everybody 
for introducing your families to us and for your time and 
attention here.
    I would first like to invite each of you in order, if I 
might, beginning with Mr. Andrews and just proceeding down the 
panel, to just describe your judicial philosophy, what you see 
as the appropriate role of the Federal district court judge and 
how in particular you approach the use of precedent in your 
judicial duties, should you be confirmed.
    Mr. Andrews. Yes, Senator. In terms of judicial philosophy, 
it seems to me the two most important things for a Federal 
district judge and things that if I were confirmed I would 
attempt to do is to actively manage the caseload so that it 
comes to some resolution and, in terms of the things that I 
would decide, to show restraint, not to decide things that do 
not need to be decided.
    In terms of precedent, the United States Supreme Court and 
the Third Circuit are binding precedent on a district judge in 
the District of Delaware, and I would follow their precedents.
    Senator Coons. Thank you, Mr. Andrews.
    Judge Rogers.
    Judge Gonzalez Rogers. Thank you, Senator Coons. Quite 
simply, I think it is my utmost responsibility to fairly 
adjudicate any and all matters that come before me for all 
litigants, no matter their station, and to do so in a manner 
that is impartial and that is done without sympathy, bias, or 
prejudice.
    It is my responsibility to follow the law, to follow the 
statutes, the plain meaning of the statutes, and I am bound by 
all of the decisions of the Supreme Court and the circuit in 
which I sit.
    Senator Coons. Thank you, Judge.
    Judge Gleason.
    Judge Gleason. Thank you. My philosophy is similar. I see 
three parts to the role of a judge.
    First, I see the role of the judge to determine the facts 
and issues that are at dispute in the case and do so in a 
manner that is respectful of the views of each of the parties 
that are participating in the case.
    Second, I see the role of the judge to determine what is 
the applicable law, and there, precedent of the higher courts 
is the guiding factor in determining that rule of law and 
applying it to the case before me.
    And, third, I see the role of the judge in explaining the 
decision that has been reached and explaining it to the parties 
in a way that they understand what the rule of law is and 
hopefully leaves them with a sense that their position has been 
heard and understood in the course of reaching the decision.
    Senator Coons. Thank you. I think that is the first time I 
have heard someone articulate that last particular point, which 
I think is helpful.
    Judge Skavdahl.
    Judge Skavdahl. Thank you, Senator. My philosophy has 
always been with litigants before me and people to treat them 
as I would want to be treated if I were standing in the well of 
the court. I believe it is important to listen carefully, to be 
extremely patient with the process, and exercise humility and 
understanding in the issues that are presented and make those 
decisions carefully and wisely.
    Senator Coons. Thank you, Judge. I would be interested if 
you would next take up the question of sort of in particular 
what is the role of the court in interpreting those laws that 
are written and adopted by elected bodies, whether State 
legislatures or the Federal Congress. Mr. Andrews.
    Mr. Andrews. Yes, Senator. In terms of statutes or statute-
like law, the role of the court is first to look to the statute 
and, when the meaning is plain, to enforce that. When there is 
ambiguity, then the judge has to look at secondary--other 
sources, which may be precedent which, while not directly on 
point, shows reasoning that is analogous and should be 
followed, legislative intent to the extent that it can be 
determined, and any other relevant information that might be 
brought to the court's attention.
    Senator Coons. Judge Rogers, anything you would like to add 
to that view?
    Judge Gonzalez Rogers. I think he did a terrific job, but I 
would add, after I agreed with everything that my colleague to 
the left here said, I would add that at times if we--or if I 
have found that there is no controlling precedent in my 
district, I will look to other similar situations perhaps in 
the Federal courts or other State courts where there were 
similar situations and use those also a means of trying to 
bring about a reasoned analysis to whatever the specific 
dispute is before me, and then to, as narrowly as possible, 
adjudicate on that basis.
    Senator Coons. Judge Gleason.
    Judge Gleason. I am not sure I have a whole lot more to 
add. I agree with the statements of both of my colleagues to my 
left here and certainly agree that the starting point and 
statutory interpretation is the express language of the 
statute.
    Senator Coons. Judge Skavdahl.
    Judge Skavdahl. I do not think I could add anything 
further. I would adopt those opinions expressed by my 
colleagues.
    Senator Coons. Thank you. I see my time has expired.
    We are doing 5-minute rounds. I would like to welcome 
Senator Grassley. I am grateful for his joining us.
    Senator Hatch.
    Senator Hatch. Well, I will defer to Senator Grassley.
    Senator Grassley. Thank you very much.
    I have questions right now for Judge Gleason. In 1985, 
while working in private practice, you wrote a report for the 
Alaska Women's Commission entitled, A Review of Alaska's 
Statutes for Sex Discrimination. The goal of the report was to 
identify all potential sexual discrimination in Alaska's 
statutes, regardless of how a court would decide the 
constitutionality of a given provision. Your recommendations 
and findings were far-ranging and, I think, controversial. I 
want to ask you about some items.
    You stated, ``[T]he constitutional guarantee of equal 
rights and protections and the right to privacy present strong 
arguments in support of decriminalization of prostitution.'' I 
want to give you a chance to explain the statement but, more 
important to me, do you support the decriminalization or 
legalization of prostitution today?
    Judge Gleason. Thank you for the question, Senator 
Grassley. I was the coordinator of that report back in 1985, 
which was my first year as a practicing attorney, and I again 
read that report just a couple of months ago when I was putting 
together my response to the Senate Judiciary questionnaire.
    My role in the project--it was, as you have indicated, of 
course, a project put together by the Women's Commission. I was 
the legal coordinator, and that is indicated in the report, 
meaning I put together a compilation of opinions by a number of 
volunteer attorneys and State employees with regard to the 
various issues presented. Frankly, sitting here today, I do not 
recall what portions of the report I personally authored and 
what were the work of volunteer attorneys. So it was more of a 
synthesis role that I played at that point in time.
    My views today with regard to the question that you have 
posed, I really have not given any reflection on that. I do 
feel that there are issues in our society with regard to--it is 
essentially a legislative prerogative, as I would see it, and 
if there were law one way or the other, it would be my 
obligation to enforce that law.
    Senator Grassley. OK. You have stated that veterans' 
benefits have ``gone too far.'' Specifically, you said that 
veterans' benefits have been extended beyond their original 
purpose of readjusting retired service members to civilian life 
and, therefore, should be curtailed. You also stated, ``[t]o 
offer lifetime rewards solely to those individuals who have 
served their country in the armed forces works to the detriment 
of women as a class.'' The United States is currently involved 
in numerous conflicts around the world, putting hundreds of 
thousands of Americans, both men and women, in danger every 
day.
    No. 1, do you still hold the views that veterans' benefits 
should be curtailed or that such benefits work to the detriment 
of women as a class?
    Judge Gleason. No, I do not. But I have to stress again, 
Senator Grassley, that my role in that report was as a 
coordinator. It was to synthesize the work of a number of 
people, and so I know the report, because I have read it very 
recently, as I indicated for the first time, presented a number 
of different ways in which the legislature could address what 
was at that point in time gender discrimination in Alaska 
statutes. And as I recall, there were alternative 
recommendations, but my work was to synthesize other 
individuals' writings, and that is why I was the legal 
coordinator of that project.
    Senator Grassley. OK. Second question, along the same line: 
Do you believe that men and women who serve in the armed forces 
today should be denied access to veterans' benefits merely 
because there are fewer women than men who serve in the armed 
services?
    Judge Gleason. No.
    Senator Grassley. OK. In your 1985 report, you stated that 
Alaska's restrictions on abortion were unconstitutional. In 
your view, may a State impose any restrictions on abortions? 
And if so, what restrictions might be permissible?
    Judge Gleason. Well, the report did discuss, as I recall, 
the status of the United States Supreme Court precedent at that 
point in time and whether--and made a recommendation that the 
current Alaska statute in place at that point in time did not 
conform with the directives of the United States Supreme Court.
    In my role as a judge, I could be called upon to address 
issues in the future, but primarily my role would be to enforce 
the existing law of the law as enunciated by the United States 
Supreme Court.
    Senator Grassley. OK. When discussing the pervasiveness of 
sexual discrimination in your State, you also alluded to the 
fact that you would be in favor of State-run, State-sponsored 
health insurance plans. Given that a number of States have 
alleged the unconstitutionality of the Federal Patient 
Protection and Affordable Care Act's mandate for individuals to 
purchase State-sponsored health insurance, should the Committee 
assume that you would be in favor of such a plan if the case 
ever reached the district court?
    Judge Gleason. I would hope the Committee would make no 
assumption about how I would rule on any issue that might come 
before me.
    Senator Grassley. And your record both in private practice 
and as an Alaska State court judge suggests that you have not 
so much experience with Federal law. As you know, Federal 
district court judges must preside over a wide range of civil 
and criminal law cases. Would you please describe your 
experience with Federal civil litigation?
    Judge Gleason. Thank you, Senator Grassley, for the 
question. I will readily acknowledge that the bulk of the work 
I have done involves State law, and yet in the course of being 
a State court judge for 10 years, I have certainly encountered 
Federal legal issues in the context of--I know I have had cases 
involving transportation law; I know I have had cases involving 
the Federal Energy Regulatory Commission, issues to some extent 
revolving around Federal constitutional law, although 
oftentimes they are more focused on State constitutional law, 
but issues with regard to Federal constitutional law have 
arisen as well. And I have had some rather obscure Federal 
regulation cases from time to time, I have to say, that just 
seemed to work their way into State court.
    Senator Grassley. And I am down to two final questions, and 
I do not think they are difficult. What is your plan to become 
proficient in Federal criminal law and procedure?
    Judge Gleason. Thank you for the question, Senator. I do 
realize that the area where I would have a steeper learning 
curve is in criminal law. I will point out, however, that I 
have had criminal law experience as a trial court judge. I have 
done a first-degree murder trial where I was affirmed on 
appeal, and I have done several other criminal trials and post-
conviction relief proceedings. But I do recognize Federal law 
has different proceedings and different procedures that I would 
need to learn. I would plan to do the same that I do now when I 
am confronted with a new area of law, and that is to read the 
applicable law, observe other court proceedings, talk to my 
colleagues, go to the Administrative Office, get the materials, 
the bench books that are available, and review carefully the 
applicable law and facts of each case so that when I walked 
into the courtroom for a litigant each side would know that I 
was fully prepared and fully understood the law and ready to 
make a decision in their case.
    Senator Grassley. And my last question is if you could give 
us, of all the decisions you have had to make, what you would 
consider the most difficult decision you had to make sitting as 
a State court judge.
    Judge Gleason. That is an interesting question, and thank 
you for it. And I have thought about that question to some 
extent because I have heard it posed to other nominees. I find 
the job of being a trial court judge to be incredibly rewarding 
and immensely challenging, and I do not see that the work of 
making decisions to be a particularly -it is not the--the 
difficulty is what I strive for, and the same in cases where it 
is hard to learn the facts.
    But where I did feel there was as particularly difficult 
case that I had was a case that involved many, many allegations 
of child abuse by foster parents of foster children, and the 
difficulty of the case was in the selection of the jury because 
the hardship for the jurors in being questioned about the case 
and their ability to serve brought up for so many of them the 
difficulties that they had had in their own lives, and I 
thought that was a very difficult case to preside over because 
of the impact it had on individuals that were simply there to 
do their civic duty.
    Senator Grassley. I thank you very much, and I thank my 
colleagues for letting me go first and having a little extra 
time. Thank you.
    Senator Coons. Thank you, Senator Grassley.
    Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman.
    Judge Gleason, you did admit in your answers to questions--
here is what you said. In 1985, you wrote a report for the 
Alaska Women's Commission which is entitled ``A Review of 
Alaska's Statutes for Sex Discrimination.'' So I think the 
record should show that.
    Judge Gleason. I am sorry? Certainly I was the legal 
coordinator of the report, I believe.
    Senator Hatch. Well, you say here, ``I wrote a report.'' 
Did you just coordinate and write what others had given you?
    Judge Gleason. And here, again, I am----
    Senator Hatch. I am not meaning to hold you----
    Judge Gleason. No, no. I had trouble recalling what I did 
25 years ago, my first year of practice. I will be----
    Senator Hatch. Well, what kind of a person are you that you 
cannot recall 25 years ago?
    [Laughter.]
    Judge Gleason. Thank you, Senator. It gets more 
challenging.
    Senator Hatch. I cannot recall last week sometimes.
    Judge Gleason. But I will say I recall receiving large 
amounts of materials from attorneys, and I did have my office 
type it up. The extent to which I actually wrote things versus 
I wrote what other people contributed, sitting here today I 
simply cannot point to what I can say I wrote.
    The one thing I do recall having written most of in that 
was in the area of insurance law because I remember reading the 
insurance code for the very first time as a new lawyer and 
thinking, ``This has some very obscure provisions.''
    Senator Hatch. That is OK. As far as I am concerned, that 
is fine.
    You found to be discriminatory insurance company policies 
that correlate sex and risk. You wrote that--and let me give 
you the quote.
    Judge Gleason. Certainly. Go ahead.
    Senator Hatch. A State-administered group insurance plan 
for individuals who are otherwise without access to group 
health insurance plans should be explored.
    Is that still your opinion?
    Judge Gleason. I see that as a prerogative of the 
legislature, and the purpose of the report was to give 
suggested alternative recommendations to the legislature.
    Senator Hatch. OK. Judge Skavdahl, I want to know what 
position you played on the football team?
    Judge Skavdahl. Senator, I primarily occupied the bench, 
but----
    [Laughter.]
    Judge Skavdahl. I played under the third down 3 or 30 rule 
as a wide receiver, and I would go in on third down and 3 or if 
we were 30 points ahead or behind, which sometimes that was 
with BYU and the University of Utah, I would get to go in.
    Senator Hatch. Now, you better be careful talking about BYU 
and the University of Utah, is all I can say.
    You were a State court judge until your recent appointment 
as a Federal magistrate. That is great experience. Let me ask 
you just one question I explored with Justice Christen. What 
difference do you see in the power or discretion of State and 
Federal judges, especially when it comes to interpreting the 
Constitution or statutes?
    Judge Skavdahl. Well, thank you for the question, Senator. 
I see general--there are some States that--in Wyoming there is 
implied common law, and there are some rules of law with 
respect to whether or not statutes have been enacted that adopt 
or that eviscerate the common law. I do not think that applies 
in the Federal situation, and, candidly, I would have to bone 
up on that issue. But certainly the cornerstone is precedent, 
and I would be bound by that, and giving plain meaning to the 
words of the Congress and narrowly interpreting. And there is a 
presumption of constitutionality that attaches to a statute.
    Senator Hatch. Sure. Now, your very own doctors say that 
you have had various orthopedic problems. Is that going to 
impair your ability to be a judge?
    Judge Skavdahl. No, Senator. Thankfully, I do not believe 
it would. If I was fortunate enough to be confirmed, I am able 
to walk, and my knee is a little stiff on occasion, but modern 
medicine has assisted that, so I can still play basketball.
    Senator Hatch. I want to know if Barrasso was really that 
good of a doctor. That is what I am wondering.
    [Laughter.]
    Judge Skavdahl. I am able to get in here without a 
wheelchair.
    Senator Hatch. Well, then, that is something to be said.
    Mr. Andrews, you have called for lessening criminal 
penalties for drug possession and argued that suspending the 
driver's license for that crime is counterproductive. Now, do 
you agree that judges, unlike prosecutors or certainly 
legislators, should not participate in such policy debates but 
should simply enforce the laws enacted by the legislature?
    Mr. Andrews. Yes, Senator.
    Senator Hatch. OK. Now, you have also criticized mandatory 
sentences. Now, if confirmed, what deference will you give to 
the Federal Sentencing Guidelines?
    Mr. Andrews. Senator, I am not sure when you say I 
criticized mandatory sentences. I think that there may be 
particular statutes where the Committee that I was on thought 
that the mandatory sentence in that particular case was not the 
right thing. But I have not criticized them as a general 
proposition.
    In regards to the Sentencing Guidelines for Federal 
sentencing, they are certainly the starting point for any 
sentence, and they are entitled to some deference.
    Senator Hatch. Join the crowd. I think a lot of us have 
concerns, and I was one of those who helped put those mandatory 
guidelines into effect, so I still have concerns about them, to 
be honest with you.
    Now, Judge Rogers, congratulations. You certainly had--all 
of you have had tremendous accolades from your Senators from 
your States. I think that is a great tribute to each one of 
you. Judge Rogers, in a 1992 article published in the La Raza 
Law Journal, you wrote that, Power is not going to be given to 
us. It has got to be taken. Now, that can certainly mean 
different things, including a call to be involved in the 
political process. Do you believe that judges should be engaged 
in helping or empowering certain groups? Or must judges decide 
cases objectively based on the law?
    Judge Gonzalez Rogers. Judges must, Senator, decide cases 
objectively on the law. That article really was about political 
participation in our representative democracy, which I believe 
is important for all citizens. It was written 20 years ago, as 
you indicated. But a role of a judge and a role of politicians 
or those in the political branch are very different.
    Senator Hatch. Are you saying that when you are younger you 
do make some statements that you might have to eat later on in 
life?
    Judge Gonzalez Rogers. I think when all of us are younger 
we make certain statements that we may think about differently 
at different times in our lives.
    Senator Hatch. That is great. Now, you have been on the 
State court bench just a few years. If I remember correctly 
from your questionnaire, 95 percent--am I right about this, 95 
percent of your private practice was in State court and 99 
percent of it was civil rather than criminal?
    Judge Gonzalez Rogers. Correct. Most of my experience prior 
to becoming a judge was civil.
    Senator Hatch. Now, I for one do not think that 
disqualifies you at all. What I am concerned about more than 
anything else with judges is integrity, capacity, the ability 
to read the law and understand, the ability to interpret the 
laws, and to live within certain judicial constraints.
    I think all four of you have done an excellent job here 
today, and I just want to tell you that I intend to support 
each and every one of you and hope that you will make terrific 
judges on the bench. As somebody who did practice extensively 
both in civil litigation but also in Federal litigation, I have 
nothing but respect for Federal judges. And we want to have the 
best people we can possibly get, and I certainly think the four 
of you will make excellent judges on the bench. Just be fair, 
be honest, be straightforward, and be tough. Sometimes it is 
important to be tough with attorneys and let them know who is 
in charge. But I just am very appreciative that you are willing 
to do this. We know that many of you can make a lot more money 
in private practice than you do as a Federal judge, but there 
are very few things that are as satisfying or as important in 
this country and in our constitutional way of law than being a 
Federal judge. And I commend each of you for being willing to 
do this, and I commend the President for sending your names up.
    Thank you, Mr. Chairman. And if you will forgive me, I am 
going to have to leave.
    Senator Coons. Thank you, Senator Hatch.
    There being no further questions from this panel today, I 
will thank the nominees and their families, thank the nominees, 
as Senator Hatch and other members of this panel mentioned, for 
their willingness to serve the public.
    We will hold the record open for a week for any members of 
the Committee who wish to submit additional questions. I want 
to congratulate all four of your on your nominations. We are 
truly grateful that you have answered the call to Federal 
service and believe all four of you to be highly qualified to 
serve on the Federal bench, and I am hopeful that the full body 
of the Senate will take up the consideration of your 
nominations promptly.
    We stand in recess.
    [Whereupon, at 4:03 p.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T6350.859

[GRAPHIC] [TIFF OMITTED] T6350.860

[GRAPHIC] [TIFF OMITTED] T6350.861

[GRAPHIC] [TIFF OMITTED] T6350.862

[GRAPHIC] [TIFF OMITTED] T6350.863

[GRAPHIC] [TIFF OMITTED] T6350.864

[GRAPHIC] [TIFF OMITTED] T6350.865

[GRAPHIC] [TIFF OMITTED] T6350.866

[GRAPHIC] [TIFF OMITTED] T6350.867

[GRAPHIC] [TIFF OMITTED] T6350.868

[GRAPHIC] [TIFF OMITTED] T6350.869

[GRAPHIC] [TIFF OMITTED] T6350.870

[GRAPHIC] [TIFF OMITTED] T6350.871

[GRAPHIC] [TIFF OMITTED] T6350.872

[GRAPHIC] [TIFF OMITTED] T6350.873

[GRAPHIC] [TIFF OMITTED] T6350.874

[GRAPHIC] [TIFF OMITTED] T6350.875

[GRAPHIC] [TIFF OMITTED] T6350.876

[GRAPHIC] [TIFF OMITTED] T6350.877

[GRAPHIC] [TIFF OMITTED] T6350.878

[GRAPHIC] [TIFF OMITTED] T6350.879

[GRAPHIC] [TIFF OMITTED] T6350.880

[GRAPHIC] [TIFF OMITTED] T6350.881

[GRAPHIC] [TIFF OMITTED] T6350.882

[GRAPHIC] [TIFF OMITTED] T6350.883

[GRAPHIC] [TIFF OMITTED] T6350.884

[GRAPHIC] [TIFF OMITTED] T6350.885

[GRAPHIC] [TIFF OMITTED] T6350.886

[GRAPHIC] [TIFF OMITTED] T6350.887

[GRAPHIC] [TIFF OMITTED] T6350.888

[GRAPHIC] [TIFF OMITTED] T6350.889

[GRAPHIC] [TIFF OMITTED] T6350.890

[GRAPHIC] [TIFF OMITTED] T6350.891

[GRAPHIC] [TIFF OMITTED] T6350.892

[GRAPHIC] [TIFF OMITTED] T6350.893

[GRAPHIC] [TIFF OMITTED] T6350.894

[GRAPHIC] [TIFF OMITTED] T6350.895

[GRAPHIC] [TIFF OMITTED] T6350.896

[GRAPHIC] [TIFF OMITTED] T6350.897

[GRAPHIC] [TIFF OMITTED] T6350.898

[GRAPHIC] [TIFF OMITTED] T6350.899

[GRAPHIC] [TIFF OMITTED] T6350.900

[GRAPHIC] [TIFF OMITTED] T6350.901

[GRAPHIC] [TIFF OMITTED] T6350.902

[GRAPHIC] [TIFF OMITTED] T6350.903

[GRAPHIC] [TIFF OMITTED] T6350.904

[GRAPHIC] [TIFF OMITTED] T6350.905

[GRAPHIC] [TIFF OMITTED] T6350.906

[GRAPHIC] [TIFF OMITTED] T6350.907



  NOMINATIONS OF EDGARDO RAMOS, NOMINEE TO BE UNITED STATES DISTRICT 
  JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK; ANDREW L. CARTER, JR., 
NOMINEE TO BE UNITED STATES DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF 
 NEW YORK; JESSE M. FURMAN, NOMINEE TO BE UNITED STATES DISTRICT JUDGE 
 FOR THE SOUTHERN DISTRICT OF NEW YORK; JAMES RODNEY GILSTRAP, NOMINEE 
 TO BE UNITED STATES DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS; 
AND, JENNIFER GUERIN ZIPPS, NOMINEE TO BE UNITED STATES DISTRICT JUDGE 
                      FOR THE DISTRICT OF ARIZONA

                              ----------                              


                        WEDNESDAY, JULY 27, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., Room 
SD-226, Dirksen Senate Office Building, Hon. Charles E. Schumer 
presiding.
    Present: Senators Franken, Kyl, and Lee.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Schumer. I welcome all the nominees who are here 
today, as well as the family and friends who have come to 
support them. And I want to thank Senator Kyl for serving as 
Ranking Member for this hearing.
    I am pleased to open the hearing by recognizing the 
distinguished Senators from Texas, Senators Hutchison and 
Cornyn, who are here to introduce James Rodney Gilstrap, the 
nominee for the eastern district of Texas. Then Senator Kyl 
will introduce Jennifer Guerin Zipps, the nominee to replace 
Judge Roll, who was so tragically killed earlier this year--and 
I know he was a good friend of yours, Jon--in the district of 
Arizona.
    And then I will introduce Andrew Carter, Jesse Furman, and 
Edgardo Ramos, all nominees for the southern district of New 
York.
    So without further introduction, since they have been so 
patient and were actually pretty close to being on time, which 
does not happen that much, Senator Cornyn is surprised, I will 
call on Senator Hutchison, the senior Senator from Texas, 
first, to be followed by Senator Cornyn.

   PRESENTATION OF JAMES RODNEY GILSTRAP, NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS BY HON. KAY 
    BAILEY HUTCHISON, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Well, first of all, Mr. Chairman, thank 
you very much for holding this hearing. And it is a pretty 
quick turnaround for this nominee and we appreciate it, because 
we are in complete and full support of Rodney Gilstrap.
    He has been nominated for the Federal district bench for 
the eastern district of Texas in Marshall. Although he was born 
in Pensacola, Florida, he came to Texas as soon as he could.
    [Laughter.]
    Senator Hutchison. Showing how smart he is. In fact, he is 
very smart. He attended Baylor University, where he graduated 
magna cum laude, with a bachelor of arts degree in religion.
    Following his graduation, he continued his studies at 
Baylor Law School, where he was associated editor of the Baylor 
Law Review and received his jurist doctorate in 1981.
    The start of his professional career took him to Marshall, 
Texas, where he resides today. He started as an associate 
attorney at the Abney, Baldwin & Searcy law firm in 1981 and 
then went out on his own to form the law firm Smith & Gilstrap 
in 1984.
    In August of 1989, he was appointed county judge of 
Harrison County and was elected three times to serve starting 
in 1989 and then served until 2002.
    He retired as county judge and returned to the private 
practice, Smith & Gilstrap, again.
    He also has been dedicated to his community. In addition to 
serving as county judge, he was on the board for the Harrison 
County Historical Society, the United Way for Harrison County, 
and the Trinity Episcopal Day School, and, also, served as the 
Caddo district's Chairman for the Boy Scouts of America.
    He certainly is a renowned member of his community, and I 
will say that Senator Cornyn and I have tried as best we could 
to appoint people to Federal benches from the area in which 
they serve, because we think that is important.
    He has his family. His wife, Sherry, is here and we are 
pleased to have her, and two children, Lauren, age 26, and son, 
Stephen, age 23.
    Senator Schumer. If you would please stand so we can just 
greet you and say hello. Welcome.
    Senator Hutchison. We recommend him highly, and he was 
recommended from all sectors of the community and the State Bar 
of Texas, and we look for his early confirmation.
    Thank you very much, Mr. Chairman.
    Senator Schumer. Thank you, Senator Hutchison.
    Senator Cornyn.

   PRESENTATION OF JAMES RODNEY GILSTRAP, NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE EASTERN DISTRICT OF TEXAS BY HON. JOHN 
         CORNYN, A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    I am pleased to join Senator Hutchison in recommending 
Rodney Gilstrap to serve as United States District Judge for 
the Eastern District of Texas in Marshall.
    Senator Hutchison and I have been honored to appoint a 
bipartisan judicial evaluation Committee that we believe works 
very well to help us recommend the best and the brightest 
people to serve in these important jobs, and, certainly, Mr. 
Gilstrap is no exception.
    Based on his broad experience and his commitment to public 
service, he has earned the support of people of all political 
stripes in east Texas and around our great state, and I am 
convinced he will be an outstanding addition to the bench.
    Just because I think it is important, because as you know, 
in addition to being a recovering lawyer, I am also a 
recovering judge, I just want to say something about Mr. 
Gilstrap's practice in the legal profession.
    He has been an active lawyer in the general civil practice 
since 1981 and represented a wide variety of clients. I think 
that is really important, because judges, people who sit in 
judgment should be people who understand what it takes to be an 
effective advocate in our adversary system in a court of law.
    Also, because I know it is a little different in every 
state, Mr. Gilstrap's service for 13 years as a county judge is 
something I just want to mention. This is, in many ways, sort 
of an administrative position, but in many counties, 
particularly rural counties, includes some judicial 
responsibilities, hence, the name county judge.
    So he has had broad experience both in the practice of law, 
as well as in public service, as I say. And I understand we 
have had his family introduced, his wife, Sherry; his daughter, 
Lauren; and, I do not recall whether Senator Hutchison 
mentioned that or not, but I understand Stephen is unable to be 
here today because he is actually taking the bar exam. Is that 
right? Our sympathies go out to him.
    [Laughter.]
    Senator Schumer. We wish him a bipartisan good luck.
    Senator Cornyn. Thank you very much, Mr. Chairman. We 
heartily recommend Mr. Gilstrap.
    Senator Schumer. Thank you both, Senators Hutchison and 
Cornyn. And I know you have busy schedules. So if you have to 
be on your way, we understand that.
    Now, Senator Kyl has graciously agreed, even though he is 
the Ranking Member of this hearing, to allow Senator McCain to 
make the first introduction of Jennifer Guerin Zipps.

   PRESENTATION OF JENNIFER GUERIN ZIPPS NOMINEE TO BE U.S. 
DISTRICT JUDGE FOR THE DISTRICT OF ARIZONA BY HON. JOHN MCCAIN, 
            A U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator McCain. Well, thank you, Mr. Chairman.
    I am, obviously, pleased and proud to join my friend, 
Senator Jon Kyl, in introducing to the Committee a fine 
Arizonan, Judge Jennifer Guerin Zipps.
    Judge Zipps was nominated by the President and, obviously, 
supported by Senator Kyl and me to fill the seat left vacant by 
the untimely death of Chief Judge John Roll. I do not have to 
remind the Chairman of the tragedy in Tucson and the sad 
passing of Judge John Roll in that terrible event.
    I know that Judge Zipps shares my admiration for Judge Roll 
and appreciates the legacy of the seat she is to fill.
    The district of Arizona has currently been declared a 
judicial emergency. That is a rare declaration by Federal court 
officials. Nowhere is this felt more than in the Federal 
courthouse in Tucson, which hears more immigration cases than 
any other courthouse in America. That is why we would be very 
appreciative of an expeditious and rapid confirmation of Judge 
Zipps, because of the judicial emergency that exists.
    And no one understands that better or appreciates it better 
than Judge Zipps, because she currently sits as a magistrate in 
Tucson and routinely hears initial appearances as part of 
Operation Streamline for up to 70 defendants at a time--70 
defendants at a time--who are charged with illegal entry.
    Due to her ability to handle such a heavy caseload, her 
fidelity to the law and her intellectual curiosity, I know 
Judge Zipps will be an asset to the bench and I hope the 
Committee, as I mentioned, will swiftly vote to confirm her 
nomination.
    She is originally from Ashland, Ohio, but like a lot of 
people, came to Arizona to attend the University of Arizona, 
and then took a short departure from Tucson to attend 
Georgetown Law Center.
    She then returned to work as a litigator for 4 years before 
beginning her public service in 1999 as a Federal prosecutor, 
until her appointment to the bench in 2005.
    She is imminently qualified. I am proud to support her, and 
welcome her father, James Pifer, her husband, David, and three 
children, Renee, James and Michael here before the Committee 
today. They are very proud of her.
    Senator Schumer. I would ask you to stand so (off 
microphone.] Welcome, and congratulations.
    Senator McCain. We are extremely proud of her and the great 
work that she has done under very difficult conditions.
    I wish that every member of this Committee could attend her 
court every workday where there is a minimum of 70 defendants 
all addressed at one time. It is a very unusual kind of 
judicial situation. She handles it with skill and efficiency 
and fairness.
    I thank you very much, Mr. Chairman, for allowing me these 
moments to introduce her.
    Senator Schumer. Thank you, Senator McCain.
    And now we will hear from the Ranking Member of the 
Judiciary Committee panel today, Senator Kyl.

   PRESENTATION OF JENNIFER GUERIN ZIPPS, NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE DISTRICT OF ARIZONA BY HON. JON KYL, A 
             U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Kyl. Thank you, Mr. Chairman.
    I thank my colleague, Senator McCain. He and I have had the 
good fortune to be able to nominate or help in the nomination 
of a lot of people to Arizona courts, since we have had 
vacancies and we also, as he mentioned, have a very large 
caseload there.
    So we have had the opportunity to add some judges, and I do 
not remember any of them that had any greater acceptance within 
the bar and bench community than the nomination of Judge Zipps.
    I will not repeat all of the things that Senator McCain has 
said about her background. I will confess a little conflict of 
interest. Her daughter, Renee, and my granddaughter, Francis, 
went to high school together, Mr. Chairman. I attended a 
graduation ceremony where her daughter, Renee, made a very fine 
presentation. So I am a little bit biased for Jennifer and her 
family.
    And I would also note that it is not always that our 
nominees receive unanimous well qualified, the highest 
commendation from the Bar Association. Judge Zipps received 
that highest, well qualified unanimous rating, and I think it 
demonstrates how her colleagues in the bench and bar in Arizona 
feel about her.
    Just a couple of things in her experience that Senator 
McCain did not mention. She clerked on the ninth circuit court 
of appeals for Judge Canby, a respected Arizonan on the ninth 
circuit.
    As he mentioned, she was an assistant U.S. attorney in the 
office there in Arizona, and she rose to be the chief of the 
civil division, for the last 3 years, was the chief assistant 
in the office.
    I would like, Mr. Chairman, to put into the record a list 
of many of her memberships, activities and awards. So that I 
will not mention them here, but would ask that they be placed 
in the record with my comments.
    Senator Schumer. Without objection.
    [The information referred to appears as a submission for 
the record.]
    Senator Kyl. Mr. Chairman, I think that Senator McCain made 
all of the other points that I would want to make here. It is 
important, as he said, that we move these confirmations as 
quickly as possible because of the very, very large hole that 
the death of John Roll left in our court system in Tucson and 
the very large caseload that we have there.
    We are both very proud to support Judge Zipps in her 
nomination here today.

   PRESENTATION OF ANDREW L. CARTER, JR., NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK; JESS M. 
  FURMAN, NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE SOUTHERN 
  DISTRICT OF NEW YORK; AND EDGARDO RAMOS, NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK BY HON. 
   CHARLES SCHUMER, A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Schumer. Thank you very much, Senator Kyl. And you 
have--we were all taken by the tragedy, the horrible tragedy in 
Arizona and, of course, the murder of Judge Roll, and I do want 
to let the people of Arizona know, Senator Kyl let us all of us 
know what a fine person he was in the weeks after and I will 
remember your comments about him.
    Well, now it is my honor. We have a majority of the five 
nominee that are nominated to the New York bench. I am very 
proud of that. I take a lot of time and effort into choosing 
nominees to the bench, and I have three criteria, actually, 
when I try to choose judges and they have stuck with me since I 
became a Senator in 1999--recommend judges, is the better word, 
to the President for nomination.
    They are excellence, moderation and diversity; excellence 
meaning legal excellence. We try to find people who have great 
legal minds, not people who have great political connections.
    Second, moderation. I do not like to choose judges too far 
right. That comes as no surprise. I also do not like to choose 
judges too far left, because I think judges who are at the 
extremes tend to want to make law rather than interpret law.
    And, third, moderation. Once the first two criteria are 
met, I always look to try to make the bench as diverse as 
possible. I believe that is a hallmark of America. And I am 
proud to say that the panel, as a whole, meets all three 
criteria today.
    So let me be brief in my introductions, because we do want 
to get four, and since we have three, I will ask the entire 
statement I will submit to the record for each and just be a 
little briefer.
    But the one thing I want to point out here before I 
introduce Judge Carter is one of the great things we have had 
in New York is people from all over the country are flocking to 
New York. Our population went up between 1990 and 2010 by 1.5 
million people, approximately, and many of them were some of 
the best and brightest and hardest working people from around 
the country who flocked to New York, and many of those in the 
legal profession.
    And one of those is Mr. Carter. He is from Albany--Albany, 
Georgia, unfortunately. But after graduating from the 
University of Texas at Austin and receiving his J.D. from 
Harvard Law School, he came to New York. And after law school, 
he worked for 2 years at the Ford Foundation and then became a 
public defender in the New York courts, both State and Federal.
    He spent 9 years at the New York Office of Legal Aid 
Society, and then 4 years at the Federal Defenders of New York.
    Since 2009, he has served as a magistrate judge, just like 
one of our other nominees, Magistrate Zipps from Arizona, and 
that is great training. It is great training to be a judge when 
you are an outstanding magistrate.
    He was selected by the vote of the sitting district judges 
to be it, and, as I said, I believe he exemplifies all three of 
the qualities I mentioned and will be a terrific addition to 
the southern district bench.
    Next, we have Jesse Furman. He was born in New York City. 
He graduated summa cum laude from Harvard College and received 
his law degree from Yale Law School. He then served as a law 
clerk to then Judge Michael Mukasey in the southern district of 
New York, to Judge Jose Cabranes of the second circuit, and, 
finally, to Justice David Souter on the U.S. Supreme Court.
    He spent several years as an associate at the law firm of 
Wiggin & Dana, and took some significant time off to care for 
his first two children when they were infants. Since 2004, he 
has been a Federal prosecutor in the southern district and 
deputy chief appellate attorney since 2009.
    The southern district is another great training place for a 
judge and it is just the quality of people are impressive and 
when you talk to people in the southern district and ask for 
the two or three top names in that district, the name of Jesse 
Furman almost always pops up.
    He has a stellar record of academic and professional 
excellence. He has experience in both the public and private 
sectors. Many of the nominees we have specialize in civil or 
criminal. He has had great experience in both.
    So he is an extremely impressive nominee. I was proud to 
recommend him and look forward to his continued service to our 
country from the Federal bench.
    Finally, I am also very pleased to introduce to the 
Committee Edgardo Ramos, another nominee for the bench in the 
southern district of New York. Now, Mr. Ramos is the 
quintessential example of the American dream. He was born in 
Puerto Rico, one of seven children raised by a single mom in 
Newark, New Jersey, which is almost part of New York. So we are 
not saying you came from far away.
    He excelled in school. He struggled. He worked hard. And he 
earned his bachelor's degree from Yale, his law degree from 
Harvard. After graduating, he was an associate at the very 
prestigious firm of Simpson, Thatcher & Bartlett. He then 
served for 10 years as an assistant U.S. attorney in the 
eastern district of New York, another one of these districts 
where the prosecutors are just top, top notch. And just as 
Senator McCain mentioned the Arizona, the Tucson district 
focuses on immigration, the eastern district I think probably 
does more drug prosecutions than just about any other, and 
because of the airports that are both in its jurisdiction and 
lots of, unfortunately, gangs and things like that.
    Anyway, he was deputy chief of the narcotics section, 
which, again, is great training. And then he became a partner 
in the law firm of Day Pitney. He has also dedicated 
significant time to public service. He was appointed by Mayor 
Bloomberg to the New York City Commission to combat police 
corruption. He is vice president of the nonprofit organization 
ASPIRA, which provides Latino high school students with 
community leadership curriculum.
    He has deserved an outstanding reputation among his fellow 
lawyers, prosecutors, judges, as well as in the Hispanic 
community, and I know he will make an excellent judge.
    And I would just like to comment. I do not know the 
nominees from Texas and Arizona. Of course, I know the three 
from New York. But hearing about the five of you, at times like 
this when we worry about the future of America, when America 
can produce five people like you, the future is best--the best 
of America is yet to come. So welcome to all of you.
    Now, we will ask all the nominees to come forward. You can 
see how good they are. Each sat by their name. It is very, very 
good.
    Now, I am going to ask each of you to take the oath office. 
So would you please--sorry. We are going to swear you in. I 
heard Senators McCain and Kyl say we had to fill that vacancy 
quickly. So I am sort of jumping the gun.
    [Laughter.]
    Senator Schumer. Please stand to be sworn. Raise your right 
hands.
    [Nominees sworn.]
    Senator Schumer. Thank you. Please be seated.
    Now, I did not introduce, unfortunately, the families of 
the three New York judges. So I would ask each of the nominees 
from New York to do that, and we will ask, after the 
introduction, each of the family members to stand.
    So why don't we start with Mr. Ramos.

 STATEMENT OF EDGARDO RAMOS, NOMINEE TO BE U.S. DISTRICT JUDGE 
             FOR THE SOUTHERN DISTRICT OF NEW YORK

    Judge Ramos. Thank you, Senator, and thank you for the 
opportunity to introduce my family. I am joined here today by 
my wife, Natalia Martin. She is very well known to no less than 
a half-dozen young individuals in this room as a result of her 
days as the dean of students at the Yale Law School.
    I am also joined by my sons, Andres, 15 years old, and 
Alejandro, 14 years old. Also, Senator, I am one of eight 
children, not seven.
    Senator Schumer. Excuse me. Hard to keep track when there 
are that many, right?
    Mr. Ramos. Tell me about it. Unfortunately, only one could 
make it here today. She is Lourdes Paladino. With her is her 
daughter, my niece, Nicole Paladino, who is newly engaged.
    I do have a brother who lives in the District of Columbia. 
However, he is away on business, unfortunately. However, his 
partner, John Cichello, is here and I thank him for that.
    My sister-in-law, Linda Berbiya (ph); her daughter, my 
niece, Julia Martin; my good friend and partner, Mike 
Considine; and, I am told, although I haven't seen him, that my 
cousin, Francisco Ramirez, is here.
    Senator Schumer. Will the greater Ramos family who was 
introduced please stand so we can acknowledge you and welcome 
you? Thank you for being here.
    Mr. Carter.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.908
    
    [GRAPHIC] [TIFF OMITTED] T6350.909
    
    [GRAPHIC] [TIFF OMITTED] T6350.910
    
    [GRAPHIC] [TIFF OMITTED] T6350.911
    
    [GRAPHIC] [TIFF OMITTED] T6350.912
    
    [GRAPHIC] [TIFF OMITTED] T6350.913
    
    [GRAPHIC] [TIFF OMITTED] T6350.914
    
    [GRAPHIC] [TIFF OMITTED] T6350.915
    
    [GRAPHIC] [TIFF OMITTED] T6350.916
    
    [GRAPHIC] [TIFF OMITTED] T6350.917
    
    [GRAPHIC] [TIFF OMITTED] T6350.918
    
    [GRAPHIC] [TIFF OMITTED] T6350.919
    
    [GRAPHIC] [TIFF OMITTED] T6350.920
    
    [GRAPHIC] [TIFF OMITTED] T6350.921
    
    [GRAPHIC] [TIFF OMITTED] T6350.922
    
    [GRAPHIC] [TIFF OMITTED] T6350.923
    
    [GRAPHIC] [TIFF OMITTED] T6350.924
    
    [GRAPHIC] [TIFF OMITTED] T6350.925
    
    [GRAPHIC] [TIFF OMITTED] T6350.926
    
    [GRAPHIC] [TIFF OMITTED] T6350.927
    
    [GRAPHIC] [TIFF OMITTED] T6350.928
    
    [GRAPHIC] [TIFF OMITTED] T6350.929
    
    [GRAPHIC] [TIFF OMITTED] T6350.930
    
    [GRAPHIC] [TIFF OMITTED] T6350.931
    
    [GRAPHIC] [TIFF OMITTED] T6350.932
    
    [GRAPHIC] [TIFF OMITTED] T6350.933
    
    [GRAPHIC] [TIFF OMITTED] T6350.934
    
    [GRAPHIC] [TIFF OMITTED] T6350.935
    
    [GRAPHIC] [TIFF OMITTED] T6350.936
    
    [GRAPHIC] [TIFF OMITTED] T6350.937
    
    [GRAPHIC] [TIFF OMITTED] T6350.938
    
    [GRAPHIC] [TIFF OMITTED] T6350.939
    
    [GRAPHIC] [TIFF OMITTED] T6350.940
    
    [GRAPHIC] [TIFF OMITTED] T6350.941
    
    [GRAPHIC] [TIFF OMITTED] T6350.942
    
    [GRAPHIC] [TIFF OMITTED] T6350.943
    
    [GRAPHIC] [TIFF OMITTED] T6350.944
    
    [GRAPHIC] [TIFF OMITTED] T6350.945
    
    [GRAPHIC] [TIFF OMITTED] T6350.946
    
    [GRAPHIC] [TIFF OMITTED] T6350.947
    
    [GRAPHIC] [TIFF OMITTED] T6350.948
    
    [GRAPHIC] [TIFF OMITTED] T6350.949
    
    [GRAPHIC] [TIFF OMITTED] T6350.950
    
    [GRAPHIC] [TIFF OMITTED] T6350.951
    
    [GRAPHIC] [TIFF OMITTED] T6350.952
    
STATEMENT OF ANDREW L. CARTER, JR., NOMINEE TO BE U.S. DISTRICT 
          JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK

    Mr. Carter. Thank you, Senator.
    I am proud to introduce the love of my life, my wife of 
over 12 years, Lisa Stephenson. She is here with our two 
children, Ellis, age 8, and our daughter, Ava, age 5. We are 
also joined by my uncle, Jerome Sanders, who is here from 
Mobile, Alabama, and my father, Andrew Carter, Sr., is here 
from Houston, Texas.
    I would also like to acknowledge, watching at home on the 
Webcast, my mother, Kathleen Carter, from Houston, Texas, as 
well as my sister and her family from Los Angeles; my extended 
family from Mobile, Alabama and Albany, Georgia; and, my in-
laws, friends and colleagues in New York City.
    Senator Schumer. Great. And so will the people who Mr. 
Carter introduced please stand? Welcome.
    Hi, Ellis. That is my middle name. So we are almost 
related.
    [Laughter.]
    Senator Schumer. Jon Kyl notes he is much better looking 
than me, and that is a low bar to reach, of course.
    [Laughter.]
    Senator Schumer. Finally, Mr. Furman, would you please 
introduce the people who are here for you?
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.953
    
    [GRAPHIC] [TIFF OMITTED] T6350.954
    
    [GRAPHIC] [TIFF OMITTED] T6350.955
    
    [GRAPHIC] [TIFF OMITTED] T6350.956
    
    [GRAPHIC] [TIFF OMITTED] T6350.957
    
    [GRAPHIC] [TIFF OMITTED] T6350.958
    
    [GRAPHIC] [TIFF OMITTED] T6350.959
    
    [GRAPHIC] [TIFF OMITTED] T6350.960
    
    [GRAPHIC] [TIFF OMITTED] T6350.961
    
    [GRAPHIC] [TIFF OMITTED] T6350.962
    
    [GRAPHIC] [TIFF OMITTED] T6350.963
    
    [GRAPHIC] [TIFF OMITTED] T6350.964
    
    [GRAPHIC] [TIFF OMITTED] T6350.965
    
    [GRAPHIC] [TIFF OMITTED] T6350.966
    
    [GRAPHIC] [TIFF OMITTED] T6350.967
    
    [GRAPHIC] [TIFF OMITTED] T6350.968
    
    [GRAPHIC] [TIFF OMITTED] T6350.969
    
    [GRAPHIC] [TIFF OMITTED] T6350.970
    
    [GRAPHIC] [TIFF OMITTED] T6350.971
    
    [GRAPHIC] [TIFF OMITTED] T6350.972
    
    [GRAPHIC] [TIFF OMITTED] T6350.973
    
    [GRAPHIC] [TIFF OMITTED] T6350.974
    
    [GRAPHIC] [TIFF OMITTED] T6350.975
    
    [GRAPHIC] [TIFF OMITTED] T6350.976
    
    [GRAPHIC] [TIFF OMITTED] T6350.977
    
    [GRAPHIC] [TIFF OMITTED] T6350.978
    
    [GRAPHIC] [TIFF OMITTED] T6350.979
    
    [GRAPHIC] [TIFF OMITTED] T6350.980
    
    [GRAPHIC] [TIFF OMITTED] T6350.981
    
    [GRAPHIC] [TIFF OMITTED] T6350.982
    
    [GRAPHIC] [TIFF OMITTED] T6350.983
    
    [GRAPHIC] [TIFF OMITTED] T6350.984
    
    [GRAPHIC] [TIFF OMITTED] T6350.985
    
    [GRAPHIC] [TIFF OMITTED] T6350.986
    
    [GRAPHIC] [TIFF OMITTED] T6350.987
    
    [GRAPHIC] [TIFF OMITTED] T6350.988
    
    [GRAPHIC] [TIFF OMITTED] T6350.989
    
    [GRAPHIC] [TIFF OMITTED] T6350.990
    
    [GRAPHIC] [TIFF OMITTED] T6350.991
    
    [GRAPHIC] [TIFF OMITTED] T6350.992
    
    [GRAPHIC] [TIFF OMITTED] T6350.993
    
    [GRAPHIC] [TIFF OMITTED] T6350.994
    
    [GRAPHIC] [TIFF OMITTED] T6350.995
    
STATEMENT OF JESSE M. FURMAN, NOMINEE TO BE U.S. DISTRICT JUDGE 
             FOR THE SOUTHERN DISTRICT OF NEW YORK

    Mr. Furman. Yes. Thank you, Senator.
    Let me just start by thanking the Committee Chairman, the 
Ranking Member and the other members of the Committee for 
holding this hearing today. I would also like to thank you for 
your generous introduction and for the privilege of your 
recommendation to the President. And, finally, of course, thank 
the President for the distinct honor of his nomination.
    With me today, first and foremost, is my wife of 15 years, 
Ariela Dubler. Ariela is a professor of law at Columbia Law 
School. She is the love of my life and has been my partner in 
all matters since college. And is an understatement to say I 
would not be sitting here today without her constant love and 
support.
    We are joined by the three greatest joys of our life, our 
10-year-old son--he actually turned 10 last week--Ilan; our 7-
year-old daughter, Mira; and, our 3-year-old son, Lev. They are 
a daily reminder of what is the most important thing in the 
world.
    I am also joined here by my parents, Gail Furman and Jay 
Furman. They taught me from an early age the values of love for 
family, hard work, public service, and intellectual honesty, 
and I thank them for that and for their love and support 
through my life.
    There are other family members here, as well. I think my 
brother, Jason Furman, may be here, but I haven't seen him. I 
gather he is here. My sister-in-law, Eve Gerber; my in-laws, 
Walter and Nancy Dubler; my brother-in-law, Josh Dubler, and 
his wife, Lisa Sarami (ph), and some other family members, as 
well. I am very grateful for their support and their presence.
    I am also joined by many friends, most of whom have come 
here from New York, and I am both flattered and grateful for 
their presence.
    And then lastly, joined by a number of colleagues from the 
Department of Justice, both from my time in Attorney General 
Mukasey's office and from my career in the United States 
Attorney's office. It has been the singular privilege of my 
life to work with them on behalf of our country, and I am 
honored by their presence.
    Thank you, Senator.
    Senator Schumer. Thank you. And will the Furman family 
please stand up so we can greet you? And welcome. Very nice. 
Thank you.
    Now, we allowed Messrs. Ramos, Carter and Furman to 
introduce more than their immediate family. For those who came 
in a little later, Senators Cornyn and Hutchison and Senators 
Kyl and McCain introduced the immediate family of Mr. Gilstrap 
and Ms. Zipps. But are there other people you would like to 
introduce? It is always so nice to see all the people here and 
so happy. With all the trouble going on around here, this is a 
nice moment and we want to extend it as long as we can.
    [Laughter.]
    Senator Franken. I have a distant cousin in the anteroom.
    [Laughter.]
    Senator Schumer. He may stand or she may stand.
    So if there is anyone else you would like to introduce, so 
we could ask them to stand, feel free.
    Mr. Gilstrap.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T6350.996
    
    [GRAPHIC] [TIFF OMITTED] T6350.997
    
    [GRAPHIC] [TIFF OMITTED] T6350.998
    
    [GRAPHIC] [TIFF OMITTED] T6350.999
    
    [GRAPHIC] [TIFF OMITTED] T63501.000
    
    [GRAPHIC] [TIFF OMITTED] T63501.001
    
    [GRAPHIC] [TIFF OMITTED] T63501.002
    
    [GRAPHIC] [TIFF OMITTED] T63501.003
    
    [GRAPHIC] [TIFF OMITTED] T63501.004
    
    [GRAPHIC] [TIFF OMITTED] T63501.005
    
    [GRAPHIC] [TIFF OMITTED] T63501.006
    
    [GRAPHIC] [TIFF OMITTED] T63501.007
    
    [GRAPHIC] [TIFF OMITTED] T63501.008
    
    [GRAPHIC] [TIFF OMITTED] T63501.009
    
    [GRAPHIC] [TIFF OMITTED] T63501.010
    
    [GRAPHIC] [TIFF OMITTED] T63501.011
    
    [GRAPHIC] [TIFF OMITTED] T63501.012
    
    [GRAPHIC] [TIFF OMITTED] T63501.013
    
    [GRAPHIC] [TIFF OMITTED] T63501.014
    
    [GRAPHIC] [TIFF OMITTED] T63501.015
    
    [GRAPHIC] [TIFF OMITTED] T63501.016
    
    [GRAPHIC] [TIFF OMITTED] T63501.017
    
    [GRAPHIC] [TIFF OMITTED] T63501.018
    
    [GRAPHIC] [TIFF OMITTED] T63501.019
    
    [GRAPHIC] [TIFF OMITTED] T63501.020
    
    [GRAPHIC] [TIFF OMITTED] T63501.021
    
    [GRAPHIC] [TIFF OMITTED] T63501.022
    
    [GRAPHIC] [TIFF OMITTED] T63501.023
    
    [GRAPHIC] [TIFF OMITTED] T63501.024
    
    [GRAPHIC] [TIFF OMITTED] T63501.025
    
    [GRAPHIC] [TIFF OMITTED] T63501.026
    
    [GRAPHIC] [TIFF OMITTED] T63501.027
    
    [GRAPHIC] [TIFF OMITTED] T63501.028
    
    [GRAPHIC] [TIFF OMITTED] T63501.029
    
    [GRAPHIC] [TIFF OMITTED] T63501.030
    
    [GRAPHIC] [TIFF OMITTED] T63501.031
    
    [GRAPHIC] [TIFF OMITTED] T63501.032
    
    [GRAPHIC] [TIFF OMITTED] T63501.033
    
    [GRAPHIC] [TIFF OMITTED] T63501.034
    
    [GRAPHIC] [TIFF OMITTED] T63501.035
    
    [GRAPHIC] [TIFF OMITTED] T63501.036
    
    [GRAPHIC] [TIFF OMITTED] T63501.037
    
STATEMENT OF JAMES RODNEY GILSTRAP, NOMINEE TO BE U.S. DISTRICT 
            JUDGE FOR THE EASTERN DISTRICT OF TEXAS

    Mr. Gilstrap. Thank you, Senator Schumer.
    In addition to my wife, Sherry, of 34 years and my 
daughter, Dr. Lauren Gilstrap, who had a hard time getting away 
from Mass General Hospital to come down from Boston today. My 
son, Stephen, you have been told, is taking the bar exam. I 
spoke with him last night and I can assure you he would much 
rather be here than where he is.
    But I also have my wife's parents, Bill and Carolyn 
Sullivan, with us today. I also have my father, Joe Gilstrap, 
and several friends and fellow Texans in the room, as well as a 
lot of friends back in east Texas who together are attending a 
special meeting of the Harrison County Bar Association to watch 
the Webcast of today's Committee hearing.
    I look forward to your questions, and thank you for 
convening the hearing today.
    Senator Schumer. Thank you. So will the greater Gilstrap 
family please stand? The others stood before. Thank you.
    And finally, Ms. Zipps, Magistrate Zipps.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T63501.038
    
    [GRAPHIC] [TIFF OMITTED] T63501.039
    
    [GRAPHIC] [TIFF OMITTED] T63501.040
    
    [GRAPHIC] [TIFF OMITTED] T63501.041
    
    [GRAPHIC] [TIFF OMITTED] T63501.042
    
    [GRAPHIC] [TIFF OMITTED] T63501.043
    
    [GRAPHIC] [TIFF OMITTED] T63501.044
    
    [GRAPHIC] [TIFF OMITTED] T63501.045
    
    [GRAPHIC] [TIFF OMITTED] T63501.046
    
    [GRAPHIC] [TIFF OMITTED] T63501.047
    
    [GRAPHIC] [TIFF OMITTED] T63501.048
    
    [GRAPHIC] [TIFF OMITTED] T63501.049
    
    [GRAPHIC] [TIFF OMITTED] T63501.050
    
    [GRAPHIC] [TIFF OMITTED] T63501.051
    
    [GRAPHIC] [TIFF OMITTED] T63501.052
    
    [GRAPHIC] [TIFF OMITTED] T63501.053
    
    [GRAPHIC] [TIFF OMITTED] T63501.054
    
    [GRAPHIC] [TIFF OMITTED] T63501.055
    
    [GRAPHIC] [TIFF OMITTED] T63501.056
    
    [GRAPHIC] [TIFF OMITTED] T63501.057
    
    [GRAPHIC] [TIFF OMITTED] T63501.058
    
    [GRAPHIC] [TIFF OMITTED] T63501.059
    
    [GRAPHIC] [TIFF OMITTED] T63501.060
    
    [GRAPHIC] [TIFF OMITTED] T63501.061
    
    [GRAPHIC] [TIFF OMITTED] T63501.062
    
    [GRAPHIC] [TIFF OMITTED] T63501.063
    
    [GRAPHIC] [TIFF OMITTED] T63501.064
    
    [GRAPHIC] [TIFF OMITTED] T63501.065
    
    [GRAPHIC] [TIFF OMITTED] T63501.066
    
    [GRAPHIC] [TIFF OMITTED] T63501.067
    
    [GRAPHIC] [TIFF OMITTED] T63501.068
    
    [GRAPHIC] [TIFF OMITTED] T63501.069
    
    [GRAPHIC] [TIFF OMITTED] T63501.070
    
    [GRAPHIC] [TIFF OMITTED] T63501.071
    
    [GRAPHIC] [TIFF OMITTED] T63501.072
    
    [GRAPHIC] [TIFF OMITTED] T63501.073
    
    [GRAPHIC] [TIFF OMITTED] T63501.074
    
    [GRAPHIC] [TIFF OMITTED] T63501.075
    
    [GRAPHIC] [TIFF OMITTED] T63501.076
    
    [GRAPHIC] [TIFF OMITTED] T63501.077
    
    [GRAPHIC] [TIFF OMITTED] T63501.078
    
    [GRAPHIC] [TIFF OMITTED] T63501.079
    
    [GRAPHIC] [TIFF OMITTED] T63501.080
    
    [GRAPHIC] [TIFF OMITTED] T63501.081
    
    [GRAPHIC] [TIFF OMITTED] T63501.082
    
    [GRAPHIC] [TIFF OMITTED] T63501.083
    
    [GRAPHIC] [TIFF OMITTED] T63501.084
    
    [GRAPHIC] [TIFF OMITTED] T63501.085
    
    [GRAPHIC] [TIFF OMITTED] T63501.086
    
    [GRAPHIC] [TIFF OMITTED] T63501.087
    
    [GRAPHIC] [TIFF OMITTED] T63501.088
    
    [GRAPHIC] [TIFF OMITTED] T63501.089
    
    [GRAPHIC] [TIFF OMITTED] T63501.090
    
    [GRAPHIC] [TIFF OMITTED] T63501.091
    
    [GRAPHIC] [TIFF OMITTED] T63501.092
    
    [GRAPHIC] [TIFF OMITTED] T63501.093
    
    [GRAPHIC] [TIFF OMITTED] T63501.094
    
    [GRAPHIC] [TIFF OMITTED] T63501.095
    
    [GRAPHIC] [TIFF OMITTED] T63501.096
    
    [GRAPHIC] [TIFF OMITTED] T63501.097
    
    [GRAPHIC] [TIFF OMITTED] T63501.098
    
    [GRAPHIC] [TIFF OMITTED] T63501.099
    
    [GRAPHIC] [TIFF OMITTED] T63501.100
    
    [GRAPHIC] [TIFF OMITTED] T63501.101
    
    [GRAPHIC] [TIFF OMITTED] T63501.102
    
    [GRAPHIC] [TIFF OMITTED] T63501.103
    
    [GRAPHIC] [TIFF OMITTED] T63501.104
    
    [GRAPHIC] [TIFF OMITTED] T63501.105
    
STATEMENT OF JENNIFER GUERIN ZIPPS, NOMINEE TO BE U.S. DISTRICT 
               JUDGE FOR THE DISTRICT OF ARIZONA

    Ms. Zipps. Thank you, Senator Schumer.
    In addition to my family members that were introduced 
earlier, I have my friends from law school here in the 
District, Mary McCord and Sheldon Snook, and my friend, Serra 
Tsethlikai, who is detailed here to the District from Arizona.
    I know my mother is watching by Webcast and wanted to be 
here, but couldn't make it, as well as my sisters, my friends 
and colleagues back in Arizona, and the Zipps and the Guerin 
families. Thank you.
    And thank you, Senator Kyl and Senator McCain for the kind 
introductions, and to this Committee for having this hearing; 
and, of course, to President Obama for his nomination.
    [The biographical information follows.]

    [GRAPHIC] [TIFF OMITTED] T63501.106
    
    [GRAPHIC] [TIFF OMITTED] T63501.107
    
    [GRAPHIC] [TIFF OMITTED] T63501.108
    
    [GRAPHIC] [TIFF OMITTED] T63501.109
    
    [GRAPHIC] [TIFF OMITTED] T63501.110
    
    [GRAPHIC] [TIFF OMITTED] T63501.111
    
    [GRAPHIC] [TIFF OMITTED] T63501.112
    
    [GRAPHIC] [TIFF OMITTED] T63501.113
    
    [GRAPHIC] [TIFF OMITTED] T63501.114
    
    [GRAPHIC] [TIFF OMITTED] T63501.115
    
    [GRAPHIC] [TIFF OMITTED] T63501.116
    
    [GRAPHIC] [TIFF OMITTED] T63501.117
    
    [GRAPHIC] [TIFF OMITTED] T63501.118
    
    [GRAPHIC] [TIFF OMITTED] T63501.119
    
    [GRAPHIC] [TIFF OMITTED] T63501.120
    
    [GRAPHIC] [TIFF OMITTED] T63501.121
    
    [GRAPHIC] [TIFF OMITTED] T63501.122
    
    [GRAPHIC] [TIFF OMITTED] T63501.123
    
    [GRAPHIC] [TIFF OMITTED] T63501.124
    
    [GRAPHIC] [TIFF OMITTED] T63501.125
    
    [GRAPHIC] [TIFF OMITTED] T63501.126
    
    [GRAPHIC] [TIFF OMITTED] T63501.127
    
    [GRAPHIC] [TIFF OMITTED] T63501.128
    
    [GRAPHIC] [TIFF OMITTED] T63501.129
    
    [GRAPHIC] [TIFF OMITTED] T63501.130
    
    [GRAPHIC] [TIFF OMITTED] T63501.131
    
    [GRAPHIC] [TIFF OMITTED] T63501.132
    
    [GRAPHIC] [TIFF OMITTED] T63501.133
    
    [GRAPHIC] [TIFF OMITTED] T63501.134
    
    [GRAPHIC] [TIFF OMITTED] T63501.135
    
    [GRAPHIC] [TIFF OMITTED] T63501.136
    
    [GRAPHIC] [TIFF OMITTED] T63501.137
    
    [GRAPHIC] [TIFF OMITTED] T63501.138
    
    [GRAPHIC] [TIFF OMITTED] T63501.139
    
    [GRAPHIC] [TIFF OMITTED] T63501.140
    
    [GRAPHIC] [TIFF OMITTED] T63501.141
    
    [GRAPHIC] [TIFF OMITTED] T63501.142
    
    [GRAPHIC] [TIFF OMITTED] T63501.143
    
    [GRAPHIC] [TIFF OMITTED] T63501.144
    
    [GRAPHIC] [TIFF OMITTED] T63501.145
    
    [GRAPHIC] [TIFF OMITTED] T63501.146
    
    [GRAPHIC] [TIFF OMITTED] T63501.147
    
    [GRAPHIC] [TIFF OMITTED] T63501.148
    
    [GRAPHIC] [TIFF OMITTED] T63501.149
    
    [GRAPHIC] [TIFF OMITTED] T63501.150
    
    [GRAPHIC] [TIFF OMITTED] T63501.151
    
    [GRAPHIC] [TIFF OMITTED] T63501.152
    
    [GRAPHIC] [TIFF OMITTED] T63501.153
    
    Senator Schumer. Thank you. And I think there is no one 
extra--there is one person. Do they want to stand? They do not 
have to. I think we should end right here, we are having such a 
good time.
    I will be brief. I have a few questions for the nominees in 
general and then a few for each nominee. And so let me ask the 
general questions. I am going to ask them all at once, all 
three, and ask you each to just speak a little about those.
    First, tell us about why you want to be a judge and how you 
believe your experiences up to this point will help you to do 
the job well.
    Second, what do you believe are the most important 
characteristics for a judge to have?
    And, third, I have always said that moderation and judicial 
modesty are two qualifies very important to me in a potential 
judge. What do these two concepts mean to you?
    So we will start with Mr. Ramos and work our way over.
    Mr. Ramos. Thank you, Senator, for that question. I want to 
be a judge, Senator, because I am a public servant at heart and 
I believe that service to the legal community as a judge is the 
very finest service that an attorney can provide.
    It has been a long-term aspiration, and I am very grateful 
to have the opportunity to be considered for the position.
    I believe that the most important characteristics that a 
judge should have are a deep and abiding respect for the rule 
of law and a willingness to try each matter before him or her 
in a fair and impartial manner, and that the judge also run his 
or her courtroom in a manner that provides or that accords 
respect to all of the individuals that may come before the 
bench, not only litigants, but, also, witnesses, jurors, and 
court personnel.
    With respect to your third question, I could not write so 
quickly. I did get the part about moderation. I agree that 
moderation is a wonderful quality for a judge to have. I think 
that we have to be humble before the position.
    I think that judges need to have an appreciation for our 
constitutional structure and, in particular, the role of judges 
within that structure, and, therefore, I believe that judges 
need to exercise restraint by trying, in all cases, only the 
issues that are before him or her and applying binding 
precedent, when appropriate.
    Senator Schumer. Thank you, Mr. Ramos.
    Mr. Carter.
    Mr. Carter. Thank you for the question, Senator.
    I truly enjoy being a Federal magistrate judge. It is the 
best job that I've ever had and I wish to continue to serve the 
Federal judiciary with a larger role.
    In terms of the characteristics that a judge should have, I 
believe that the characteristics are intelligence, dedication, 
and humility. And in terms of your last question, I do think 
moderation is extremely important, because you don't want--
judges, as my fellow nominee has indicated, should try only the 
issues before them and decide those issues as narrowly and 
practically as possible. And if you have a judge who is at an 
extreme on the political spectrum, there may be a lack of faith 
by the public that this person is actually going to decide 
those issues narrowly and practically.
    And I, like my fellow nominee, didn't write--didn't get the 
last part of that third question. What was the last part? It 
was moderation and?
    Senator Schumer. Just what do these--you answered it. What 
do these two concepts mean to you?
    Mr. Carter. OK. Thank you very much.
    Senator Schumer. Mr. Furman.
    Mr. Furman. Thank you, Senator.
    First, in answer--or in answer to your first question, why 
I would want to be a judge, I have two passions in life. One is 
the law, the other is public service, and becoming a judge 
would be an extraordinary way to combine those two things and 
continue to serve my country, and I would be honored and 
privileged to serve in that way.
    No. 2, I think important qualities in a judge are adherence 
to the rule of law, integrity, fairness, and moderation; also, 
the ability to keep an open mind.
    And with respect to your final question, I agree that 
moderation and modesty are essential qualities in a judge, as I 
just mentioned. To me, I would say they mean three things. One 
is an adherence to the rule of law, a recognition of the 
judge's limited role in our democratic system, that it is the 
job of the political branches to make policy, the job of a 
court to apply law, as well as an obligation, particularly of 
the lower court judge, to follow precedent.
    Two, as Judge Carter mentioned, an obligation to decide 
cases as narrowly as possible; and, three, I would say 
moderation and modesty are an essential quality in terms of 
management of a courtroom. One should give equal dignity and 
respect to all parties appearing before the court.
    Senator Schumer. Thank you, Mr. Furman.
    Mr. Gilstrap.
    Mr. Gilstrap. Thank you, Senator.
    I, too, am passionate about the law and about public 
service. I believe that the characteristics of a good judge 
start with a faithfulness to the law and the rule of law. It 
also involves a mindset of fundamental fairness in whatever 
comes before the court--whoever comes before the court.
    I've been privileged, in almost 30 years of practicing law 
in east Texas, to find that almost without exception, the best 
prepared person in the courtroom is usually the judge, and I 
think that a good judge leads by example, an example of 
diligence and preparedness.
    And if I'm fortunate enough to be confirmed, I, too, would 
hope to be the most prepared person in the courtroom.
    I agree with my colleagues that a modest approach involves 
focusing on what's before the court, limiting the rulings to 
the issues that are fairly raised and not going beyond that. 
And I believe that these characteristics are something I can 
add to.
    I've always believed that there is a difference between the 
office and the officeholder. We all come to an important office 
that will long be there after we're gone. But if we're 
fortunate enough to be confirmed, we have an opportunity to add 
to that and to be a part of the ongoing legacy of our judicial 
system.
    Senator Schumer. Thank you.
    Magistrate Judge Zipps.
    Ms. Zipps. Senator Schumer, I want to be a district court 
judge because I do enjoy the role of a judge. I think we have a 
great legal system in this country. It's one of the best in the 
world, if not the best and it's by people who have passion to 
serve in that role and, as lawyers, that will keep this legal 
system the great system that it is.
    I think important characteristics for a judge would be 
conscientiousness, honesty, and a respect for the law and the 
legal process. Modesty is necessary for management of a 
courtroom, for relation to the people who appear in that 
courtroom, and to have a humble disposition in understanding 
your role and that you're one of the people to sit in judgment 
of others is a very important role and it's one that requires 
humility.
    Senator Schumer. Thank you.
    Now, I have a question for each of the witnesses, and then 
we will get on to my colleagues.
    You know what? I do not want to keep you folks here. So let 
me call--since I am over my time, I am going to go for a second 
round and I will ask you each specific questions.
    But I will call on Senator Kyl and then Senator Franken, 
and then we will do a second round, if anyone has any. And 
Senator Lee. I apologize.
    Senator Kyl. Thank you, Mr. Chairman.
    Might I begin by asking unanimous consent to put a 
statement in the record of the Ranking Member, Senator Grassley 
from Iowa.
    Senator Schumer. Without objection.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Kyl. Thank you.
    And let me ask a couple of you specific questions, starting 
with Mr. Furman, if I could start with you. There are a couple 
of things I suspect you would like the opportunity to clear up 
and I am going to give you that opportunity.
    You wrote an article when you were in college, the title 
``Bang, Bang, You're Dead, the NRA Supplied the Lead.'' I do 
not know whether you chose the title or the publication did, 
but in any event.
    You blamed the NRA for gun violence in the United States 
and voiced support for the Brady bill, which the Supreme Court 
later ruled partly unconstitutional in the Prince case, and 
stated your view that the right of an individual to own a 
firearm is not the right envisioned by the framers, but merely 
it is a right reserved for those who serve in a militia.
    That was before, of course, the Supreme Court's recent 
decisions in D.C. v. Heller and McDonald v. Chicago. Together, 
they hold that the Second Amendment protects an individual's 
right to possess a firearm unconnected with service in a 
militia, and that the right is incorporated to the states by 
the due process clause of the Fourteenth Amendment.
    Two questions. One, do you recognize that that is the 
Supreme Court precedent now, and will you faithfully apply that 
precedent in any case that were to come before you raising the 
issue?
    Mr. Furman. Thank you, Senator, for the opportunity to 
address that.
    Now, the short and to-the-point answer to your questions is 
absolutely. More broadly, let me just say that I do not adhere 
to the views that I expressed in that article for two reasons.
    First, as you noted, I wrote that article when I was an 18-
year-old freshman in college. I had little college education 
and I certainly had no legal education, training or experience. 
Candidly, I didn't have an appreciation of what it takes to 
answer a difficult legal question, the kinds of sources that 
you look at, the kind of deliberation that is required.
    Like many 18-year-olds and, I dare say, particularly, 18-
year-olds at Harvard University. I thought I knew a lot more 
than I actually did.
    Senator Schumer. (Off microphone.]
    [Laughter.]
    Mr. Furman. No defamation intended.
    Number two is, as you noted, the Supreme Court held 
forcefully in Heller and resolved any ambiguity there had been 
whatsoever that the right to keep and bear arms in the Second 
Amendment is an individual right, and held in McDonald that 
that right is fundamental and applies against the states.
    If confirmed as a district judge, I would faithfully apply 
those precedents as I would any Supreme Court case.
    Senator Kyl. Thank you. You also wrote, as a college 
student, an article in which you criticized former President 
George H.W. Bush for a variety of misstatements or malapropisms 
or other statements which you said you thought were symptoms of 
a brain disorder called aphasia.
    Obviously, a district court judge has to demonstrate a 
balanced temperament, as well as a thoughtful application of 
legal precedence, as well as other scientific matters if they 
would come before the court.
    Can you talk to us about how your views may have matured in 
this matter, as well?
    Mr. Furman. Sure, Senator. I wrote that article when I was 
a sophomore in college.
    [Laughter.]
    Mr. Furman. And the word sophomoric comes to mind.
    Senator Schumer. Does this mean your 1 year of Harvard 
education did not do much good?
    [Laughter.]
    Mr. Furman. No, no. As I said, the word sophomoric comes to 
mind and not merely because I was a sophomore.
    That article was intended to be tongue-in-cheek. It was an 
attempt at political humor. I can't say I have or had the 
skills of Senator Franken in that regard.
    It was not meant--there was no disrespect intended to 
President Bush and I have the utmost respect for him.
    Senator Kyl. In retrospect, would you consider that it was 
probably not the best of things to have written?
    Mr. Furman. I would certainly agree with that, Senator. I 
am not sure it accurately characterizes who I was even at the 
age of 19, but I can assure you that, sitting here before you 
today, it does not characterize who I am. And I think if you 
were to ask the judges that I have appeared in front of, my 
opposing counsel, the witnesses I've dealt with, I think you 
would find that I am known for treating people with respect 
that I did not show President Bush in that article, and I 
apologize for that.
    Senator Kyl. I have talked to one of the judges with whom 
you worked very closely and he would agree with the statement 
that you just made and supports your nomination wholeheartedly. 
And it happens to be a Republican, I might add.
    Let me just ask you one more, slightly more recent, but, 
again, an opportunity for you to put to rest any issue. And I 
am just a little perplexed by this one.
    You write in a law review article in 1997 that criminals, 
and I am quoting now, ``should be told that society's norms 
contribute to their misfortune,'' and I am perplexed at what 
you meant by that.
    Mr. Furman. Senator, sitting here today, I'm not sure what 
I meant by that particular statement either. But that article 
that you quoted from is a work really more of philosophy than 
of law. It, obviously, addressed sort of quasi-legal issues 
and, in particular, the disenfranchisement of felons.
    I think I made very clear in the article that it was not 
intended to address the legality of that. That's something the 
Supreme Court addressed clearly in the case Richardson v. 
Ramirez and held was constitutional.
    I've spent the last 7 years of my life prosecuting 
criminals, trying to put people who violate our laws in prison. 
I think that record speaks to my views on the matter and I'd 
leave it at that.
    Senator Kyl. Thank you.
    I am over my time, as well, Mr. Chairman.
    Senator Schumer. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    I thought it was very interesting that Judge Carter and Mr. 
Ramos did not hear the second part of your last question, and 
yet both of them talked about--your question was about 
moderation and judicial modesty, and each of them used the 
word--well, you used the word ``humble'' and you used the word 
``humility.''
    So either that was subliminal or, as president George W. 
Bush said, subliminable.
    [Laughter.]
    Senator Franken. And which I do not think was a sign of any 
kind of aphasia or anything like that.
    [Laughter.]
    Senator Franken. I just wanted to make that clear. OK. So 
that was interesting. I just thought it was an interesting 
thing I would point out.
    Senator Schumer. Thank you, Al.
    Senator Franken. You are very welcome, Mr. Chairman.
    Before I begin, I would like to enter a few letters in 
support of Mr. Furman's nomination. Here are the dates: July 1, 
2011, a joint letter from 30 fellow Supreme Court of the United 
States clerks; July 6, 2011, joint letter from over 90 Yale Law 
School classmates; July 13, 2011, from the New York City Bar; 
and, July 27, 2011, from Attorney General Mukasey.
    And without objection, I would like to submit them all, Mr. 
Chairman, without objection.
    Senator Schumer. Without objection.
    [The letters appear as a submission for the record.]
    Senator Franken. And I would like to call special attention 
to the last letter, which, of course, as I said, is from the 
former attorney general under President George W. Bush.
    Mr. Furman served General Mukasey as a law clerk when he 
was a judge and as an attorney when General Mukasey was 
attorney general.
    And as far as your writings are concerned, I never wrote 
anything like that ever.
    [Laughter.]
    Senator Franken. And I am, frankly, scandalized. 
Scandalized.
    My first question will be for you. As a Federal prosecutor, 
you have worked on and advised a number of significant 
financial fraud, public corruption, and terrorism cases, 
including the Times Square bomber case, the prosecution of 
employees from Bernie Madoff's securities firm, and the 
prosecution of Bernie Kerik, the former New York City police 
commissioner.
    In addition, I understand you helped draft the 80-page 
indictment against Khalid Sheikh Mohammed, the criminal 
mastermind of the September 11 attacks.
    Can you tell me how these experiences have shaped your view 
of our criminal justice system and how that has prepared you to 
serve on the Federal bench?
    Mr. Furman. Thank you very much for the question, Senator. 
Thank you for putting those letters into the record.
    I've been privileged to serve as United States attorney in 
the southern district of New York in the last 2 years as the 
deputy chief appellate attorney in that office.
    In that capacity, I've been consulted on and advised on 
various cases in a variety of areas, which has been a very 
enjoyable experience and, also, I think, exposed me to really 
the range of cases on the criminal side at least that a judge 
sitting in the southern district of New York would likely hear.
    I think it has allowed me to develop the kinds of skills 
that one needs as a judge to research difficult questions of 
law, figure out what the law is, and then apply it to the 
facts, and I would hope to bring that to the bench, if 
confirmed.
    Senator Franken. Thank you.
    Mr. Ramos, you have also had a broad range of experience in 
criminal law, both as a Federal prosecutor and as an attorney 
in private practice.
    In one case that caught my eye, you successfully prosecuted 
a defense contractor who had manufactured faulty equipment for 
Apache attack helicopters.
    Can you tell us about the facts and legal arguments 
involved in that case?
    Mr. Ramos. Yes, Senator.
    That case was against a company that manufactured very 
technical optical equipment that was used to bore-sight the 
weapons systems of the Apache attack helicopter. It was able--
the equipment was meant to be able to bore-sight the weapons 
systems while on the ground, which was a significant 
improvement from the prior technology that was used. And each 
piece of equipment that the Army purchased cost approximately 
$250,000.
    We learned that contrary to the contracts with the 
government, the company was not using the appropriate testing 
protocols that were called out in the contracts, and the 
investigation was commenced after a whistleblower within the 
company approached the Federal Government.
    The company was investigated, ultimately pled guilty, 
because the chief engineer on the project pled guilty and, 
therefore, criminal liability was able to be put on the 
company, as well.
    Because the engineer pled guilty, the company did not go to 
trial and the issues that were involved, they were really one 
of the quantum of evidence that the government had.
    There were substantial negotiations over a number of 
months, because the defense believed that because our witnesses 
were mere technicians, that we would not have been able to 
prove beyond a reasonable doubt that the appropriate tests were 
not conducted. But with the plea of the engineer, that took 
care of those issues.
    Senator Franken. Thank you. And I am out of time. So I want 
to just congratulate all of you on the nominations, and go back 
to the Chair.
    Senator Schumer. Thank you, Senator Franken.
    Senator Lee.
    Senator Lee. Thank you. I have a couple of questions for 
Mr. Furman. But before I do that, I would just like to note 
that this would involve a lot of concentration of legal brain 
power in one family, between you and your law professor wife. I 
trust that your children are experts by now in the rule against 
perpetuities, the doctrine of worthier title, and the rule in 
Shelley's case.
    Mr. Furman. Absolutely, Senator.
    Senator Lee. Wonderful. I wanted to talk to you about a 
brief you submitted as amicus curiae in a case called Good News 
Club v. Milford School District.
    In that brief, which you filed on behalf of the Anti-
Defamation League, you argued that the existence of a faith-
based extracurricular club at an elementary school eroded 
values that are protected by the establishment clause.
    The brief argued that because the club was designated to, 
quote, ``label people as saved or unsaved and, thus, to promote 
Christian belief, in particular,'' the school could reasonably 
refuse to allow the club to use the school for its meetings.
    Can you describe the establishment clause values that you 
believed supported this proposition?
    Mr. Furman. Thank you for that question, Senator.
    As you know, I worked on that brief when I was working at 
the law firm of Wiggin & Dana. I, obviously, did so in my 
capacity as an attorney. I had a client and, in that regard, 
took a view that the client wanted to advance.
    The Supreme Court, as you know, held in that case that the 
exclusion of the Good News Club from the Milford Central School 
District was a violation of the free speech clause of the First 
Amendment. And, obviously, if confirmed as a district judge, I 
would faithfully apply that decision as I would any Supreme 
Court decision.
    Senator Lee. So in what instances might a religiously 
affiliated group be permitted to convene a club at a public 
school under the proper standard, as you understand it?
    Mr. Furman. Senator, it has been a while since I've engaged 
in that material. I'm not a scholar in that area. I've 
certainly spent the last number of years prosecuting cases and 
dealing with criminal law.
    My recollection is with respect to the establishment 
clause, for example, the Supreme Court has established various 
tests regarding sort of the avoidance of excessive entanglement 
between the state and religion.
    Sitting here today, I couldn't necessarily articulate what 
those tests are, but I would, obviously, apply them, if 
confirmed as a judge.
    Senator Lee. So to the extent your client's position in 
Milford was at odds with the Supreme Court's ruling in that 
case, you, as a Federal district judge, if confirmed to that 
position, would not have difficulty applying that precedent, 
and notwithstanding the fact that it would leads to a different 
outcome than the one you were advocating there.
    Mr. Furman. That's correct, Senator.
    Senator Lee. Thank you.
    I want to go back briefly to the 1991 Harvard article, not 
for the point--not for the major points that were discussed by 
Senator Kyl, but for a point that was raised in the penultimate 
paragraph of that article, in which you said, ``According to 
the NRA, the right to bear arms is as `crucial to the 
maintenance of democracy' as the other basic freedoms 
guaranteed by the Bill of Rights, namely, the freedom of speech 
and the press. But times have changed. The right to bear arms 
is no longer as crucial to the maintenance of democracy as it 
was 200 years ago. The rights to free speech and press are.''
    Is this a statement that still reflects your views today?
    Mr. Furman. No, Your Honor. Excuse me. You're not a judge. 
But, no, Senator. I'm more used to appearing before judges than 
Senators.
    It is not. Again, I wrote those words as an 18-year-old 
with no legal experience or training and, frankly, spoken with 
more confidence than I--than was warranted.
    As you know, the Supreme Court held in the McDonald case 
that the right to keep and bear arms is a fundamental right and 
it actually explicitly rejected the proposition that there is a 
hierarchy of rights among the ones that are mentioned in the 
article, the right to free speech and the right to bear arms.
    And if confirmed as a district judge, I would apply that as 
I would any Supreme Court case.
    Senator Lee. And if confirmed as a district judge, I assume 
you would no longer harbor the position that if one right, as 
you perceive it, is no longer as important relative to 
democracy as it might have been in the perception and time of 
the Founding Fathers, that is not a reason not to accord it 
protection.
    Mr. Furman. That's absolutely correct, Senator. If 
something is a right, then it would be my obligation to apply 
that right consistent with law.
    Senator Lee. Great. Thank you very much.
    Senator Schumer. Thank you, Senator Lee.
    Senator Kyl wanted to make a brief statement before I get 
to my questions.
    Senator Kyl. And then I might have one other question or 
two of the witnesses. But I wanted to especially thank the 
Chairman of the full Committee, Senator Leahy, for adding to 
the witness list here Judge Zipps, who was not on the original 
panel.
    But I think because of the need to fill the vacancy of 
Judge Roll, he was in mind of the need to act as quickly as 
possible to fill this vacancy, and I wanted just to express my 
appreciation to him for doing that.
    Senator Schumer. Thank you.
    I will follow-up with my first question to Mr. Furman, 
since it is along the lines of Mr. Lee's question. Mr. Lee and 
I, our views on gun control would be quite different. I am the 
author of the Brady law.
    But I have always felt, and I want to get you to comment on 
this, Mr. Furman, that it is really not fair for liberals, if 
you will, who believe in an expansive First, Third, Fourth, 
Fifth, Sixth Amendment to then see the Second Amendment through 
sort of a pinhole, only applying to militias.
    I have always felt there is a right to bear arms, as the 
Heller case enumerated. But I say to my colleagues on the other 
side, just as the First Amendment is not absolute, you cannot 
scream ``fire'' in a crowded--falsely scream ``fire'' in a 
crowded theater. We have libel laws and anti-pornography laws 
and all kinds of other laws that limit the First Amendment, 
because even our amendments, a great resider of rights in the 
individual, even they have balancing tests.
    And just as we have limits on the First Amendment or some 
of these others, there are reasonable limits on the Second 
Amendment, of which Brady might be one.
    So I am interested in, given Mr. Lee's question, which was 
sort of similar and we talked a little bit about this when I 
interviewed you at first, do you agree with that basic 
sentiment that it is sort of--you cannot see one amendment 
through sort of the narrowest of interpretations and see all 
the others through very broad interpretation?
    That would not be fair, no matter what your political 
philosophy is.
    Mr. Furman. Thank you, Senator. Again, I would point to the 
majority opinion in McDonald, which I think made clear exactly 
that, that the Second Amendment right is not given any lesser 
weight than the other rights in the Bill of Rights. And if 
confirmed as a district judge, I would, obviously, faithfully 
apply that.
    With respect to the question of whether a balancing test is 
applicable, I think the Court made clear in Heller that the 
test is not one of balancing interests, per se. At the same 
time, the Court made clear that there are certain forms of 
restrictions on guns, for example, the possession of guns by 
convicted felons, and the like that would be permissible under 
the Court's view. And if confirmed as a district judge, I 
would, obviously, apply that.
    Senator Schumer. Thank you.
    I have questions for a few of the other witnesses.
    Mr. Gilstrap, I have been concerned about the reputation of 
the court in the eastern district of Texas--I do not know if 
you have followed this a little bit--in terms of bias toward 
plaintiffs in patent cases, particularly business method 
patents, where 56 percent of all the cases in the country are 
litigated there, and it seems the plaintiff almost always wins.
    Again, this is a view maybe where I am more in accord with 
this side than that side.
    But some of these are almost what is called patent trolls, 
you know. They try to have long suits and the eastern district 
of Texas seems to allow these suits to go on forever. And so 
the people who are sued for very logical things that, in my 
judgment, would never really be patented if they were given a 
real fair court test, and often on appeal, if they ever get to 
appeal, they are overturned in the eastern district.
    So what can you do, simply, to assure me that in these 
cases, you will see things down the middle, shall we say, 
without a bias toward plaintiffs in these cases, which, 
frankly, at least I believe exists in the eastern district of 
Texas?
    Mr. Gilstrap. Thank you for the question, Senator.
    I think the best way I can assure you in that regard is to 
mention that my record of service as a local official for 
almost 14 years was clearly one of moderation, one of taking a 
middle path.
    If you talk to the people in east Texas who know me, I 
think they will uniformly assure you that I am not someone who 
veers to one extreme or the other. That's my natural take on 
most issues.
    I can assure you that whatever--if I'm fortunate enough to 
be confirmed, whatever is filed and comes before me will get 
careful scrutiny. And it's my hope that in looking back, in the 
years to come, my legacy as a judge will not be that you 
favored one side or favored the other side, but that everybody 
got a fair hearing.
    I've heard it said that to be an effective district judge, 
you have to be willing to disappoint your friends and astound 
and please your detractors sometimes, and I think we approach 
the business of judging not from a standpoint of what the 
outcome should be, but what the law requires and a faithful 
application of that law to the facts as established.
    And I can promise you that, if confirmed, that will be the 
approach I will take.
    Senator Schumer. Thank you.
    Mr. Ramos, my question here is, the vast majority of your 
work has been on criminal matters. So tell us a little bit 
about your judicial philosophy and how you might approach the 
many civil cases that will come before you as a judge. And do 
you think the fact that your experience has been on one side 
will jeopardize you in any way in terms of the civil side of 
things?
    Mr. Ramos. Thank you, Senator.
    In the first instance, I would like to point out that 
despite the fact that the last 17 or so years of my career have 
been on the criminal side, I did start my career at the very 
prestigious law firm Simpson, Thatcher and Bartlett and during 
those 4.5 years, approximately, I worked exclusively on civil 
matters.
    These tended to be large money, bet-the-company type 
matters that were very important to the clients and, therefore, 
required a lot of work and diligence on the part of the 
attorneys.
    During the course of those 4 years, I worked on a wide 
variety of substantive legal matters, including financial 
frauds, court contract cases, lender liability, et cetera, mass 
torts, and I worked on every aspect of the litigation from the 
filing of a complaint to a jury verdict.
    In terms of my judicial philosophy, I believe that judges 
should have an abiding respect for the rule of law and should 
try all of the cases that come before them fairly and 
impartially.
    I believe that I would be able to transition to the role of 
a judge with the varied experience that I have. And to the 
extent that there is any sort of catch-up or getting back up to 
speed with respect to the civil procedures, particularly e-
discovery and those types of issues that have become more 
important since the time that I last completely practiced civil 
law, I would be able to do that by virtue of the various 
resources that are available to judges, including the Federal 
Judicial Center, my very hope--hope to be colleagues on the 
southern district, their vast experience, et cetera, and other 
sources that are available.
    Senator Schumer. Thank you.
    And, finally, to Judge Carter. I understand you once had to 
recuse yourself from a case because you were spotted by a 
litigant in a Mets cap and a blue and orange tie.
    Now, as a Yankee fan, should I be concerned about your 
impartiality?
    [Laughter.]
    Mr. Carter. Thank you for the question.
    Senator Schumer. Just tell us a little bit about what that 
was all about.
    Mr. Carter. Thank you for the question, Senator.
    I don't think that most Yankee fans have any concern for 
Mets fans at all.
    [Laughter.]
    Mr. Carter. But that was a situation in which it was 
raining outside and I just grabbed a cap, because I didn't have 
an umbrella. I had on a Mets hat and I had a civil conference 
before me in which the Mets were being sued by a kosher hotdog 
company that was claiming--the hotdog company was claiming that 
the Mets were not allowing them to sell kosher hotdogs on 
Fridays and Saturdays, and the Mets were countering that the 
hotdogs are not kosher if they're sold on Fridays and 
Saturdays.
    [Laughter.]
    Mr. Carter. But to make a long story short, we had the 
status conference----
    Senator Schumer. You would find a case like this in Albany, 
Georgia.
    [Laughter.]
    Mr. Carter. But to make a long story short, we had the 
conference. There was no problem. After the conference was 
over, one of the plaintiff's lawyers, I think, was trying to 
make an offhanded joke and simply stated, ``I saw you wearing a 
Mets hat earlier. Is there anything you need to be worried 
about? '' And I said, ``Well, no, there's nothing to be worried 
about.''
    But then upon further reelection, I thought, well, it might 
appear that there would be some appearance of impropriety. So I 
decided, in an abundance of caution, to recuse myself.
    Senator Schumer. I just would remind you that one of the 
great Yankee fans in the U.S. Senate is immediately to my 
right.
    [Laughter.]
    Senator Schumer. Senator Kyl is a great Yankee fan, and I 
try to emulate him.
    [Laughter.]
    Senator Schumer. Any other questions from the rest of our 
panel? Senator Kyl.
    Senator Kyl. First, I'm a D-backs fan, understand.
    Senator Schumer. Yes, I know.
    Senator Kyl. But in the American League----
    Senator Schumer. American League, he is a Yankee.
    Senator Kyl. In the American League, a Yankee fan. My dream 
was for the Yankees and the D-backs to play in the World Series 
and the game to be decided in the seventh game for the D-backs 
to win.
    Senator Schumer. It could happen.
    Senator Kyl. True. Mr. Gilstrap, just a couple of things. 
The comment about experience, your experience is primarily 
civil.
    Mr. Gilstrap. Yes.
    Senator Kyl. And one could ask the same thing about being 
able to apply your experience properly to the criminal side. 
And if you would like to comment on that, I do not have a huge 
concern about it, but to the extent anybody would, I would 
invite you to comment.
    But I would also like to invite you to comment further on 
what Senator Schumer was asking about. The eastern district of 
Texas does not have a good reputation with regard to these 
patent lawsuits.
    To some extent, you would be required to follow the 
precedents of your court if there are no other precedents, and 
I am a little concerned that those precedents, while they may 
be regularly overturned by higher courts, might still require 
you, in your view, to adhere to some views that are not widely 
held throughout the rest of the country.
    It is a difficult thing because you are not supposed to 
bend over backward, you are not supposed to ignore the 
precedents of the court, but you also have to apply the law as 
you think it should be. And I share the sentiments that Senator 
Schumer has expressed here.
    How would you approach those kind of cases were they to 
come to you?
    Mr. Gilstrap. Thank you, Senator, for the question.
    With regard to your first question, all of us come to the 
confirmation process from whatever backgrounds we have, and 
mine is predominantly civil. I can assure you and the Committee 
that if I am fortunate enough to be confirmed, that I will look 
forward to and anxiously sharpen my skills in the criminal 
area, and that I will, as I said earlier, strive to be the best 
prepared person in the courtroom, whether it be a civil trial 
or a criminal trial.
    With regard to your comments about the patent docket in the 
eastern district of Texas, I can tell you this. My commitment 
to this Committee and to all that know me is that I will 
faithfully apply the law and I believe there are very few cases 
that there is not Federal circuit precedent on and the only 
available precedent is from the district court level.
    However, I don't necessarily subscribe to the view that you 
approach this from what you think the law ought to be. I think 
the judge's view, especially at the trial level, is to find, 
through a fair and careful trial, what the facts are and then 
apply the existing law to those facts.
    And if the existing law is from the U.S. Supreme Court, 
then it controls. If there is none and in the patent area, it's 
from the Federal circuit, then it controls. If there is none 
from the Federal circuit and the only available authority is 
from your district, then I think you apply that law and leave 
it to the appellate courts to take whatever corrective action 
may be warranted.
    I do not view the trial court as a policymaking body in any 
shape, form or fashion, and am committed to faithfully applying 
the law, whether I like it or whether I don't like it.
    Senator Kyl. Well, that is the A-plus answer on the law 
school exam and I appreciate it. It is up to us, also, to 
change it and that is why Senator Leahy and Senator Schumer and 
I and others have legislation pending that has already passed 
the House of Representatives and we hope will pass the Senate 
soon to fix some of the problems that have existed. And I 
commend you for answering the question in a way that I think is 
correct.
    We could harass--let us see. Judge Zipps, you have not been 
harassed yet. But I do not--we do not need to do that.
    I just want to thank all of you for appearing here today 
and elucidating your views, introducing your families. I 
congratulate you all on your nomination by the President, and I 
hope that we can consider all of your nominations as soon as 
the Congress returns after the August recess, assuming there is 
one, if we can get this deficit deal resolved, there will be, 
but that we can return as quickly as possible after Labor Day 
and, in our Committee, pass you on to the full Senate so you 
can be considered by our colleagues, as well.
    Thank you, Mr. Chairman.
    Senator Schumer. Thank you, Senator Kyl.
    And the last round of questioning will go to Senator 
Franken.
    Senator Franken. Well, I actually just stuck around because 
Judge Zipps has not been asked a question and since you have 
come all the way here I suppose, you would like to be asked a 
question.
    So my question, Judge Zipps, is what do you think of Mr. 
Furman's article?
    [Laughter.]
    Senator Franken. No, that is not it. No. My question is you 
have served as a Federal magistrate judge for 6 years now. So 
you are no stranger to the Federal bench. But if you are 
confirmed as a district court judge, I anticipate you will 
preside over more cases in which you will have to draw your own 
interpretations of Federal law.
    So my question is if you are confirmed, how will you ensure 
that you will interpret our laws in line with Congressional 
intent in passing them. How will you go about determining 
Congressional intent?
    Ms. Zipps. Senator Franken, in applying the law, I would 
look first to the statute itself and the plain words of that 
statute.
    I would look to any binding precedent that had interpreted 
that statute and faithfully apply that precedent. If there were 
no binding precedent, I would look to consideration of what 
Congress' intent was, whether or not that was stated somewhere 
in the law itself or whether or not it could be fairly divined 
from the legislative history or what was available. And I would 
also look to persuasive authority for determination of the same 
issue to make sure that the law that I am applying is that that 
was intended by Congress when it enacted the law.
    Senator Franken. Thank you. And thank you all and 
congratulations to you all for your nominations.
    Thank you, Mr. Chairman.
    Senator Schumer. (Off microphone) not only in the future 
bench, but in our country to produce people like yourselves.
    The record will remain open for a week so that questions 
may be submitted in writing to all of you by those of us here 
and my colleagues on the Judiciary Committee who could not be 
here today.
    With that, thank you all for being here. Congratulations to 
your friends and family.
    The hearing is adjourned.
    [Whereupon, at 3:43 p.m. the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T63501.154

[GRAPHIC] [TIFF OMITTED] T63501.155

[GRAPHIC] [TIFF OMITTED] T63501.156

[GRAPHIC] [TIFF OMITTED] T63501.157

[GRAPHIC] [TIFF OMITTED] T63501.158

[GRAPHIC] [TIFF OMITTED] T63501.159

[GRAPHIC] [TIFF OMITTED] T63501.160

[GRAPHIC] [TIFF OMITTED] T63501.161

[GRAPHIC] [TIFF OMITTED] T63501.162

[GRAPHIC] [TIFF OMITTED] T63501.163

[GRAPHIC] [TIFF OMITTED] T63501.164

[GRAPHIC] [TIFF OMITTED] T63501.165

[GRAPHIC] [TIFF OMITTED] T63501.166

[GRAPHIC] [TIFF OMITTED] T63501.167

[GRAPHIC] [TIFF OMITTED] T63501.168

[GRAPHIC] [TIFF OMITTED] T63501.169

[GRAPHIC] [TIFF OMITTED] T63501.170

[GRAPHIC] [TIFF OMITTED] T63501.171

[GRAPHIC] [TIFF OMITTED] T63501.172

[GRAPHIC] [TIFF OMITTED] T63501.173

[GRAPHIC] [TIFF OMITTED] T63501.174

[GRAPHIC] [TIFF OMITTED] T63501.175

[GRAPHIC] [TIFF OMITTED] T63501.176

[GRAPHIC] [TIFF OMITTED] T63501.177

[GRAPHIC] [TIFF OMITTED] T63501.178

[GRAPHIC] [TIFF OMITTED] T63501.179

[GRAPHIC] [TIFF OMITTED] T63501.180

[GRAPHIC] [TIFF OMITTED] T63501.181

[GRAPHIC] [TIFF OMITTED] T63501.182

[GRAPHIC] [TIFF OMITTED] T63501.183

[GRAPHIC] [TIFF OMITTED] T63501.184

[GRAPHIC] [TIFF OMITTED] T63501.185

[GRAPHIC] [TIFF OMITTED] T63501.186

[GRAPHIC] [TIFF OMITTED] T63501.187

[GRAPHIC] [TIFF OMITTED] T63501.188

[GRAPHIC] [TIFF OMITTED] T63501.189

[GRAPHIC] [TIFF OMITTED] T63501.190

[GRAPHIC] [TIFF OMITTED] T63501.191

[GRAPHIC] [TIFF OMITTED] T63501.192

[GRAPHIC] [TIFF OMITTED] T63501.193

[GRAPHIC] [TIFF OMITTED] T63501.194

[GRAPHIC] [TIFF OMITTED] T63501.195

[GRAPHIC] [TIFF OMITTED] T63501.196

[GRAPHIC] [TIFF OMITTED] T63501.197

[GRAPHIC] [TIFF OMITTED] T63501.198

[GRAPHIC] [TIFF OMITTED] T63501.199

[GRAPHIC] [TIFF OMITTED] T63501.200

[GRAPHIC] [TIFF OMITTED] T63501.201

[GRAPHIC] [TIFF OMITTED] T63501.202

[GRAPHIC] [TIFF OMITTED] T63501.203

[GRAPHIC] [TIFF OMITTED] T63501.204

[GRAPHIC] [TIFF OMITTED] T63501.205

[GRAPHIC] [TIFF OMITTED] T63501.206

[GRAPHIC] [TIFF OMITTED] T63501.207

[GRAPHIC] [TIFF OMITTED] T63501.208

[GRAPHIC] [TIFF OMITTED] T63501.209

[GRAPHIC] [TIFF OMITTED] T63501.210

[GRAPHIC] [TIFF OMITTED] T63501.211

[GRAPHIC] [TIFF OMITTED] T63501.212

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
